1
                           Organizational Chart                             Office of Inspector General



                                              Inspector General



                   Counsel to the                    Deputy
                     Inspector                  Inspector General
                      General




2
                   Legal Assistant             Assistant Inspector
                                                                                Assistant Inspector
                                                   General for
                                                                                General for Audits
                                                 Investigations


                                           Senior               Senior         Audit               Audit
                                        Investigator         Investigator     Manager             Manager


                                                                               Audit               Audit
                                        Investigator         Investigator     Manager             Manager



                                                  Special Agent                          Audit
    Assistant to the                                                                    Manager
                             Administrative
      Inspector
                                Officer
       General
October 1, 2008 - March 31, 2009
                                                                   OFFICE OF
                                                                   INSPECTOR
                                        U.S. Securities
                                        and Exchange
                                                                   GENERAL
                                         Commission
                                                                   SEMIANNUAL
                                                                   REPORT TO
                                                                   CONGRESS
                                   MISSION
                                      The mission of the Office of Inspector General (OIG) is to promote the integrity, efficiency,
                                   and effectiveness of the critical programs and operations of the United States Securities and
                                   Exchange Commission (SEC). This mission is best achieved by having an effective, vigorous
                                   and independent office of seasoned and talented professionals who perform the following
                                   functions: !

                                   •"     Conducting independent and objec-               •"   Offering expert assistance to improve
                                          tive audits, evaluations, investigations,            SEC programs and operations;
                                          and other reviews of SEC programs
                                          and operations;                                 •"   Communicating timely and useful
                                                                                               information that facilitates
                                   •"     Preventing and detecting fraud, waste,               management decision-making and the
                                          abuse, and mismanagement in SEC                      achievement of measurable gains; and
                                          programs and operations;
                                                                                          •"   Keeping the Commission and the
                                   •"     Identifying vulnerabilities in SEC sys-              Congress fully and currently informed
                                          tems and operations and recommend-                   of significant issues and developments.
                                          ing constructive solutions;




                                                                                      3
4
U.S. Securities and Exchange Commission

                                                                                 SEMIANNUAL
                                                                                 REPORT TO
                                                 Office of
                                                Inspector
                                                 General
                                                                                 CONGRESS
                                          CONTENTS
                                          MESSAGE FROM THE INSPECTOR GENERAL!..............................................................1

                                          MANAGEMENT AND ADMINISTRATION!........................................................................5
                                                  Agency Overview!................................................................................................................5
                                                  OIG Staffing!........................................................................................................................6
                                                  New OIG Website!...............................................................................................................6

                                          CONGRESSIONAL TESTIMONY, BRIEFINGS AND REQUESTS!....................................9

                                          ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY AND
                                          THE GOVERNMENT ACCOUNTABILITY OFFICE!.........................................................11
                                                  Ethics Guidance to Staff on Impartiality in
                                                  ! Performance of Official Duties!.........................................................................................11
                                                  Notification to the OIG of Decisions on Disciplinary
                                                  ! Action and Settlement Agreements!................................................................................12
                                                  Revised Regulation on Use of SEC Office Equipment!........................................................12
                                                  Office of Information Technology Policies and Procedures!................................................13
                                                  Assistance Provided to the GAO in Connection with
                                                  " the Audit of the SEC’s Fiscal Year 2008 Financial Statements ".........................................13

                                          AUDITS AND EVALUATIONS!.........................................................................................15
                                            OVERVIEW!................................................................................................................15
                                                  Audits!...............................................................................................................................15
                                                  Evaluations!.......................................................................................................................16
                                                  Audit Follow-up and Resolution!........................................................................................16

                                              AUDITS AND EVALUATIONS CONDUCTED!.............................................................16
                                                  Practices Related to Naked Short Selling
                                                  ! Complaints and Referrals (Report No. 450)!.....................................................................16
                                                  Division of Enforcement’s Disgorgement Waivers (Report No. 452)"...................................21



                                                                                                            5
SEMIANNUAL REPORT TO CONGRESS           Regulation D Exemption Process (Report No. 459)!...........................................................24
                                        Review of the Commission’s Restacking Project (Report No. 461)"....................................28
                                        2008 Audit of Sensitive Payments (Memorandum Report No. 448)!...................................30
                                        Audit of Public Transportation Benefit Program (Audit No. 456)!.........................................32
                                        OASIS System Report - 2008 FISMA (Report No. 463)!.....................................................33
                                        CTR System Report - 2008 FISMA (Report No. 462)!........................................................35

                                    PENDING AUDITS AND EVALUATIONS!...................................................................36
                                      The SEC’s Role and Oversight of the Nationally
                                        ! Recognized Statistical Rating Organizations !..................................................................36
                                        The Office of Administrative Services’ Procurement and
                                        ! Contract Management Functions!....................................................................................37
                                        Assessment of Interagency Acquisition
                                        ! Agreements!....................................................................................................................37
                                        Evaluation of the SEC’s Freedom of
                                        ! Information Act and Privacy Act Processes!.....................................................................38

                                INVESTIGATIONS!..........................................................................................................39

                                    OVERVIEW!................................................................................................................39

                                    INVESTIGATIONS AND INQUIRIES CONDUCTED!...................................................40
                                        Violations of Employee Securities Transactions Rules and
                                        ! Possible Insider Trading!..................................................................................................40
                                        Violation of Security Officers Rules, Improper Issuance of Waiver from
                                        ! Contractual Requirements and Other Inappropriate Conduct
                                        ! Involving Commission Security Operations !.....................................................................43
                                        Financial Analyst’s Chronic Leave Abuse and
                                        ! History of Non-Compliance with Management Directives !................................................45
                                        Lack of Impartiality by Assistant Director in
                                        ! Performance of Official Duties!.........................................................................................46
                                        False Statement Allegations and Finding of
                                        ! Lack of Candor in Interview with OIG Investigator!...........................................................47
                                        Unauthorized Disclosure of Non-Public Information by SEC Staff Attorney!........................50
                                        Allegation of Retaliation by Managers in Los Angeles Regional Office!................................51
                                        Allegations of Perjury by a Regional Office Official and Receiver Conflict of Interest!...........53
                                        Misuse of Resources and Official Time for Outside Businesses!.........................................54
                                        Misuse of Computer Resources and Official Time to View Pornography!............................55
                                        Other Inquiries Conducted!................................................................................................56

                                    PENDING INVESTIGATIONS!.....................................................................................58
                                        Investigation of Failure to Uncover a Ponzi Scheme!..........................................................58
                                        Allegation of Unauthorized Disclosure of Non-Public
                                        ! Information by a Senior SEC Official!................................................................................59
                                        Allegations of Unauthorized Disclosure by Former Employee and
                                        ! Improper Enforcement Investigation!................................................................................59
                                        Allegations of Failure to Vigorously Enforce Securities Laws!..............................................59
                                        Allegations of Conflict of Interest and Investigative Misconduct!.........................................60

                                                                                                 6
                                         Complaint Concerning Unauthorized Disclosure of Non-Public Information
SEMIANNUAL REPORT TO CONGRESS            ! Obtained from a Commission Database!..........................................................................60
                                         Allegations of Management Retaliation Against Staff and Travel Abuse!.............................60
                                         Complaint Concerning Obstruction of Justice!...................................................................61
                                         Complaint of Investigative Misconduct by Various Enforcement Attorneys!........................61
                                         Allegation of Negligence in the Conduct of an Enforcement Investigation!..........................61
                                         Allegation of Unauthorized Disclosure of Non-Public
                                         ! Information to a National Media Outlet!............................................................................61
                                         Whistleblower Allegations of Falsification of Contract Documents!.....................................61
                                         Allegation of Conflict of Interest on the Part of a Senior Manager!.......................................62
                                         Allegation of Retaliatory Investigation!................................................................................62
                                         Allegation of Possession of a Weapon on Federal Property!...............................................62
                                         Allegation of Abusive Behavior and Other Improper Conduct !...........................................62
                                         Allegations of Abuse of Authority and Patterns of Discrimination!.......................................63
                                         Complaint of Misuse of Computer Resources and Official Time!........................................63
                                         Allegation of Misuse of Computer Resources by Senior Staff Member!..............................63

                                REVIEW OF LEGISLATION AND REGULATIONS!..........................................................65

                                STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS!................67

                                REVISED MANAGEMENT DECISIONS!.........................................................................67

                                AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS!.................................67

                                INSTANCES WHERE INFORMATION WAS REFUSED!..................................................67

                                TABLES
                                  1! List of Reports: Audits and Evaluations!.............................................................................69
                                    2!   Reports Issued With Costs Questioned or
                                    !    Funds Put to Better Use (Including Disallowed Costs)!.......................................................71
                                    3!   Reports With Recommendations on Which
                                    !    Corrective Action Has Not Been Completed!.....................................................................73
                                    4!   Summary of Investigative Activity!......................................................................................85
                                    5!   Summary of Complaint Activity!.........................................................................................87
                                    6!   References to Reporting Requirements of
                                    !    the Inspector General Act!.................................................................................................89

                                APPENDIX A:           Testimony of H. David Kotz, Inspector General
                                !                     of the Securities and Exchange Commission, Before
                                !                     the United States House of Representatives Committee
                                !                     on Financial Services

                                APPENDIX B: !Testimony of H. David Kotz, Inspector General
                                !            of the Securities and Exchange Commission, Before
                                !            the United States House of Representatives Subcommittee
                                !            on Government Management, Organization and Procurement,
                                !            Committee on Oversight and Government Reform
                                                                                                                                                                    7
                                                       MESSAGE FROM THE
SEMIANNUAL REPORT TO CONGRESS

                                                       INSPECTOR GENERAL
                                                       I am pleased to present the Securities and Exchange Commission (SEC)
                                                       Office of Inspector General’s (OIG) Semiannual Report to Congress for the
                                                       period from October 1, 2008 through March 31, 2009. This report is
                                                       required by the Inspector General Act of 1978, as amended, and covers the
                                                       work performed by the OIG during the period indicated.

                                    The reporting period was a very eventful and productive one for the OIG. On December 16,
                                2008, former SEC Chairman Christopher Cox asked me to undertake an investigation into
                                complaints made to the Commission regarding Bernard L. Madoff, who was arrested on December
                                11, 2008, for running a Ponzi scheme. Former Chairman Cox asked that the OIG investigate the
                                reasons that allegations made to the SEC about Madoff were found to be not credible. Former
                                Chairman Cox also requested that the OIG investigate all staff contact and relationships with the
                                Madoff family and firm and any impact such relationships had on staff decisions regarding the firm.
                                Early on December 17, 2008, we opened an official investigation into the Madoff matter and, since
                                that time, have made substantial progress in the investigation.

                                    On January 5, 2009, I testified before the United States House of Representatives Committee on
                                Financial Services about the Madoff investigation being conducted by my Office. In that testimony,
                                I indicated that the OIG would investigate several specific issues, including how the SEC handled
                                complaints it received regarding Madoff; whether examinations of the Madoff firm were affected by
                                conflicts of interest between SEC officials or staff and members of the Madoff family; the extent to
                                which Madoff ’s reputation, status and professional relationships with SEC officials may have affected
                                staff decisions regarding investigations and examinations of his firm; and whether there were “red
                                flags” signaling a Ponzi scheme that were overlooked in examinations of the Madoff firm.

                                     I also testified at a second House of Representatives hearing on March 25, 2009, before the
                                Subcommittee on Government Management, Organization and Procurement, Committee on
                                Oversight and Government Reform, entitled: “The Roles and Responsibilities of Inspectors
                                General within Financial Regulatory Agencies.” In this testimony, I discussed the efforts undertaken
                                by the SEC OIG to respond to the increasing number of strategic challenges facing the Federal
                                financial regulatory agencies in light of the current economic crisis. I provided several suggestions to
                                the Subcommittee for legislative changes that would assist Inspectors General in performing their
                                critical oversight duties. I further updated the Subcommittee on the status of current SEC OIG
                                investigative and audit matters, including the Madoff investigation.

                                   Although the Madoff investigation has consumed a great deal of the OIG’s resources, we have
                                continued our other important audit and investigatory work during this reporting period. In
                                February 2009, we concluded a comprehensive audit of the Division of Enforcement’s
                                (Enforcement) process whereby $177,605,521 of disgorgements against defendants or respondents in



                                                                                 1
SEMIANNUAL REPORT TO CONGRESS   Enforcement actions were waived for purported inability to pay over approximately a three-year
                                period. The audit found deficiencies in the disgorgement waiver process, including situations
                                where full waivers were granted even though the defendants or respondents demonstrated some
                                ability to pay, defendants’ or respondents’ assets were not accurately reported to Enforcement,
                                and adequate supporting documentation was not obtained. We made eight recommendations
                                designed to improve the process.

                                     In March 2009, the OIG completed an audit of Enforcement’s policies, procedures and
                                practices for processing complaints, including those about the practice of naked short selling.
                                Our audit found that Enforcement has brought very few actions based on conduct involving
                                abusive or manipulative naked short selling and that, in fact, only a small amount of naked short
                                selling complaints were even forwarded after the initial complaint intake for additional
                                investigation. We further found that Enforcement’s existing complaint receipt and processing
                                procedures hinder its ability to respond effectively to naked short selling complaints and referrals
                                and identified 11 recommendations to strengthen Enforcement’s controls over complaints,
                                including those pertaining to naked short selling.

                                    The OIG conducted several additional audits and reviews during the reporting period.
                                These included analyses of the SEC’s Division of Corporation Finance’s process for assessing
                                whether issuers of securities appropriately use Regulation D exemptions from the registration
                                requirements of the Securities Act of 1933; the efficacy and cost-effectiveness of an agency
                                restacking project, which changed the configuration of the layout of staff offices; the effectiveness
                                of the agency’s controls over sensitive payments, which consist of a wide range of executive
                                functions, including compensation, travel, official entertainment funds, unvouchered
                                expenditures, consulting services, speaking honoraria and gifts, and executive perquisites for
                                senior-level officials; the SEC’s public transportation benefit program; and Information
                                Technology issues reviewed pursuant to the Federal Information Security Management Act of
                                2002.

                                    Our investigative unit also completed numerous investigations during the reporting period in
                                response to allegations of violations of statutes, rules and regulations, and other misconduct by
                                SEC staff and contractors. In March 2009, we completed an investigation of several
                                Enforcement attorneys’ frequent trading activities and found that, in several instances, two
                                Enforcement attorneys sold or purchased stock of companies shortly after they potentially
                                learned of the existence of Enforcement investigations of these companies, and committed
                                violations of various aspects of the SEC’s rules on reporting of stock transactions. The
                                investigation further revealed that the SEC has essentially no compliance system in place to
                                ensure that SEC employees, with tremendous amounts of non-public information at their
                                disposal, do not engage in insider trading. We referred the the potential insider trading on the
                                part of the two Enforcement attorneys to the United States Attorney’s Office for the District of
                                Columbia’s Fraud and Public Corruption Section, which, together with the Federal Bureau of
                                Investigation, is conducting an investigation of possible criminal and civil violations. The OIG is
                                coordinating with the United States Attorney’s Office in connection with the ongoing



                                                                              2
                                investigation. We also provided management with 11 specific recommendations to ensure
SEMIANNUAL REPORT TO CONGRESS
                                adequate monitoring of employees’ stock transactions in the future.

                                    In addition, we issued investigative reports on numerous other matters, including findings of
                                violations of the District of Columbia Metropolitan Police Department regulations pertaining to
                                Security Officers regulations on the part of a security guard manager working at the SEC as a
                                contractor, chronic leave abuse on the part of a mid-level SEC employee, and a lack of
                                impartiality by a senior SEC official.

                                    Further, in order to strengthen the oversight of the Federal financial regulatory structure as a
                                whole, the OIG worked in tandem with other Federal financial regulatory Inspectors General to
                                provide coordinated oversight during this reporting period. For example, in January 2009, I
                                began serving on the Troubled Asset Relief Program (TARP) Inspector General Council, along
                                with the Special Inspector General for the TARP, and Inspectors General from several financial
                                regulatory agencies, as well as the Government Accountability Office. The TARP Inspector
                                General Council meets periodically to discuss coordination of TARP-related activities and
                                oversight efforts. I also meet separately every month with additional Federal financial regulatory
                                Inspectors General to discuss coordinated oversight efforts among the financial regulatory
                                Inspector General community.

                                   The accomplishments of my Office during the reporting period have been enhanced by the
                                support of the former and current SEC Chairmen, as well as the SEC’s management team and
                                employees. I look forward to continuing this productive and professional working relationship as
                                we continue to help the SEC meet its important challenges.




                                   #           #       #       #      #       #
                                   #           #       #       #      #       #       #       H. David Kotz
                                   #           #       #       #      #       #       #       Inspector General

                                   #

                                   #           #       #       #      #       #       #




                                                                              3
4
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                Office of
                                               Inspector
                                                General



                                          MANAGEMENT AND
                                          ADMINISTRATION
                                          AGENCY OVERVIEW                                    trusts, exchange-traded funds, interval funds,
                                                                                             and variable insurance products), over 11,000
                                             The United States Securities and                Federally registered advisors, approximately
                                          Exchange Commission aims to be the standard        5,600 broker-dealers, about 600 transfer
                                          against which Federal agencies are measured.       agents, 11 securities exchanges, the Financial
                                          The SEC’s vision is to strengthen the integrity    Industry Regulatory Authority, four securities
                                          and soundness of the United States securities      futures products exchanges, seven clearing
                                          markets for the benefit of investors and other     agencies, ten credit rating agencies, the Public
                                          market participants, and to conduct its work in    Company Accounting Oversight Board, and
                                          a manner that is as sophisticated, flexible, and   the Municipal Securities Rulemaking Board.
                                          dynamic as the securities markets it regulates.    The SEC also selectively reviews the
                                                                                             disclosures of about 12,000 public companies
                                              The SEC’s mission is to protect investors,     under the Securities Act of 1933 and the
                                          facilitate capital formation and maintain fair,    Securities Exchange Act of 1934.
                                          orderly, and efficient markets. To achieve its
                                          mission, the SEC enforces compliance with the          In order to accomplish its mission most
                                          Federal securities laws, promotes healthy          effectively and efficiently, the SEC is organized
                                          capital markets through an effective and           into four main divisions (Corporation Finance,
                                          flexible regulatory environment, fosters           Enforcement, Investment Management, and
                                          informed investment decision making, and           Trading and Markets), and also has 18
                                          maximizes the use of human capital and             functional offices. The Commission’s
                                          technological resources.                           headquarters is located in Washington, D.C.,
                                                                                             and there are 11 regional offices located
                                              SEC staff monitor and regulate a securities    throughout the country. In Fiscal Year (FY)
                                          industry that includes approximately 37,000        2008, the SEC had 3,511 full-time equivalents
                                          investment company portfolios (including           (FTE) consisting of 3,442 permanent and 99
                                          mutual finds, closed-end funds, unit investment    temporary FTE.


                                                                                        5
SEMIANNUAL REPORT TO CONGRESS   OIG STAFFING                                             Mr. Witherspoon is a 1990 graduate of
                                                                                     Georgetown University, where he received his
                                    During the reporting period, the OIG hired       Bachelor of Arts degree magna cum laude in
                                two new criminal investigators, including a new      Government. Mr. Witherspoon received his
                                Assistant Inspector General for Investigations       Juris Doctor degree from Harvard Law School
                                (AIGI). In March 2009, J. David Fielder joined       in 1994.
                                the OIG as the new AIGI. Mr. Fielder
                                supervises the OIG’s Office of Investigations,           During this reporting period, Mary Beth
                                which responds to and investigates alleged           Sullivan, Counsel to the Inspector General, was
                                violations of statutes, rules and regulations, and   elected Chair of the Council of Counsels to the
                                other misconduct by SEC staff and contractors.!      Inspector General (CCIG) for 2009. The
                                                                                     CCIG is an informal group of Federal
                                   Prior to joining the OIG, Mr. Fielder was a       Inspector General attorneys who meet
                                partner at the law firm of Haynes and Boone          periodically, and otherwise communicate, to
                                LLP where he represented individuals and             share information and discuss issues of common
                                companies involved in SEC investigations and         interest to the Federal IG community. As CCIG
                                examinations. Mr. Fielder joined Haynes and          Chair, Ms. Sullivan leads the group’s monthly
                                Boone after working at the SEC for ten years as      meetings and coordinates with the two CCIG
                                a Branch Chief in the Division of Enforcement,       Vice-Chairs and members, as well as with other
                                an Advisor to the Director of the Division of        components of the Inspector General
                                Investment Management, and a Counsel to the          community.
                                Chairman.

                                    Mr. Fielder is a 1987 graduate of                NEW OIG WEBSITE
                                Washington University in St. Louis, where he
                                received his Bachelor of Arts degree magna                During this semiannual reporting period,
                                cum laude and was a member of Phi Beta               the OIG completed development of its new
                                Kappa.! Mr. Fielder also received a Master of        website. On or about December 17, 2008, the
                                Science degree from the University of                new website, www.sec-oig.gov, was launched,
                                Pennsylvania in 1989 and a Juris Doctor degree       featuring streamlined navigational tools for
                                from the University of Michigan in 1992.             access to general information about the OIG, its
                                                                                     mission and staff, as well as more specific
                                     In February 2009, David Witherspoon             information concerning the OIG’s two central
                                joined the OIG as a Senior Investigator. Prior       components, the Office of Audits and Office of
                                to that time, Mr. Witherspoon was a Senior           Investigations. The website provides online
                                Counsel in the SEC’s Division of Enforcement,        visitors with direct access to expanded content,
                                where he investigated complex financial fraud        such as audit and evaluation reports, several
                                cases for nearly nine years. Before joining the      years of OIG Semiannual Reports to Congress,
                                SEC in 2000, Mr. Witherspoon worked as an            testimony the Inspector General has given
                                associate at the law firm of McKenna & Cuneo,        before Congress, and biographies of OIG
                                LLP (now McKenna Long & Aldridge, LLP) for           senior staff members.
                                nearly six years, specializing in commercial civil
                                litigation.                                              Another new feature of the website is the
                                                                                     option of subscribing to an RSS feed that


                                                                               6
SEMIANNUAL REPORT TO CONGRESS   provides updates to subscribers of newly-issued   access the OIG’s telephone and web-based
                                OIG reports. Finally, the website provides        Hotline to make confidential complaints to the
                                visitors with information concerning how to       OIG.




                                                                             7
8
U.S. Securities and Exchange Commission
                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          CONGRESSIONAL TESTIMONY,
                                          BRIEFINGS AND REQUESTS
                                             During the reporting period, the OIG         interest between SEC officials or staff and
                                          had extensive communications with               members of the Madoff family; the extent
                                          Congressional officials through testimony,      to which Madoff ’s reputation, status and
                                          meetings, and written and telephonic            professional relationships with SEC officials
                                          communications.                                 may have affected staff decisions regarding
                                                                                          investigations and examinations of his firm;
                                              On January 5, 2009, the Inspector           and whether there were “red flags” signaling
                                          General (IG) testified before the United        a Ponzi scheme that were overlooked in
                                          States House of Representatives Committee       examinations of Madoff ’s firm.
                                          on Financial Services on the subject of
                                          “Assessing the Madoff Ponzi Scheme.” In              The IG further explained during his
                                          that testimony, the IG described the OIG’s      testimony that he understood the
                                          operations, and discussed several significant   importance of conducting the OIG’s
                                          audit and investigative reports that had been   investigative efforts relating to Madoff
                                          issued. The IG also discussed in great detail   expeditiously and informed the Committee
                                          the OIG’s planned approach to investigating     that he had mobilized additional resources
                                          why the SEC did not discover that Bernard       to ensure the OIG made every possible
                                          L. Madoff (Madoff) was running a Ponzi          effort to conclude its investigation in a
                                          scheme prior to his arrest on December 11,      timely manner. The IG also assured the
                                          2008. The IG specified the particular issues    Committee that the OIG’s investigation and
                                          that would be investigated, including how       related reviews would be independent and
                                          the SEC handled complaints it received          as hard-hitting as necessary and that the
                                          regarding Madoff; whether examinations of       OIG would conduct its work in a
                                          Madoff ’s firm were affected by conflicts of    comprehensive and thorough manner. The



                                                                                   9
SEMIANNUAL REPORT TO CONGRESS   IG further made clear to the Committee that if           During the reporting period, the IG also
                                it finds that criticism of the SEC is warranted      met with staff of several Congressional
                                and supported by the facts, the OIG will not         Committees and Members of Congress to
                                hesitate to report the facts and conclusions as it   provide information about ongoing OIG
                                finds them. The full text of the IG’s written        activities and to respond to Congressional
                                testimony is contained in Appendix A to this         inquiries. For example, in October 2008, the
                                Semiannual Report. Information about the             IG had several conversations and a meeting
                                entire hearing is available at http://               with the Deputy Chief Counsel and other staff
                                www.house.gov/apps/list/hearing/                     members of the House of Representatives
                                financialsvcs_dem/hr010509.shtml.                    Committee on Oversight and Government
                                                                                     Reform to assist in their preparation for a
                                     The IG also testified at a second House of      hearing on the collapse of investment banks.
                                Representatives hearing on March 25, 2009,           Also in October 2008, the IG met with staff
                                before the Subcommittee on Government                members of the Senate Committee on Finance
                                Management, Organization and Procurement,            to discuss the request of Ranking Member
                                Committee on Oversight and Government                Senator Charles Grassley (R-Iowa) for
                                Reform, entitled: “The Roles and                     information and documents from the SEC
                                Responsibilities of Inspectors General within        concerning a matter Senator Grassley had
                                Financial Regulatory Agencies.” In this              asked the OIG to investigate.
                                testimony, the IG discussed the efforts
                                undertaken by the OIG to respond to the                  The IG had numerous other conversations
                                increasing number of strategic challenges facing     with Congressional staff members, as well as
                                Federal financial regulatory agencies in light of    meetings in January 2009 with Representative
                                the current economic crisis. He also provided        Jo Ann Emerson (R-Missouri) and in March
                                suggestions to the Subcommittee for legislative      2009 with Senator Grassley’s staff about the
                                changes that would assist Inspectors General in      OIG’s pending Madoff investigation. The OIG
                                performing their oversight duties. The full text     also replied to inquiries from Members of
                                of the IG’s written testimony before this hearing    Congress about matters of interest to individual
                                is contained in Appendix B to this Semiannual        constituents.
                                Report.




                                                                                10
U.S. Securities and Exchange Commission
                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                Office of
                                               Inspector
                                                General
                                                                     CONGRESS
                                          ADVICE AND ASSISTANCE PROVIDED
                                          TO THE AGENCY AND THE
                                          GOVERNMENT ACCOUNTABILITY
                                          OFFICE
                                              During this semiannual reporting period,     received concerning the propriety of staff
                                          the OIG provided advice and assistance to        participating in matters in which former SEC
                                          management on several issues that were           colleagues are representing person with
                                          brought to our attention. This advice was        interests before the agency. After reviewing
                                          conveyed through written communications, as      the draft memorandum, the OIG suggested a
                                          well as discussions with agency officials. In    few additions to the memorandum.
                                          addition to recommending improvements in         Specifically the OIG recommended that the
                                          existing procedures, we provided numerous        guidance make clear that in the case of
                                          comments on proposed policy and rule             matters involving former associates or
                                          changes that were being implemented by           individuals with whom SEC staff had a
                                          management, some in response to previous         personal friendship, these individuals should
                                          OIG recommendations. The OIG also                be treated no differently than a stranger would
                                          worked with and provided significant             be treated in the performance of official
                                          assistance to the Government Accountability      duties. The OIG also suggested that the
                                          Office (GAO) in connection with its audit of     guidance clarify that under no circumstances
                                          the SEC’s FY 2008 financial statements.          should an SEC staff member give preferential
                                                                                           treatment to any individual, including a
                                                                                           former associate or colleague, and provide an
                                          Ethics Guidance to Staff on Impartiality         example of what would constitute prohibited
                                          in Performance of Official Duties                preferential treatment. The OIG’s
                                              #
                                                                                           recommendations were incorporated into the
                                              The OIG reviewed a draft memorandum          guidance issued by the SEC Ethics Counsel to
                                          prepared by the SEC Ethics Office to provide
                                                                                           all SEC employees on December 23, 2008.
                                          guidance to SEC staff as a result of inquiries


                                                                                      11
SEMIANNUAL REPORT TO CONGRESS   Notification to the OIG of Decisions on               with at least three business days written notice
                                Disciplinary Action and Settlement                    prior to making a final decision in response to
                                Agreements                                            recommendations for disciplinary action
                                     In the course of working with Department         contained in OIG reports of investigation;
                                of Justice (DOJ) attorneys on a matter the            and (2) the OGC provide the OIG with at
                                OIG had referred for criminal prosecution in          least five business days written notice prior to
                                                                                      the SEC executing a settlement agreement
                                the previous reporting period, the OIG
                                learned that the agency had entered into a            with a subject who appealed a disciplinary
                                settlement agreement in connection with the           action stemming from a recommendation
                                subject’s appeal of her removal from the              made in an OIG report of investigation.
                                Federal service based upon the OIG’s report
                                                                                          Management had taken no action on
                                of investigation. The OIG had not been
                                informed or kept apprised of the appeal, the          these recommendations as of the end of the
                                ensuing settlement discussions or the                 reporting period. However, a new SEC
                                settlement itself, despite the fact that the          Chairman, Mary L. Schapiro, was sworn in
                                appeal was filed more than three months               on January 27, 2009. We are hopeful that
                                                                                      actions to address these issues will be taken
                                before the settlement.
                                                                                      promptly.
                                     Moreover, the OIG learned that during
                                the settlement discussions, management had
                                actually considered the possibility of                Revised Regulation on Use of SEC
                                                                                      Office Equipment
                                reinstating the subject, which could have
                                seriously compromised the ongoing criminal                As a result of prior OIG investigations
                                prosecution. Notwithstanding the fact the             into several employees’ misuse of SEC
                                subject was not reinstated, there remained a          resources and official time to view
                                concern as to the negative impact the                 pornography, the OIG had recommended
                                settlement agreement could have on DOJ’s              that the Office of the Executive Director
                                ability to prosecute this individual successfully.    (OED), in consultation with the OGC and the
                                In fact, DOJ counsel expressed grave concern          Office of Information Technology (OIT),
                                with SEC management’s decision to settle              update, consolidate and clarify the agency’s
                                with the subject and its failure to notify the        Internet usage policies, including SEC
                                OIG of the settlement.                                Regulation (SECR) 24-4.3, “Use of SEC
                                                                                      Office Equipment,” which had not been
                                    In view of the foregoing concerns, the            updated since March 2002. In October 2008,
                                OIG issued a memorandum on January 23,                the OIG reviewed a revised draft of SECR
                                2009 (Investigative Memorandum No. 464),              24-4.3 and provided written comments on the
                                making recommendations designed to ensure             draft to the OHR and the OED. The OIG
                                that the OIG is appropriately kept apprised of        recommended, among other things, that the
                                management decisions on disciplinary actions          language in the draft policy be clarified to
                                and settlement agreements. Specifically, the          specify what uses of SEC resources were
                                OIG recommended that: (1) the Office of               prohibited because they discredited the
                                General Counsel (OGC) or the Office of                agency. The OIG also recommended that the
                                Human Resources (OHR) provide the OIG                 section of the policy concerning inappropriate



                                                                                 12
SEMIANNUAL REPORT TO CONGRESS   personal uses of SEC office equipment              (9) an Interim Policy Memorandum on SEC
                                strongly warn employees that they are strictly     Information Technology Asset Management
                                prohibited from engaging in certain activities,    Accountability Controls and Responsibilities;
                                similar to language found in the Office of         and (10) an Implementing Instruction on
                                Information Technology’s Rules of the Road         Sensitive Information Encryption within the
                                that govern the use of agency computing and        SEC. OIT has incorporated many of the
                                network facilities. As of the end of the           OIG’s comments into its revisions of these
                                reporting period, management had not yet           policy documents.
                                issued the revised policy.

                                                                                   Assistance Provided to the GAO in
                                Office of Information Technology                   Connection with the Audit of the SEC’s
                                Policies and Procedures                            Fiscal Year 2008 Financial Statements

                                     During the reporting period, the OIG              During the period, the OIG worked in
                                reviewed and provided written comments to          coordination with and provided significant
                                management on several drafts of various OIT        assistance to the GAO in connection with its
                                policies, procedures, instructions and             audit of the agency’s FY 2008 financial
                                directives. The draft documents on which           statements. As described in detail in the
                                the OIG provided comments included: (1) an         Audits and Evaluations Conducted section of
                                Implementing Instruction on the Use and            this Report, the OIG conducted a limited
                                Reduction of Social Security Numbers in            scope audit of sensitive payments to senior
                                SEC Systems and Programs; (2) an                   SEC officials in support of the GAO’s FY
                                Implementing Instruction on the Rules of           2008 financial statement audit. In addition,
                                Conduct for Safeguarding Personally                OIG audit staff worked closely with the GAO
                                Identifiable Information; (3) an SEC               and the SEC’s Office of Financial
                                Regulation on the SEC’s Privacy Program;           Management (OFM) in connection with the
                                (4) an Operating Directive on Privacy              SEC’s special purpose financial statements
                                Incident Management; (5) an Implementing           (which are prepared in accordance with
                                Instruction on Privacy Incident Response           standards established by the Department of
                                Capability; (6) an SEC Regulation on the           Treasury’s (Treasury) Financial Management
                                SEC’s Paperwork Reduction Program; (7) an          Services Branch). As a result of the OIG’s
                                Operating Directive on Paperwork Reduction         work, we provided Treasury with an
                                Program Requirements; (8) the SEC Rules of         unqualified opinion on the SEC’s special
                                the Road and related Compliance Agreement;         purpose financial statements.




                                                                              13
14
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                                     CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          AUDITS AND EVALUATIONS
                                          OVERVIEW                                           Audits

                                               The OIG’s Office of Audits focuses its            Audits examine operations and financial
                                          efforts on conducting and supervising              transactions to ensure that proper
                                          independent audits and evaluations of the          management practices are being followed and
                                          SEC’s programs and operations. The Office          resources are being adequately protected in
                                          of Audits also hires independent contractors       accordance with laws and regulations. Audits
                                          and subject matter experts to conduct work on      are systematic, independent and documented
                                          its behalf. Specifically, we review the SEC’s      processes for obtaining evidence.
                                          programs and operations to determine
                                          whether:                                               In general, audits are conducted when
                                                                                             firm criteria or data exist, sample data is
                                          •   There is compliance with governing laws,       measurable, and testing internal controls is an
                                              regulations and policies;                      integral component of our objectives. The
                                                                                             OIG’s audits focus on SEC programs and
                                          •   Resources are safeguarded and appropri-        operations related to areas such as the
                                              ately managed;                                 oversight and examination of regulated
                                                                                             entities, the protection of investor interests,
                                          •   Funds are expended properly;
                                                                                             and the evaluation of administrative activities.
                                          •   Desired program results are achieved; and      The Office of Audits conducts audits in
                                                                                             accordance with OIG policy, generally
                                          •   Information provided by the agency to the      accepted government auditing standards
                                              public and others is reliable.                 (Yellow Book) issued by the Comptroller
                                                                                             General of the United States, as well as
                                                                                             guidance issued by the Council of the
                                                                                             Inspectors General on Integrity and Efficiency
                                                                                             (CIGIE).



                                                                                        15
SEMIANNUAL REPORT TO CONGRESS   Evaluations                                         corrective action plan satisfies the intent of
                                                                                    the recommendation.
                                    The Office of Audits also conducts
                                evaluations when non-audit services or                 While the regulation was substantially
                                consulting services are rendered to the agency,     completed in July 2008, the Executive
                                or when a project’s objectives are based on         Director has not approved issuance of the
                                specialty and highly technical areas.               regulation. On January 27, 2009, a new SEC
                                Evaluations are reviews that typically cover        Chairman, Mary L. Schapiro, was sworn in.
                                broad areas and are designed to provide SEC         We hope the regulation will be approved
                                management with timely and useful                   promptly.
                                information associated with current or
                                anticipated problems. Evaluations are
                                conducted in accordance with OIG policy, the        AUDITS AND EVALUATIONS
                                non-audit service standards of the Yellow           CONDUCTED
                                Book, or guidance issued by the CIGIE.
                                                                                    Practices Related to Naked Short
                                                                                    Selling Complaints and Referrals
                                                                                    (Report No. 450)
                                Audit Follow-up and Resolution
                                                                                      Background
                                     In addition to performing audits and
                                evaluations, the Office of Audits actively              The OIG conducted an audit of
                                monitors the internal system that tracks            Enforcement’s policies, procedures and
                                management’s implementation of the                  practices for processing complaints about
                                corrective actions that are recommended in          naked short selling during the period from
                                OIG reports, and performs audit resolution          May 2008 to January 2009. Specifically, we
                                and follow-up activities for these                  conducted this audit to assess whether
                                recommendations. In order to ensure that all        Enforcement had established and followed
                                recommendations for improvement in agency           policies and guidelines that enabled it to
                                programs and operations are appropriately           respond appropriately to complaints and
                                and timely resolved and implemented, the            referrals, including those involving naked
                                OIG, in coordination with agency                    short selling. We coordinated our audit efforts
                                management, drafted a detailed regulation           with the GAO, which was conducting a broad
                                prescribing the policies and procedures to be       review of the implementation of the
                                followed by the SEC for audit resolution and        Commission’s short sale regulation,
                                follow-up, in accordance with Office of             Regulation SHO. The audit was conducted
                                Management and Budget (OMB) Circular                in accordance with the generally accepted
                                A-50. Among other things, the draft                 government auditing standards.
                                regulation specifies the policies and
                                procedures to be followed to ensure that                Our audit found that the majority of the
                                corrective action is actually taken and verified    complaints that Enforcement receives from
                                in response to resolved audit                       the public come through its Enforcement
                                recommendations, and to resolve any                 Complaint Center (ECC) e-mail system. The
                                disagreements as to whether a proposed              ECC is staffed by four members from the
                                                                                    Office of Internet Enforcement (OIE). The


                                                                               16
SEMIANNUAL REPORT TO CONGRESS   staff consists of three attorneys and a                   Our audit focused on complaints
                                program analyst, who screen incoming                 pertaining to the practice of naked short
                                complaints and then forward them to                  selling. Short selling involves the sale of a
                                headquarters and regional office Enforcement         security that a seller does not own, or a sale
                                attorneys for further investigation. Of the          that is consummated by the delivery of a
                                approximately 1.38 million e-mail complaints         security that is borrowed by, or for the
                                that the ECC received from January 1, 2007           account of, the seller. A short seller believes
                                to June 1, 2008, approximately 5,000                 that the price of the stock will fall, or is
                                pertained to naked short selling.                    seeking to hedge against potential price
                                                                                     volatility in securities he or she owns. If the
                                    Enforcement also receives complaints             price of the stock falls, the short seller buys
                                through its complaints, tips and referrals           back the stock at a lower price and makes a
                                (CTR) system. The SEC implemented the                profit. If the stock price rises, however, the
                                CTR system in 2005 to improve record-                short seller will incur a loss. In the typical
                                keeping and to follow up on complaints that          short sale transaction, the seller borrows stock
                                were received outside the ECC mechanism.             from his or her brokerage firm and delivers
                                CTRs received by Enforcement headquarters            the borrowed shares to the buyer within the
                                staff are collected into a CTR database that is      standard settlement period, which currently is
                                maintained by OIE staff. Each regional office        three business days.
                                also maintains its own complaint information
                                in the CTR database. Between January 1,                   A “naked short sale” occurs when the
                                2007 and June 1, 2008, approximately 1,900           seller does not borrow securities in time to
                                complaints received by Enforcement                   make delivery to the buyer within the
                                headquarters and regional office staff were          standard three-day settlement period. As a
                                entered into the CTR database.                       result, the seller fails to deliver securities to the
                                                                                     buyer when delivery is due. This is commonly
                                    Enforcement also receives referrals of           known as a “failure to deliver” or “fail.”
                                possible securities law violations from the Self-    Naked short selling is not necessarily a
                                Regulatory Organizations (SROs). The SROs            violation of the Federal securities laws or the
                                send the referrals to Enforcement through an         Commission’s rules. However, the SEC’s
                                automated SRO Market Referral System,                Division of Trading and Markets has
                                which is monitored by Enforcement’s Office           recognized that abusive naked short selling
                                of Market Surveillance (OMS). Enforcement            can have negative effects on the market, as
                                regards these referrals to be more reliable          fraudsters may use naked short selling to
                                than complaints received directly from the           engage in illegal market manipulation (e.g.,
                                public because the referrals are based on            by selling stock short and failing to deliver
                                investigations conducted by SRO staff, who           shares at the time of settlement with the
                                have access to state-of-the-art market               purpose of driving down the stock price).
                                monitoring resources. Based upon
                                information obtained during our audit, we                The Commission has repeatedly
                                determined that the OMS received                     recognized that naked short selling can
                                approximately 900 referrals from the SROs            depress stock prices and may have harmful
                                between January 1, 2007 and June 1, 2008.            effects on the market. The Commission
                                                                                     adopted Regulation SHO to update short sale


                                                                                17
SEMIANNUAL REPORT TO CONGRESS   regulation in light of numerous market              enforcement actions. Also, the OIG was
                                developments since the short sale regulation        informed that none of the approximately 900
                                was first adopted in 1938. Regulation SHO           SRO referrals that OMS received between
                                became effective on September 7, 2004, and          January 1, 2007 and June 1, 2008, involved
                                compliance with the regulation began on             naked short selling.
                                January 3, 2005. More recently, the
                                Commission instituted a number of                        Our audit determined that Enforcement’s
                                emergency orders and amendments to                  existing complaint receipt and processing
                                Regulation SHO. These included, among               procedures hinders its ability to respond
                                others, a July 15, 2008 temporary emergency         effectively to naked short selling complaints
                                order that prohibited short sales in the            and referrals. We further found that the
                                securities of certain financial firms unless        ECC’s written policies and procedures do not
                                certain requirements were met, and a                include specific triage steps for naked short
                                September 17, 2008 temporary rule that              selling complaints, while they do include
                                imposed enhanced delivery requirements on           procedures for an in-depth analysis of several
                                sales of all equity securities.                     other categories of complaints (e.g., spam
                                                                                    driven manipulations, unregistered online
                                                                                    offerings and insider trading). Hence, we
                                  Results                                           found that these procedures cause naked short
                                     Our audit found that despite the               selling complaints to be treated differently
                                tremendous amount of attention that naked           than other types of complaints that are
                                                                                    received and processed.
                                short selling has generated in recent years,
                                Enforcement has brought very few
                                enforcement actions based on conduct                    Moreover, the ECC’s policies and
                                involving abusive or manipulative naked short       procedures expressly instruct staff, as a
                                selling. Moreover, only a small amount of           general matter, not to forward investigation
                                                                                    complaints based on the data that is obtained
                                naked short selling complaints are forwarded
                                for additional investigation. Of                    from “Level II” trading terminals (which show
                                approximately 5,000 naked short selling             only the best bid and ask prices and number
                                complaints received in the ECC from January         of shares available). Because many investor
                                1, 2007 to June 1, 2008, only 123                   complaints on naked short selling are based
                                                                                    on information obtained from Level II trading
                                (approximately 2.5 percent) were forwarded
                                for further investigation. These were               screens, no triage is performed on these
                                forwarded not because of the naked short            complaints and they are automatically not
                                selling allegations but because they pertained      forwarded to Enforcement staff, unless they
                                to ongoing investigations. None of these            pertain to an existing Enforcement matter.
                                                                                    Our audit also disclosed a risk that naked
                                complaints resulted in any enforcement action
                                although one complaint referenced a pending         short selling complaints with potential merit
                                enforcement action involving naked short            may be eliminated from further consideration
                                selling. Additionally, we found that only six of    during the initial complaint screening process
                                approximately 1,900 complaints that were            because supervisory reviews are not
                                                                                    performed on the initial screening.
                                entered into Enforcement’s CTR database
                                during the period we examined alleged naked
                                short selling. Based on data that was available        Our audit further revealed that
                                to us, these complaints did not lead to any         improvements are needed to the CTR

                                                                               18
                                process, both at headquarters and the regional    audit that the OIE does not follow up with
SEMIANNUAL REPORT TO CONGRESS
                                offices, to ensure the appropriate handling of    Enforcement staff to ensure that CTR
                                all incoming complaints, including those          packages are complete, oftentimes resulting in
                                involving naked short selling. We found that      the OIE lacking adequate complaint
                                currently there is no uniform set of              documentation.
                                procedures for the receipt and processing of
                                CTRs and there is no division-level oversight          In order to determine compliance with the
                                of the CTR program. Presently, there are          SEC’s regional office’s CTR procedures, the
                                different procedures for processing CTRs for      OIG sent a questionnaire to staff at all 11
                                headquarters and the regional offices. The        regional offices. Existing CTR policies and
                                OIG also discovered that some regional offices    procedures applicable to the regional offices
                                have their own written CTR procedures,            require that supervisors at the Senior Officer
                                while others have informal, unwritten CTR         (senior executive service equivalent) level
                                practices. We also found that regional office     conduct monthly CTR reviews. The regional
                                procedures are inconsistent as to when and        offices’ responses to our questionnaire
                                whether complaints are entered into the CTR       revealed that only five regional offices
                                database. Depending on where within the           performed the required monthly CTR
                                SEC a complaint is received, complaints,          reviews. Two regional offices performed the
                                including those involving naked short selling,    reviews on a less frequent basis, while three
                                may be treated inconsistently due to the lack     regional offices did not perform the monthly
                                of uniform complaint procedures and               reviews because senior officials were involved
                                division-level oversight.                         with the CTRs throughout the process, or
                                                                                  lower level officials were considered to be
                                    Additionally, our audit found that neither    responsible for CTR judgments. One
                                the headquarters nor the regional offices are     regional office that was previously a district
                                complying with the existing written CTR           office, forwarded its CTRs to another regional
                                policies and procedures. We reviewed 82           office for review.
                                headquarters CTR packages for the period
                                from January 1, 2007 to June 1, 2008, to test         Our audit also found that Enforcement’s
                                for compliance with the headquarters CTR          current automated complaint tracking
                                policies and procedures. According to the         systems, which are primarily the ECC e-mail
                                applicable policies and procedures, a             system and the CTR database, need to be
                                complaint package should include the original     improved to ensure that complaints are
                                complaint, a copy of the response that is sent    appropriately processed and tracked. In
                                to the complainant, and a completed CTR           addition, our audit revealed that a database
                                data form. The majority of the CTR                that the OIE previously developed to track the
                                packages that we reviewed were incomplete.        results of complaint referrals was no longer in
                                Specifically, 67 percent (55 of 82) were          use due to technical difficulties that were
                                missing responses to the complainant; 40          encountered with the system. As a
                                percent (33 of 82) were missing the CTR data      consequence, the OIE currently does not have
                                form; and 10 percent (8 of 82) were missing       the ability to track electronically whether the
                                the original complaint itself. We also found      various types of complaints that are referred
                                that one of the CTRs was not entered into         to Enforcement staff result in opening an
                                the CTR database, and another CTR was             informal inquiry or a formal investigation.
                                only partially entered. We learned during our

                                                                             19
SEMIANNUAL REPORT TO CONGRESS       Recommendations                                     •   Designate an office or individual at head-
                                                                                            quarters to provide nationwide oversight
                                     The OIG issued its final report on March               for the CTR program.
                                18, 2009, and identified 11 recommendations
                                that, if implemented, will strengthen                   •   Require the OIE to perform follow-up to
                                Enforcement’s controls over complaints,                     ensure that all CTR packages that are
                                including those pertaining to naked short                   forwarded to the OIE contain complete
                                                                                            documentation concerning the complaint,
                                selling. Specifically, we recommended that
                                                                                            and that all CTRs are entered into the
                                Enforcement:                                                CTR database.

                                •    Develop written in-depth triage analysis           •   Require Enforcement’s regional office
                                     steps for naked short selling complaints, as           senior officials to perform monthly CTR
                                     it has for complaints involving other types            reviews, as required by the regional office
                                     of securities law violations, such as spam-            CTR procedures.
                                     driven manipulations and insider trading.
                                                                                        •   Improve the analytical capabilities of the
                                •    Revise written guidance to the ECC staff               ECC’s e-mail complaint system, including
                                     to ensure that naked short selling                     its search and report generation capabili-
                                     complaints based on information                        ties, as well as its ability to translate
                                     obtained from “Level II” computer                      foreign-language e-mails.
                                     screens are given a proper level of scru-
                                     tiny and referred for further investigation        •   Improve the CTR database to include
                                     where appropriate.                                     additional information about complaints,
                                                                                            e.g., by adding data fields to document
                                •    Add naked short selling to the list of cate-           supervisory and senior staff review, to in-
                                     gories of complaints on the Commission’s               crease its searching and report generating
                                     public webpage that solicits complaints                capabilities, and to resolve problems with
                                     from the public and develop an online                  regional office access to the database.
                                     complaint form specifically tailored to
                                     naked short selling complaints.                    •   Ensure that the OIE updates and resumes
                                                                                            using its previous complaint referral track-
                                •    Develop and implement policies and pro-                ing system, or develops a new system for
                                     cedures providing for supervisory review               tracking information on the results of
                                     of a sample of e-mails that are not for-               complaint referrals.
                                     warded for further review as a result of
                                     the initial screening process.                          Enforcement concurred with only one of
                                                                                        the report’s 11 recommendations, stating that
                                •    Develop uniform written policies and
                                                                                        the naked short selling complaints it receives
                                     procedures for the CTR program at
                                     headquarters and the regional offices, in-         generally do not include sufficient information
                                     cluding a requirement for when                     to warrant pursuing the complaints and that it
                                     complaints should be entered into the              is reluctant to expend additional resources to
                                     CTR database (e.g., upon receipt) and a            investigate such complaints. Enforcement
                                     provision for consistent, periodic supervi-        indicated, however, that it is willing to
                                     sory reviews of CTRs.                              perform supervisory sampling and review of
                                                                                        complaints that are eliminated at the initial



                                                                                   20
SEMIANNUAL REPORT TO CONGRESS   screening stage. Enforcement also stated that      •   Evaluate the compliance of Enforcement’s
                                because the Chairman of the SEC is currently           disgorgement waiver process with govern-
                                engaged in an agency-wide effort to determine          ing policies and procedures and identify
                                how tips and complaints are handled in the             possible improvements;
                                various divisions and offices, the appropriate
                                                                                   •   Determine whether defendants/
                                time to consider the OIG’s recommendations
                                                                                       respondents misrepresented their financial
                                would be after that comprehensive review has           position to Enforcement in seeking
                                been completed.                                        disgorgement waivers;

                                    The OIG provided a response to                 •   Quantify the defendants’/respondents’
                                Enforcement’s comments, expressing its                 actual amount of undisclosed assets, over-
                                disappointment with Enforcement’s decision             stated liabilities, underreported income
                                not to take these necessary actions to ensure          and overstated expenses; and
                                that naked short selling complaints are given a
                                                                                   •   Follow up on prior OIG recommenda-
                                proper level of scrutiny. We noted that we will
                                                                                       tions.
                                work closely with the Chairman’s efforts to
                                review internal procedures used to evaluate            Regis conducted this audit from June 2008
                                tips, complaints, and referrals for the agency     to September 2008 in accordance with the
                                to ensure that our recommendations are             generally accepted government auditing
                                appropriately implemented. After the OIG           standards.
                                report was issued, six United States Senators
                                wrote to the Chairman, stating their concern           Enforcement staff conduct investigations
                                about Enforcement’s reluctance to agree with       into possible violations of the Federal
                                the OIG’s recommendations and urging the           securities laws, and prosecute the SEC’s civil
                                Chairman to clarify the Commission’s               suits in Federal courts, as well as its
                                commitment to end abusive short selling.           administrative proceedings. In civil suits, the
                                                                                   SEC seeks injunctions, which are orders that
                                Division of Enforcement’s                          prohibit future violations. A person who
                                Disgorgement Waivers                               violates an injunction is subject to a fine or
                                (Report No. 452)                                   imprisonment for contempt. In addition, the
                                                                                   SEC can seek civil monetary penalties and the
                                  Background                                       disgorgement of illegal profits, or losses
                                    The OIG contracted the services of Regis       avoided. The courts may also bar or suspend
                                and Associates, PC (Regis), an independent         defendants from acting as corporate officers or
                                public accounting firm, to conduct an audit of     directors. Disgorgements represent ill-gotten
                                the Enforcement’s disgorgement waivers that        gains, or losses avoided, resulting from
                                were granted in Fiscal Years 2006 to 2008.         individuals or entities violating the Federal
                                The audit was conducted as a follow-up to          securities laws.
                                two previous OIG audit reports (Report Nos.
                                311 and 384) on disgorgement waivers that              The SEC can also bring a variety of
                                were issued in January 2001 and January            administrative proceedings, which are heard
                                2005, respectively. The overall objectives of      by administrative law judges and, if appealed,
                                conducting the audit were to:                      by the Commission. Proceedings seeking a
                                                                                   cease and desist order may be instituted


                                                                              21
SEMIANNUAL REPORT TO CONGRESS   against any person who violates the Federal          •   Bank account statements;
                                securities laws. The Commission may order a
                                respondent to disgorge ill-gotten funds in these     •   Credit card and brokerage account state-
                                proceedings. With respect to regulated entities          ments, insurance policies, and mortgage
                                                                                         documentation;
                                (e.g., brokers, dealers, and investment advisers)
                                and their employees, the SEC may institute
                                                                                     •   Any financial statements prepared by the
                                administrative proceedings to revoke or                  defendant/respondent, including bank-
                                suspend registration, or to impose bars or               ruptcy schedules; and
                                suspensions from employment. In
                                proceedings against regulated persons, the           •   Documents evidencing current loans.
                                Commission is authorized to order violators of
                                Federal securities laws to pay civil penalties, as       Additionally, when defendants/
                                well as disgorgement of ill-gotten gains or          respondents request a waiver, Enforcement
                                losses avoided.                                      staff are required to conduct a credit check of
                                                                                     the defendants/respondents, and to perform
                                     Enforcement is responsible for reviewing        Internet or LexisNexis searches on them, as
                                disgorgement waiver requests. The SEC seeks          well as their relatives and friends in certain
                                disgorgements to ensure that securities law          instances. These searches are designed to
                                violators do not profit from their illegal           corroborate the defendants’/respondents’
                                activities. When appropriate, the disgorged          stated financial condition and to identify
                                funds are returned to injured investors.             hidden assets, overstated liabilities, unreported
                                Penalties are also levied on violators of            income, and overstated expenses. The
                                Federal securities laws as appropriate.              financial statements that defendants/
                                Disgorgements and penalties may be ordered           respondents provide show their assets,
                                in either administrative proceedings or civil        liabilities, income and expenses. In instances
                                actions, and the cases may be settled or             where the Commission waives a disgorgement
                                litigated.                                           request, penalties are not assessed against the
                                                                                     defendants/respondents.
                                    Enforcement can recommend to the
                                Commission that disgorgements be completely               In FY 2006, the SEC initiated 914
                                or partially waived based on a defendant’s/          investigations, 218 civil proceedings, and 356
                                respondent’s demonstrated inability to pay,          administrative proceedings. These
                                among other policy reasons. Enforcement’s            proceedings covered a wide range of issues.
                                procedures require staff who are reviewing           Major areas of enforcement activity included
                                waiver requests to request sworn financial           corporate financial fraud, including abusive
                                statements (SFS) from defendants/                    backdating of stock options; compliance
                                respondents. Defendants/respondents are              failures at self-regulated organizations and
                                required to attach copies of the following           broker-dealers; and fraud related to mutual
                                documents to their SFSs that are submitted to        funds. During FY 2006, the SEC’s
                                Enforcement:                                         Enforcement cases resulted in more than $3.3
                                                                                     billion in disgorgements and penalties that
                                •   Federal income and gift tax returns, in-         were ordered against securities law violators.
                                    cluding related schedules and attach-            Whenever practical, the Commission sought
                                    ments;                                           to return funds to harmed investors through


                                                                                22
SEMIANNUAL REPORT TO CONGRESS   the use of the “fair fund” provision of Section        defendants/respondents regarding their assets,
                                308 of the Sarbanes-Oxley Act of 2002 (15              income, liabilities, and expenses. Specifically,
                                U.S.C. § 7246).                                        the audit identified two defendants/
                                                                                       respondents who underreported their assets
                                    According to Enforcement’s Phoenix                 totaling at least $386,238. Our analysis was
                                disgorgement tracking system, for FY 2006,             based on the inability to reconcile the
                                FY 2007, and from October 1, 2007 to May               amounts reported on the SFSs to the
                                31, 2008, the Commission granted                       corresponding supporting documentation and
                                disgorgement waivers totaling $72.6 million,           information that was obtained through public
                                $67.8 million, and $37.1 million, respectively.        database searches.

                                                                                           In addition, the audit found that in 56
                                  Results                                              instances, Enforcement did not follow its
                                                                                       internal procedures requiring its staff to
                                    The audit found that while progress has            obtain adequate supporting documentation
                                been made in Enforcement’s disgorgement                for dollar amounts reported on the
                                waiver process, some concerns, including               defendants’/respondents’ SFSs. Further, the
                                deficiencies the OIG previously identified, still      staff did not always document why certain
                                remained. The audit examined 63                        procedures were not followed (e.g., why
                                investigations in which 72 defendants/                 certain documentation was not obtained).
                                respondents received disgorgement waivers              Following the established procedures is
                                based on their inability to pay totaling               important because it helps to ensure that
                                $123,070,682 for the period from October 1,            waiver requests are only granted to persons
                                2005 through May 31, 2008.                             with a proven inability to pay.

                                    The audit found three cases in which full              Of the waivers reviewed, assets such as
                                waivers totaling $841,580 were granted, even           cash, securities, real estate, automobiles, and
                                though the defendants/respondents appeared             notes receivable that were reported on the
                                to have the ability to pay at least some portion       SFSs for seven defendants/respondents were
                                of the disgorgement amounts and, therefore,            not supported by documentation, such as
                                either partial payment and/or a payment plan           bank statements and asset titles. The liabilities
                                should have been considered. Specifically, the         reported on the SFSs for 21 defendants/
                                audit determined that these defendants/                respondents were not supported by
                                respondents had substantial assets, good credit        documentation such as mortgage statements
                                scores, positive net worth, and/or positive            and credit card statements. Moreover, income
                                monthly net income.                                    and expense information reported on the SFSs
                                    #                                                  were not always supported by needed support
                                    The audit also revealed two instances              documentation.
                                where the defendants’/respondents’ assets
                                were not accurately reported on the SFSs.                 The audit further found 24 instances
                                The SFSs submitted by defendants/                      where the checklists that are required for
                                respondents are the foundational documents             maintaining, reviewing and confirming the
                                in the disgorgement waiver review process.             SFSs were either not included in the file, or
                                These documents contain the assertions of the


                                                                                  23
SEMIANNUAL REPORT TO CONGRESS
                                not signed as required. The audit also found        SFSs; (4) ensure defendants/respondents SFSs
                                34 instances where credit reports, bank             are retained, signed and authorized; (5) take
                                statements and income tax returns were not          appropriate action to make certain checklists
                                provided or obtained, or signed as required.        are always retained and signed by a
                                                                                    supervisor; (6) implement adequate internal
                                     Finally, the audit found that Enforcement      controls to ensure required documentation
                                had no formal or comprehensive training             such as credit reports, bank statements, and
                                programs for its staff who are responsible for      income tax returns are retained in the
                                reviewing disgorgement waiver requests.             defendants’/respondents’ case files; (7) review
                                Formal training for those staff would provide       its internal control policies to ensure public
                                them with a comprehensive understanding             database searches are performed; and
                                regarding the disgorgement waiver review            (8) clarify its internal control policies and
                                process. Given the complexity and the level of      procedures to ensure staff attorneys are
                                sensitivity of disgorgement waivers, it is          appropriately trained in the disgorgement
                                critical that the staff who review waiver           waiver process. Management concurred with
                                requests are provided with the requisite            all eight of the report’s recommendations.
                                resources, including adequate training in new
                                technology, skills, and applicable regulatory
                                standards.                                          Regulation D Exemption Process
                                                                                    (Report No. 459)

                                                                                      Background
                                  Recommendations
                                                                                        The OIG reviewed the Division of
                                    The final audit report was issued on
                                                                                    Corporation Finance’s (CF) process for
                                February 3, 2009, and contained eight
                                                                                    assessing whether issuers of securities
                                recommendations that are needed to improve
                                                                                    appropriately use Regulation D exemptions
                                Enforcement’s disgorgement waiver process.
                                                                                    from the registration requirements of the
                                The report further identified $386,238 in total
                                                                                    Securities Act of 1933 (Securities Act). The
                                cost savings that represented underreported
                                                                                    Securities Act generally requires each sale of a
                                assets.
                                                                                    security to be registered with the SEC.
                                                                                    However, the law contains certain statutory
                                    The report recommended that
                                                                                    exemptions and allows the SEC to establish
                                Enforcement should: (1) ensure that staff
                                                                                    additional regulatory exemptions from
                                comply with its procedures and consider
                                                                                    registration when it determines that securities
                                partial payments plans and partial waivers
                                                                                    registration is not required for the protection
                                where defendants/respondents have the
                                                                                    of investors because of the small size or
                                ability to pay some portion of the
                                                                                    limited nature of the offering. In 1982, the
                                disgorgement amount; (2) undertake action to
                                                                                    SEC adopted rules known as Regulation D,
                                ensure its staff review defendants’/
                                                                                    which contain exemptions from Federal
                                respondents’ financial information for
                                                                                    registration requirements for limited offerings
                                accuracy prior to recommending a
                                                                                    of securities.
                                disgorgement waiver; (3) clarify its policies
                                regarding when supporting documentation
                                                                                        Companies that sell securities in reliance
                                should be obtained and retained for assets,
                                                                                    on an exemption pursuant to Regulation D
                                liabilities, income and expenses shown on the
                                                                                    are required to file an SEC Form D notice

                                                                               24
SEMIANNUAL REPORT TO CONGRESS
                                with the SEC. Companies may also be                 Regulation D exemption process and to
                                required to file a Form D with their respective     identify areas for improvement. The audit
                                state regulators. The Form D serves as the          was conducted in accordance with the
                                official notice of an offering of securities that   generally accepted government auditing
                                is made without being registered under the          standards.
                                Securities Act, in reliance on an exemption
                                that is provided by Regulation D. The
                                information in the Form D assists the SEC             Results
                                and state securities regulators to administer
                                the securities laws. A company is required to           Overall, the audit found that CF does not
                                report on Form D detailed information about         generally take action when its staff learn that
                                the nature of an offering, such as the amount       companies have not complied with the
                                of money intended to be raised, the type of         Regulation D exemption requirements.
                                exemption on which the company is relying,          Further, CF does not substantively review the
                                and the date of the first sale of securities.       more than 20,000 Form D filings that it
                                Regulators can use this information to              receives annually, which the OIG estimated
                                determine whether a company acted in                were used to raise $609 billion dollars of
                                accordance with the information it reported         capital in 2008.
                                on the Form D, appropriately relied on the
                                exemption claimed, and timely filed a Form D.           Based on the OIG’s analysis and review of
                                Both public and non-public companies report         Office of Compliance Inspections and
                                information using Form D.                           Examinations (OCIE) examination reports, we
                                                                                    identified several instances of misuse, non-
                                    On September 15, 2008, the SEC                  compliance, and illegal acts regarding the
                                introduced a revised Form D to clarify and          Regulation D exemptions, as well as errors in
                                simplify the reporting process and to eliminate     Form D filings. Thus, we concluded that
                                the reporting of unnecessary information.           monitoring compliance with the requirements
                                Also, as of September 15, 2008, companies           of the Regulation D exemptions is important
                                were given the option to file Form D                to ensure the integrity of the Form D filing
                                electronically with the SEC, as opposed to          process and to ensure that companies
                                sending the form to the SEC in hard copy. As        appropriately use the exemptions. Taking
                                of March 16, 2009, the SEC required all             action when deficiencies are identified would
                                Form D filers to file the form electronically.      help to achieve the SEC’s mission of
                                Also on March 16, 2009, the SEC launched a          protecting its investors.
                                new system to enable SEC staff to analyze
                                Form D information in the aggregate and to              We also believe that the Form D filings
                                develop management reports.                         contain valuable information regarding the
                                                                                    size and nature of the reporting firms
                                    The OIG initiated this audit because of         (including hedge funds), the amount of capital
                                the high dollar amount of capital that is raised    being raised, the types of exemptions that
                                through the Regulation D exemption process.         companies use, and the number of investors
                                The objectives of the audit were to evaluate        that are involved in Regulation D issuances.
                                the effectiveness of SEC’s oversight of the         However, SEC staff generally do not utilize
                                                                                    this information, which, if aggregated, could




                                                                               25
SEMIANNUAL REPORT TO CONGRESS   identify the size and nature of Regulation D            that took effect on March 16, 2009, making
                                offerings. Using a new database that the SEC            this the EDGAR system’s second largest group
                                launched on March 16, 2009, the SEC now                 of new filers. We found that the current
                                has the capability to analyze and make                  EDGAR authentication process is overly
                                effective use of the Form D information.                complex and time-consuming. In a
                                                                                        Commission meeting in December 2007, the
                                    Based on our review of Form D, we                   OIT and CF agreed to begin working
                                determined that certain revisions should be             together to simplify this process. In fact, CF
                                made to the form to better ensure that                  informed us that its staff had worked with
                                potential investors are not misled by                   OIT staff for several years to simplify the
                                information in a form filing and to further             process, even prior to the Commission
                                clarify the information that is reported on the         meeting. However, the simplified process,
                                form.                                                   which took effect on March 16, 2009, merely
                                                                                        consists of allowing new filers to attach a
                                     Our audit also found that firms lack               notarized PDF document to an online
                                formal, written guidelines from the SEC on              submission to the SEC, as opposed to faxing
                                filing disqualification waivers pursuant to Rule        the document to the SEC, as was previously
                                505 of Regulation D. Companies may seek                 required. Thus, this new process is
                                these waivers when they are found to be non-            inadequate because it did not resolve many of
                                compliant with certain provisions of the                the existing problems with the EDGAR
                                securities laws and, therefore, become                  authentication process. Moreover, in our
                                disqualified from relying on Rule 505. CF               opinion, and according to OIT and CF staff,
                                management told us that initial waiver                  an adequate simplification process should have
                                requests are often deficient and firms typically        been implemented prior to March 16, 2009.
                                need to redraft and resend the waiver requests          SEC staff noted that they plan to further
                                to CF. Firms occasionally contact CF seeking            simplify the EDGAR authentication process.
                                written guidance on this process, but CF has
                                not issued any formal written guidance to                   Finally, the audit found that the SEC
                                describe how firms can apply for the waivers            needs to further improve its coordination with
                                and when they are appropriate. Instead, CF              state regulators to ensure greater uniformity in
                                provides oral guidance and refers requestors to         Federal and state securities regulation. In
                                samples of successful waiver requests that are          particular, further coordination is needed to
                                on the SEC’s website.                                   assist the North American Securities
                                                                                        Administrators’ Association (NASAA), an
                                     Additionally, the audit determined that the        organization that is comprised of state
                                OIT and CF did not timely or effectively                securities regulators, in developing an
                                simplify the SEC’s Electronic Data Gathering            electronic system that can be linked to
                                and Retrieval (EDGAR) authentication                    EDGAR and will allow companies to file
                                process for new filers, as was expected. SEC            Form D with the states electronically.
                                officials estimated that approximately 19,000           Currently, entities can file Form D
                                new filers will file Form D electronically as a         electronically only with the Commission and
                                result of the new electronic filing requirement         must file paper Form Ds with the states.




                                                                                   26
SEMIANNUAL REPORT TO CONGRESS     Recommendations                                     regarding Regulation D and any changes that
                                                                                      should be made to this proposed rule. The
                                    The OIG’s final report was issued on              proposed rule contains provisions that we
                                March 31, 2009, and contained 17                      believe would strengthen the Regulation D
                                recommendations for improvement in the                exemption process. In addition, CF should
                                Regulation D process. The report                      raise with the Commission the possibility of
                                recommended that CF and the Commission                making the filing of Form D a required
                                better ensure that companies comply with              condition for entities to claim the Regulation
                                Regulation D and take appropriate action              D exemptions contained in Rules 504, 505
                                when CF finds that companies have materially          and 506. While Rule 503 of Regulation D
                                misused the Regulation D exemptions. For              requires the filing of a Form D, filing the form
                                example, we suggested that CF could make              is not presently required to claim the
                                additional referrals to Enforcement or contact        Regulation D exemptions.
                                companies that fail to file a Form D, or
                                otherwise misuse the Regulation D                         We also recommended that CF work with
                                exemptions. We also recommended that CF               OIT to make certain changes to Form D to
                                establish a process to review Form D                  better ensure that potential investors do not
                                information in the aggregate and develop              rely on erroneous or misleading information
                                meaningful management reports.                        in Form D filings and to further clarify the
                                                                                      Form. One improvement includes adding a
                                    We further recommended that CF                    disclaimer to Form D stating that the SEC has
                                reintroduce its Early Intervention Program,           not necessarily reviewed the information
                                which was intended to combat fraud and                contained in the Form D and that the reader
                                other securities law violations that were             should not assume that the information in the
                                perpetrated through the Internet. Through             Form is accurate or complete. We observed
                                this program, CF staff actively looked for and        that other SEC filings contain similar
                                sent letters to potential securities laws violators   disclaimers.
                                and often identified Regulation D abuses.
                                According to CF, the program ended in 2005                We also suggested that CF and OIT work
                                due to a lack of staff resources.                     together to further simplify the EDGAR
                                Reintroducing this program would provide CF           authentication process for new EDGAR filers.
                                with an additional opportunity to contact             In addition, CF should issue written public
                                potential securities law violators, including         guidance on how firms may apply for
                                issuers that misuse the Regulation D                  disqualification waivers under Rule 505 of
                                exemptions.                                           Regulation D. CF should also continue to
                                                                                      improve its coordination with state regulators
                                    The OIG also recommended that CF                  regarding Regulation D issues, and should
                                should develop criteria to describe when it is        provide additional guidance to entities on the
                                appropriate to refer potential Regulation D           Form D filing requirements. Finally, CF
                                abuses to Enforcement. We stated that CF              should implement the outstanding
                                should continue to discuss with the Chairman,         recommendations that were made in the
                                the Commissioners and Commission senior               OIG’s prior audit report, which was issued in
                                staff the merits of the SEC’s proposed rule           2004.




                                                                                 27
SEMIANNUAL REPORT TO CONGRESS       CF fully concurred with ten of the report’s              As a result of this disclosure, the House
                                recommendations and partially concurred                 Subcommittee requested that the GAO
                                with the remaining five recommendations that            conduct a review of the circumstances that led
                                were directed to CF. The OIT, OCIE and                  to the unbudgeted costs. As a result of the
                                Enforcement agreed with all of the                      review, the GAO made several
                                recommendations that pertained to those                 recommendations, and the SEC indicated that
                                units.                                                  it took action to implement GAO’s
                                                                                        recommendations. Notwithstanding the
                                                                                        significant costs expended by the SEC in
                                Review of the Commission’s                              connection with the previous moves at
                                Restacking Project                                      headquarters, New York and Boston,
                                (Report No. 461)                                        including approximately $48 million in
                                                                                        unbudgeted costs, and criticism from GAO
                                  Background
                                                                                        regarding the SEC’s management controls
                                     The OIG conducted a review of the                  over budget formulation and review, there was
                                SEC’s restacking (changing the configuration            reportedly widespread sentiment in favor of
                                of the layout of the divisions and offices)             restacking (i.e., changing the configuration of
                                project, because of various complaints                  the layout of the divisions and offices) almost
                                received from SEC staff that the restacking             from the instant SEC staff moved into the
                                project was not properly approved or initiated,         new headquarters buildings.
                                did not serve a useful purpose, and was a
                                waste of SEC resources. We conducted our                    The plan utilized when the SEC initially
                                review from December 2008 to March 2009.                moved into its new headquarters buildings was
                                The objectives of our review were to assess             a “vertical stack” configuration of staff, under
                                whether the restacking project was conducted            which staffs of the SEC’s divisions and offices
                                in accordance with applicable policies and              were spread out on multiple floors. The
                                procedures and whether an appropriate                   purpose of this vertical configuration was to
                                analysis or study was conducted to determine            enable staff from various divisions and offices
                                if the restacking project was cost effective and        to commingle on the same floor, instead of
                                beneficial to the agency.                               keeping staff in a single division or office
                                                                                        located close together on the same floor.
                                    In 2006, the SEC moved into new
                                buildings at its headquarters location in                   Almost immediately after the SEC decided
                                Washington, D.C., known as the Station Place            to utilize this vertical approach, SEC
                                1 and 2 buildings (Station Place). In May               managers decided that a horizontal approach
                                2005, the SEC disclosed to a United States              was preferable, so that divisions and offices
                                House of Representatives Subcommittee that              would not be split across multiple floors.
                                it had identified unbudgeted costs of                   Senior managers believed the vertical
                                approximately $48 million, attributable to              configuration impeded effective
                                misestimates and omissions of budget costs              communication and collaboration among staff
                                associated with the internal construction of            within divisions and offices. As a result, in or
                                the headquarters facility and improvements in           about February 2007, the Chairman asked the
                                newly-leased New York and Boston facilities.            Executive Director to explore the idea of




                                                                                   28
SEMIANNUAL REPORT TO CONGRESS
                                restacking SEC staff, including performing a        obtain their views on how the restacking
                                cost-benefit study.                                 project to date has improved communication
                                                                                    and effectiveness. The survey found that staff
                                    The restacking project was approved in          were largely satisfied with the locations of
                                the second or third quarter of FY 2007 and          their workspace prior to the restacking. We
                                included the relocation of approximately            also found that most of the staff did not feel
                                1,750 employees on the second through the           dissatisfied with the time it took to
                                ninth floors of Station Place, in nine move         communicate with either their co-workers or
                                phases. The initial government estimate for         supervisors prior to the restacking, nor did
                                the restacking project in 2007 was $2,332,000,      they feel that the prior configuration of their
                                but did not include any costs for construction.     office space impeded their productivity. In
                                As of February 2009, the funding obligated in       addition, the survey showed that staff who
                                connection with the restacking project,             had already moved to their new permanent
                                including construction, was approximately           workspace felt, for the most part, that the
                                $3.19 million. As of November 2008, the             move had no impact on their ability to
                                total cost of the completed project was             communicate effectively or their productivity.
                                estimated to be $3.9 million, which was             Further, an overwhelming majority (81%) of
                                reduced from an estimate of approximately           SEC staff who responded to the survey felt
                                $4.6 million in June 2008. Also, the project’s      that any benefits of the restacking project
                                completion date was moved back nine                 were not worth the costs and disruption to
                                months, from September 2008 to June 2009.           their work.

                                                                                         Additionally, our review found that prior
                                  Results                                           to undertaking the restacking project, the SEC
                                                                                    failed to comply with OMB’s requirements
                                    Our review found that although a cost-          and guidance for analyzing and justifying
                                benefit analysis was supposed to have been          major capital investments and did not
                                conducted, there is no record of any such           complete the form that had to be submitted to
                                analysis or a feasibility study being done. No      OMB for such projects. Our review also
                                survey or study was conducted to determine if       noted that the SEC’s policies and procedures
                                the existing configuration was actually             for space management, particularly in regard
                                impeding communication. Also, a formal              to headquarters facilities projects, are
                                analysis was not performed to determine             unofficial and quite sparse. Moreover, the
                                whether the cost and disruption caused by the       single requirement in this document that
                                project would outweigh the perceived benefits       would have applied to the restacking project
                                of improved communication. Further,                 does not appear to have been complied with.
                                according to information obtained during our
                                review, the former head of the Office of                We concluded, therefore, that there were
                                Administrative Services (OAS) was not at all in     serious questions about whether the restacking
                                favor of the project, but was given “marching       project was necessary and whether it has had,
                                orders” to go forward with it anyway.               or will have, any meaningful impact on
                                                                                    communication among or productivity of the
                                    During our review, we sent a survey to          staff. We also concluded that the SEC should
                                approximately 2,100 SEC staff in Station            have conducted a formal cost-benefit analysis
                                Place, as well as the Operations Center, to         of the restacking project prior to its

                                                                               29
                                undertaking and, had such an analysis been            statements. Our work was done as a
SEMIANNUAL REPORT TO CONGRESS
                                prepared, it may have led to the conclusion           performance audit conducted in accordance
                                that the restacking project was not worth the         with the generally accepted government
                                costs and disruption to the agency.                   auditing standards. Specifically, we assessed
                                                                                      the effectiveness of controls over sensitive
                                                                                      payments, which consist of a wide range of
                                  Recommendations                                     executive functions, including compensation,
                                                                                      travel, official entertainment funds,
                                    The OIG issued a report summarizing the           unvouchered expenditures, consulting services,
                                results of its review on March 31, 2009, that
                                                                                      speaking honoraria and gifts, and executive
                                included four recommendations. Specifically
                                                                                      perquisites. Controls over these payments to
                                we recommended that the OAS carefully                 senior government executives are critical
                                review the results of the OIG survey to
                                                                                      because these senior executives are vested with
                                determine if any changes should be made to            the public trust and hold positions with a high
                                the restacking project based upon the
                                                                                      degree of decision-making authority in the
                                responses. We further recommended that the
                                                                                      Federal government. Within the SEC, senior
                                OAS conduct another survey after the                  government executives include the Chairman,
                                restacking process has been fully completed to
                                                                                      the Commissioners, Administrative Law
                                understand the effects and impacts of the             Judges and Senior Officers.
                                project better and determine what, if any,
                                changes should be implemented. In addition,
                                we recommended that because the restacking
                                                                                        Results
                                project is still ongoing, the OAS should
                                conduct appropriate analysis to complete and              Our audit of sensitive payments did not
                                submit to the OMB the required capital                disclose any evidence of fraud and we
                                planning documentation for the remainder of           concluded that overall, controls over sensitive
                                the project. Finally, we recommended that the         payments were reasonable. However, we
                                OAS, in coordination with the Office of               identified some specific areas that needed
                                Executive Director and using SEC                      improvement.
                                information technology capital planning
                                requirements as a guide, develop and adopt                 In particular, the OIG’s review of
                                guidance for space investments that is                executive compensation revealed that several
                                commensurate with OMB’s guidance for                  Senior Officers received sizeable merit pay
                                capital investments. Management concurred             increases and bonuses. However, the agency
                                with three of the report’s four                       did not always have adequate documentary
                                recommendations.                                      support to justify all approved compensation
                                                                                      that was awarded to Senior Officers. Our
                                                                                      initial testing of executive compensation
                                2008 Audit of Sensitive Payments                      revealed that two Senior Officers in our
                                (Memorandum Report No. 448)                           sample received substantial salary increases
                                                                                      (based on merit), and/or lump sum bonuses
                                  Background
                                                                                      (one for $20,000 and one for $10,000). We
                                    The OIG conducted a limited scope audit           later expanded our executive compensation
                                of sensitive payments in support of the GAO’s         fieldwork and requested information on all
                                audit of the Commission’s FY 2008 financial           Senior Officer merit pay increases and


                                                                                 30
                                bonuses that were approved and awarded               policy describing how foreign travel expenses
SEMIANNUAL REPORT TO CONGRESS
                                during FY 2008. We were provided an award            should be calculated. However, OFM’s
                                spreadsheet that showed that a total of seven        practice is to calculate the traveler’s hotel
                                Senior Officers received merit pay increases of      expenses and value added tax using either the
                                $20,000 or more and bonuses of $20,000 or            currency conversion rate on the credit card
                                more. These merit pay increases and bonuses          statement, or the rate as of the traveler’s hotel
                                ranged from combined totals of $44,657 to            checkout day. We determined that the two
                                $85,082. Specifically, one Senior Officer            Senior Officers were underpaid for foreign
                                received a $24,657 merit increase; another           travel expenses and OFM should reimburse
                                received a $55,720 merit increase, and five          them for the underpaid amounts. We further
                                received $65,082 in merit increases. In              determined that OFM should revise its
                                addition, all seven received $20,000 lump-sum        policies and procedures to provide guidance to
                                bonuses. Although we did not find any                SEC employees on how to calculate
                                evidence of fraud or payments that went over         reimbursable foreign travel expenses.
                                the established limits or budgeted amounts, we
                                believe that justification is needed to support          Additionally, the audit found that
                                awarding such significant dollar amounts             reception and representation expenditures
                                (merit increases of $20,000 or more, or              during FY 2008 were within the legal limit
                                bonuses of $20,000 or more).                         and were properly approved and classified.
                                                                                     These costs typically are associated with
                                    The OIG’s audit also revealed that prior         entertaining visiting dignitaries and State
                                reviews of SEC sensitive payments conducted          functions. The fund amounts are limited by
                                by the GAO found that lower level employees          law and cannot exceed $3,500.
                                had certified senior executives’ time and
                                attendance reports. The GAO identified this              Further, the OIG found that the SEC’s
                                issue as an internal control weakness that           policies and practices concerning the receipt
                                warranted management’s attention on at least         and acceptance of gifts are in accordance with
                                two prior occasions. Our review found that           the requirements of the Standards of Ethical
                                this practice was still occurring,                   Conduct for Employees of the Executive
                                notwithstanding the GAO’s previous findings.         Branch, but the OIG believes that the Ethics
                                                                                     Office should maintain a record of the
                                    Further, the OIG’s review of executive           prohibited gifts returned by SEC employees of
                                travel uncovered two occasions involving             which it has knowledge.
                                foreign travel where it appeared the SEC
                                underpaid Senior Officers for reimbursement              The OIG’s review of contracting and
                                of their expenses. The OFM processed the             consulting services, which included an
                                reimbursements based on incorrect currency           examination of six contracts in effect as of
                                conversion rates used by the travelers, which        May 31, 2008, identified no conflicts of
                                resulted in the travelers being underpaid. In        interest. However, we discovered that not all
                                both cases, the travelers calculated their           required documentation was located in the
                                reimbursements using a daily conversion rate         contract files. In particular, a Justification and
                                for each day of their stay at a particular           Approval was required for two of the six
                                location. OFM officials informed the OIG             contracts we reviewed, but was missing from
                                that the Office does not have any written            one of the files.



                                                                                31
SEMIANNUAL REPORT TO CONGRESS
                                     The OIG also found that: (1) the SEC did          Audit of Public Transportation Benefit
                                not authorize or process any unvouchered               Program
                                                                                       (Report No. 456)
                                expenditures in FY 2008; (2) the amounts
                                spent for executive perquisites were within the
                                                                                         Background
                                allotted limits; and (3) Senior Officers’
                                financial disclosure forms were submitted and              The OIG conducted an audit of the
                                reviewed in accordance with the Office of              SEC’s Public Transportation Benefit Program
                                Government Ethics regulations at 5 C.F.R.              (transit benefit program) during the period
                                Part 2634, with the exception of one Senior            from November 2008 through February 2009,
                                Officer who was granted a 45-day extension to          in accordance with generally accepted
                                file the form.                                         government auditing standards. The
                                                                                       objectives of the audit were to determine if
                                                                                       the SEC had sufficient policies and procedures
                                  Recommendations
                                                                                       in place to ensure compliance with applicable
                                     The OIG issued its final report on March          laws, regulations, and other requirements, and
                                27, 2009. To improve the SEC’s internal                to assess whether employees were complying
                                controls over sensitive payment areas, the             with transit benefit program participant
                                audit report made six recommendations.                 requirements.
                                Specifically, the report recommended that:
                                (1) the Chairman’s Office provide detailed                 The SEC’s transit benefit program, which
                                justifications for all Senior Officer merit pay        originated in 1992, provides financial
                                increases of $20,000 or more, or bonuses of            incentives to employees to commute to and
                                $20,000 or more; (2) senior executives be              from work by means other than single
                                notified in writing that their time and                occupant vehicles. The Commission spent
                                attendance must be certified by senior                 approximately $1.3 million in FY 2007 and
                                personnel of equal or higher grade; (3) OFM            $1.6 million in FY 2008 on the transit benefit
                                revise its policies and procedures to add              program. As of July 2008, approximately
                                guidance for calculating foreign travel                1,655 headquarters employees and 1,067
                                reimbursements; (4) OFM reimburse travelers            regional office employees participated in the
                                amounts they were underpaid due to currency            transit benefit program. To assist in
                                conversion and other errors; (5) the Ethics            administering the program, the SEC entered
                                Office maintain a record of returned gifts of          into an interagency agreement with the
                                which it has knowledge; and (6) contracting            Department of Transportation (DOT) that
                                files contain complete documentation and               covers the headquarters location, as well as
                                indicate which documents are not required to           two regional offices.
                                be included in the files.

                                    Management concurred with four of the                Results
                                report’s recommendations, partially concurred              The audit found that the SEC has
                                with one recommendation, and did not                   established some management controls over
                                concur with one recommendation.                        the transit benefit program. Nonetheless, we
                                                                                       found that there are several areas in which
                                                                                       significant improvements are needed.



                                                                                  32
SEMIANNUAL REPORT TO CONGRESS
                                    Specifically, the audit found that the transit   (5) pursue collection of $394 in benefits
                                benefit application form and application             erroneously collected by transit benefit
                                process need to be strengthened to ensure            program participants after they separated
                                compliance with OMB internal control                 from the SEC; (6) ensure complete transit files
                                guidelines. In addition, the audit found that        are maintained for all participants; (7) conduct
                                transit benefit program participants were not        periodic internal reviews of participants who
                                always timely removed from the DOT’s transit         are on extended leave and/or frequently
                                database after they separated from the SEC.          telework to ensure they are properly reducing
                                                                                     benefits; (8) remind participants that they are
                                    Consequently, the audit found that some          required to reduce benefits if they are on
                                employees inappropriately collected benefits         extended medical or personal leave, travel,
                                totaling $624 after leaving the SEC. While           and any other situation that causes their
                                the audit generally found that transit benefit       commuting costs to be less than the amount of
                                program participants were complying with the         benefits they are eligible to receive in the
                                program requirements, the audit also found           applicable month(s); (9) seek recovery of the
                                that some participants did not adjust benefits       estimated $225 in overpayments erroneously
                                when teleworking or taking extended leave.           collected by participants while they were on
                                Further, the OHR was unable to provide               extended leave; and (10) implement additional
                                complete transit application data for nearly 50      management controls over regional office
                                percent (24 of 50) of the transit benefit            transit benefit program operations to ensure
                                program participants in our sample that we           they are in compliance with applicable
                                selected to test compliance with program             requirements.
                                requirements.
                                                                                         SEC management concurred with all ten
                                                                                     recommendations and stated they would take
                                  Recommendations                                    actions to implement the recommendations.
                                                                                     In several instances, SEC management had
                                     The OIG issued its final audit report on
                                                                                     begun working on correcting the problems.
                                March 27, 2009. To improve and strengthen
                                internal controls over the transit benefit
                                program, the OIG’s report made ten
                                                                                     OASIS System Report - 2008 FISMA
                                recommendations. Specifically, the report            (Report No. 463)
                                recommended that the SEC: (1) revise its
                                transit application and application process to           In June 2008, the OIG contracted with
                                ensure they meet OMB internal control                Electronic Consulting Services, Inc. (ECS) to
                                guidelines; (2) conduct periodic training for        assist with the completion and coordination of
                                staff responsible for verifying transit              the OIG’s input to the SEC’s response to
                                participants’ eligibility and commuting costs;       OMB Memorandum M-08-21. That
                                (3) require transit benefit program participants     memorandum provides instructions and
                                to recertify annually their eligibility and          templates for meeting the FY 2008 reporting
                                commuting costs; (4) implement a process to          requirements under the Federal Information
                                obtain data routinely on separated SEC               Security Management Act of 2002 (FISMA),
                                employees to ensure they are promptly                Title III of Pub. L. 107-347.
                                removed from the active transit database;



                                                                                33
SEMIANNUAL REPORT TO CONGRESS        The objective of this evaluation was to          •   Complied with all the Awareness and
                                review the OCIE Advisor Intelligence System               Training controls for security training and
                                (OASIS) and to assess the SEC’s compliance                awareness activities.
                                with security controls that are prescribed by
                                                                                      •   Fully complied with the Audit and
                                the National Institute of Standards and
                                                                                          Accountability controls that contain safe-
                                Technology (NIST) Special Publication
                                                                                          guards that are used to record user inter-
                                800-53A. NIST 800-53A was developed in                    actions with the system to ensure
                                order to promulgate standards, guidelines, and            accountability.
                                other publications to assist Federal agencies in
                                implementing the FISMA and to manage                  •   Fully complied with the Certification and
                                cost-effective programs to protect their                  Accreditation (C&A) and Security As-
                                information and information systems. NIST                 sessments controls pertaining to C&A and
                                800-53A prescribes several controls pertaining            security policies and requirements.
                                to, for example, access to system and
                                                                                      •   Fully complied with all the Configuration
                                information integrity, and organizes security
                                                                                          Management controls that are used to
                                controls into classes and families for ease of
                                                                                          control the hardware and software con-
                                use. There are three general classes of                   figuration of an information system.
                                security controls (i.e., technical, operational,
                                and management) and 17 security control               •   Met all the Contingency Planning control
                                families. Each family contains security                   requirements which are comprised of ef-
                                controls that are related to the security                 forts that are undertaken to prepare for
                                functionality of the family.                              man-made and/or natural disaster which
                                                                                          may affect the SEC’s information systems.
                                    The OASIS application provides extensive
                                                                                      •   Was in full compliance with the Identifica-
                                integrated search capabilities to perform fact
                                                                                          tion and Authentication controls that
                                finding on certain entities and can generate
                                                                                          identify and authenticate users.
                                alerts and send e-mails to specific OCIE users
                                and staff in the SEC’s regional offices. OASIS        •   Fully complied with all the Incident Re-
                                synthesizes information found in data sources             sponse controls that refer to the processes
                                about an entity and/or its employees, and                 and procedures that are implemented in
                                then generates dashboard reports specifically             response to an incident.
                                related to investment advisers, investment
                                companies, hedge funds, transfer agents, and          •   Fully complied with the Media Protection
                                administrators.                                           family of controls that includes controls
                                                                                          related to protecting the system media.
                                    Specifically, ECS’s assessment of controls
                                                                                      •   Implemented the Planning controls that
                                within the OASIS found that the SEC:
                                                                                          are related to information systems security
                                                                                          planning for the system and was in full
                                •   Passed 13 of 20 Access controls that per-             compliance with the requirement to de-
                                    tain to mechanisms and procedures that                velop and implement a security plan.
                                    are used to control access to information
                                    systems.                                          •   Complied with the Personnel Security
                                                                                          controls that pertain to the security of sys-
                                                                                          tems personnel.


                                                                                 34
SEMIANNUAL REPORT TO CONGRESS   •   Complied with all the Risk Assessment                The objective of this evaluation was to
                                    controls that are used to estimate the          review the CTR system and to assess the
                                    threats and risks to an information system.     SEC’s compliance with security controls that
                                                                                    are prescribed by NIST 800-53A. The CTR
                                •   Complied with the Systems and Services          system was originally called the Enforcement
                                    Acquisition controls which consist of pro-
                                                                                    Contact Tracking System (ECTS), and the
                                    cedures used to purchase and operate the
                                                                                    name was changed at Enforcement’s request.
                                    information system.
                                                                                    It is used to track complaints, tips and referrals
                                •   Fully complied with the System and              that are received from the public.
                                    Communications Protection controls that
                                    apply to the protection of information            ECS’s assessment of controls within the
                                    transmitted within and outside the              CTR system found that the SEC:
                                    information system.
                                                                                    •   Passed 15 of 20 Access controls that per-
                                •   Fully complied with all System and                  tain to mechanisms and procedures that
                                    Information Integrity controls that are             are used to control access to information
                                    implemented to ensure the stability and             systems, and has established an effective
                                    integrity of the information system.                Access control program.

                                   The evaluation of OASIS revealed there           •   Complied with all the Awareness and
                                were no significant security issues or areas of         Training controls for security training and
                                non-compliance. However, we identified areas            awareness activities.
                                where the system must be further evaluated to
                                ensure that additional security risks are           •   Fully complied with the Audit and
                                properly mitigated before the system’s                  Accountability controls that contain safe-
                                                                                        guards that are used to record user inter-
                                exposures increase.
                                                                                        actions with the system to ensure
                                                                                        accountability.
                                    The final report was issued on March 24,
                                2009, and contained three recommendations           •   Fully complied with the Certification and
                                for improvements to the OASIS system,                   Accreditation (C&A) and Security As-
                                including an evaluation of OASIS’s Access               sessments controls pertaining to C&A and
                                controls, Access Management and                         security policies and requirements.
                                Information Flow Enforcement controls.
                                Management agreed with all of the report’s          •   Fully complied with all the Configuration
                                recommendations.                                        Management controls that are used to
                                                                                        control the hardware and software con-
                                                                                        figuration of an information system.

                                CTR System Report - 2008 FISMA                      •   Met all the Contingency Planning control
                                (Report No. 462)                                        requirements that are comprised of efforts
                                                                                        that are undertaken to prepare for man-
                                   In June 2008, the OIG contracted with
                                                                                        made and/or natural disaster which may
                                ECS to assist in another aspect of the
                                                                                        affect the SEC’s information systems.
                                completion and coordination of the OIG’s
                                input to the SEC’s response to OMB                  •   Was in full compliance with the Identifica-
                                Memorandum M-08-21.                                     tion and Authentication controls that
                                                                                        identify and authenticate users.

                                                                               35
SEMIANNUAL REPORT TO CONGRESS   •   Fully complied with all the Incident Re-          PENDING AUDITS AND EVALUATIONS
                                    sponse controls which consist of the
                                    processes and procedures that are imple-          The SEC’s Role and Oversight of the
                                    mented in response to an incident.                Nationally Recognized Statistical
                                                                                      Rating Organizations
                                •   Fully complied with the Media Protection              The Nationally Recognized Statistical
                                    family of controls that include controls
                                                                                      Rating Organizations (NRSRO), which are
                                    related to protecting the system media.
                                                                                      credit rating agencies that have been approved
                                •   Implemented Planning controls related to          by the Commission, may have played a critical
                                    information systems security planning for         role in the current economic crisis and have
                                    the system and was in full compliance             been criticized in the past when certain high
                                    with the requirement to develop and im-           profile issuers defaulted on their debt
                                    plement a security plan.                          payments.! In September 2006, the Credit
                                                                                      Rating Agency Reform Act (Act) was passed,
                                •   Complied with the Personnel Security              granting the Commission formal oversight
                                    controls that pertain to the security of sys-     authority over NRSROs.! The purpose of the
                                    tem’s personnel.
                                                                                      Act was to improve accountability,
                                                                                      transparency and competition in the credit
                                •   Complied with all the Risk Assessment
                                    controls that are used to estimate threats        rating agency industry.! The Commission
                                    and risks to an information system.               continues to conduct additional rulemaking in
                                                                                      response to issues related to the involvement of
                                •   Complied with the Systems and Services            NRSROs in the current economic crisis.!
                                    Acquisition controls which consist of pro-
                                    cedures that are used to purchase and op-              Given the importance of NRSROs, we
                                    erate the information system.                     initiated this audit in accordance with our
                                                                                      audit plan.! The audit’s objective was to
                                •   Fully complied with the System and
                                                                                      identify improvements in the SEC’s oversight
                                    Communications Protection controls that
                                                                                      of NRSROs.! The audit focused on the
                                    apply to the protection of information
                                    transmitted within and outside the                implementation and compliance with the Act
                                    information system.                               and Commission rules.! We also reviewed the
                                                                                      SEC’s history with NRSROs to assess the
                                •   Fully complied with all System and                SEC’s efforts to implement the Act’s
                                    Information Integrity controls that are           accountability, competition, and transparency
                                    implemented to ensure the stability and           objectives. !The OIG expects to issue its audit
                                    integrity of the information system.              report during the next semiannual reporting
                                                                                      period.
                                    The final report was issued on February
                                27, 2009. Our evaluation of the CTR system                The OIG’s audit methodology included
                                did not reveal any significant security issues or     reviewing the OCIE’S NRSRO examination
                                areas of non-compliance, and the report did           reports, Congressional testimony, Commission
                                not make any recommendations.                         hearings (i.e., roundtables), the Division of
                                                                                      Trading and Markets’ Action Memoranda,
                                                                                      SEC staff studies, academic papers, and



                                                                                 36
SEMIANNUAL REPORT TO CONGRESS   international standards (i.e., the International      requirements; determine whether OAS has an
                                Organization!of Securities Commissions’               adequate migration plan for transitioning
                                Code of Conduct and the proposed European             from the current manual procurement system
                                Rules).! We also conducted interviews of SEC          to its newly-acquired electronic procurement
                                staff and performed compliance testing. We            system; and determine whether OAS overall
                                plan to provide several recommendations               has adequate controls over its contracting and
                                pertaining to regulatory and policy issues and        procurement functions.
                                identifying specific areas in which oversight of
                                NRSROs can be improved.                                   The scope of the review includes
                                                                                      reviewing policies and procedures governing
                                                                                      the procurement and contracting processes
                                The Office of Administrative Services’                and functions; conducting interviews and
                                Procurement and Contract
                                Management Functions                                  walk-through procedures with appropriate
                                                                                      OAS personnel to document and observe
                                     The SEC’s Office of Acquisitions (OA),           actual procurement processes in place with
                                within the OAS, is responsible for the agency’s       regard to management of requisitions, receipt
                                contract and procurement activities and               and evaluation of offers, and preparation and
                                processes, and is guided by the Federal               administration of awards; performing detailed
                                Acquisition Regulation (FAR) in performing            reviews of select contract files to ensure
                                those functions. The OA’s procurement and             compliance with the FAR and the SEC’s
                                contract management functions include                 regulations and policies; and surveying and
                                overseeing the receipt of requisitions from           interviewing personnel from the eleven SEC
                                customers, identifying appropriate vendors            regional offices to determine whether
                                and ensuring reasonable pricing, and                  procurement activities are effectively
                                awarding and administering contracts. The             managed.
                                OA consists of three contracting branches and
                                each branch is overseen by a contracting
                                officer.                                              Assessment of Interagency Acquisition
                                                                                      Agreements
                                    The OIG has contracted with an
                                Independent Public Accountant to conduct an                Government agencies use interagency
                                audit of the SEC’s procurement and                    agreements and acquisitions to take advantage
                                contracting function. The objectives of the           of contracts, expertise and experience in other
                                audit are to identify the population of the           government agencies that they might not have
                                SEC’s contracts and other procurement                 internally. They can also use interagency
                                vehicles; determine if cost reimbursable              agreements and acquisitions to provide
                                contracts have been properly closed out in            services to other agencies. Interagency
                                accordance with the FAR and assess whether            agreements provide government agencies with
                                costs were allowable, allocable, and                  convenient access to commonly needed goods
                                reasonable; determine if the procurement              and services. Using these types of acquisitions
                                activities at SEC regional offices are effectively    can provide agenciees with improved
                                managed and the individuals performing the            efficiency and convenience through a
                                procurement activities at these offices are           streamlined procurement process. However,
                                properly trained in accordance with OMB               interagency agreements must be effectively



                                                                                 37
SEMIANNUAL REPORT TO CONGRESS   managed. In 2005, the GAO designated the              rooms may be made available in response to
                                management of interagency contracting as a            FOIA requests. Federal agencies are required
                                high-risk area. Also, a recent risk assessment        to disclose their records, or portions of the
                                survey of the SEC’s contracting activities            records, upon receiving a written request,
                                identified a number of potential risk areas that      except when the records are protected from
                                could affect the management of its                    disclosure under one or more of the FOIA’s
                                interagency agreements.                               nine exemptions. Agencies generally must
                                                                                      respond to FOIA requests within 20 days and
                                    We are performing an audit of the SEC’s           notify requesters of their right to appeal a
                                interagency agreements and acquisitions to            response denying access to records.
                                assess whether the SEC obtains, manages, and
                                closes interagency acquisitions in accordance             The objective of the OIG’s evaluation is to
                                with applicable requirements.                         assess whether the FOIA/Privacy Act Office
                                                                                      and other SEC divisions and offices follow
                                                                                      applicable Commission and/or governing
                                Evaluation of the SEC's Freedom of                    policies and procedures in responding to
                                Information Act and Privacy Act                       FOIA requests. Specifically, the contractor
                                Processes                                             will assess whether the FOIA/Privacy Act
                                    The OIG has retained the services of a            Office appropriately follows applicable
                                contractor to conduct an evaluation of the            requirements, such as the FOIA, Executive
                                SEC’s Freedom of Information Act (FOIA)               Orders and governing Commission
                                                                                      regulations, policies and procedures, in
                                processes and procedures. The FOIA
                                generally provides that any person has a right        responding to FOIA requests. The contractor
                                of access to Federal agency records, with             will also review the interaction among the
                                certain exceptions. Agency records that are           various divisions and offices that oversee,
                                not available to the public through reading           process or respond to FOIA requests.




                                                                                 38
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          INVESTIGATIONS
                                          OVERVIEW                                           provides the public with an overview of the
                                                                                             work of the Office of Investigations, as well as
                                              The OIG’s Office of Investigations             investigative memoranda and other
                                          responds to allegations of violations of           information pertinent to the work of the OIG
                                          statutes, rules and regulations, and other         as a whole.
                                          misconduct by SEC staff and contractors.
                                          The misconduct investigated ranges from                The Office of Investigations conducts
                                          criminal wrongdoing and fraud to violations of     thorough and independent investigations into
                                          SEC rules and policies and the Government-         allegations received in accordance with the
                                          wide standards of conduct. The OIG receives        Quality Standards for Investigations of the
                                          complaints through the OIG Hotline (which is       CIGIE. In instances where it is determined
                                          both telephone and web-based), an office           that something less than a full investigation is
                                          electronic mailbox and by mail, facsimile or       appropriate, the Office of Investigations
                                          telephone.                                         conducts a preliminary inquiry into the
                                                                                             allegation. If the information obtained during
                                              The most common way complaints were            the inquiry indicates that a full investigation is
                                          received during this reporting period was          warranted, the Office of Investigations will
                                          through the OIG Hotline, which was                 commence an investigation of the allegation.
                                          established in the past calendar year.
                                          Complaints may be made anonymously by                  Upon the opening of an investigation, the
                                          calling the Hotline, which is staffed and          primary OIG investigator assigned to the case
                                          answered 24 hours a day, 7 days a week.            prepares a comprehensive plan of
                                          Complaints may also be made to the Hotline         investigation that describes the focus and
                                          through an Online Complaint Form, which is         scope of the investigation, as well as the
                                          accessible through the new OIG website that        specific investigative steps to be performed
                                          was launched during this semiannual                during the investigation. In all investigations,
                                          reporting period. In addition to a mechanism       the OIG investigator interviews the
                                          for the receipt of complaints, the website also    complainant whenever feasible and conducts


                                                                                        39
SEMIANNUAL REPORT TO CONGRESS   significant interviews under oath and on the         INVESTIGATIONS AND INQUIRIES
                                record. Where there is any reason to believe a       CONDUCTED
                                witness will not provide truthful testimony, the
                                OIG investigator provides an appropriate             Violations of Employee Securities
                                                                                     Transactions Rules and Possible
                                perjury warning. In addition, the OIG                Insider Trading!        !
                                investigator gives assurances of confidentiality         #
                                to potential witnesses who have expressed a              On January 23, 2008, the OIG opened an
                                reluctance to come forward.                          investigation after the Ethics Office, in the
                                                                                     SEC’s OGC, informed the OIG that an
                                    Where allegations of criminal conduct are        Enforcement attorney frequently contacted
                                involved, the Office of Investigations notifies      that Office to obtain clearances to trade
                                and works with the DOJ and the Federal               certain securities. This Enforcement
                                Bureau of Investigation (FBI) as appropriate.        employee’s frequent contact with the Ethics
                                The OIG also obtains necessary investigative         Office raised suspicions that she may be
                                assistance from the SEC’s OIT, including the         engaged in day trading or insider trading and
                                prompt retrieval of employee e-mail accounts         that she may have violated Rule 5 of the
                                as requested by the OIG investigators. The           Commission’s Conduct Regulation (Rule 5),
                                OIG investigative staff meets with the               which places certain restrictions on SEC
                                Inspector General frequently to review the           employees’ securities transactions.
                                progress of ongoing investigations. The OIG
                                investigative unit also meets periodically with          After the OIG opened an investigation of
                                the Commission’s Ethics Counsel to                   this Enforcement attorney’s securities trading,
                                coordinate activities.                               the OIG identified two other Enforcement
                                                                                     attorneys who were friends with this
                                    Upon completion of an investigation, the         Enforcement attorney and also traded in
                                OIG investigator prepares a comprehensive            securities, and who often discussed securities
                                report of investigation that sets forth in detail    transactions and open Enforcement
                                the evidence obtained during the                     investigations with one another during regular
                                investigation. Investigative matters are             weekly lunches and via e-mail. After further
                                referred to the DOJ and SEC management as            investigation, we added one of these two
                                appropriate. In the investigative reports            Enforcement attorneys as an additional
                                provided to SEC management, the OIG                  subject of the investigation.
                                makes specific findings and recommendations,
                                including whether the OIG believes                       The OIG completed a comprehensive
                                disciplinary or other action should be taken.        review and analysis of more than two years of
                                The OIG requests that management report              both Enforcement attorneys’ e-mail records
                                back on the disciplinary action taken in             and obtained more than two years of their
                                response to an OIG investigative report within       brokerage records. The OIG then compared
                                45 days of the issuance of the report. The           these records with the reports they filed with
                                OIG follows up appropriately with                    the agency and the investigations on which
                                management to determine the status of                they worked. We also took sworn, on-the-
                                disciplinary action taken in the matter.             record testimony of the two subjects of the
                                                                                     investigation, as well as six other Enforcement



                                                                                40
SEMIANNUAL REPORT TO CONGRESS   attorneys, and conducted interviews of five          SEC employees, with tremendous amounts of
                                other SEC employees.                                 non-public information at their disposal, do
                                                                                     not engage in insider trading themselves. The
                                    The OIG investigation disclosed that             current disclosure requirements and
                                approximately two months before an                   compliance system are based on the honor
                                investigation of a large health care company         system, and there is no way to determine if an
                                was opened in her group, one of the subjects         employee fails to report a securities
                                of the investigation sold all of her shares of       transaction. Further, no spot checks are
                                stock in the company. We also found that she         conducted and the SEC does not obtain
                                purchased additional shares of a global oil          duplicate brokerage account statements. In
                                company’s stock both a few days and a couple         addition, there is little to no oversight or
                                of weeks after a formal investigation of the         checking of the securities transaction reports
                                company was opened by her friend who                 that employees file to determine their
                                occupied the office next to her. She also sold       accuracy or even whether an employee has
                                shares of that company’s stock two days              reported at all. Moreover, the various types of
                                before an inquiry was opened in the matter.          reporting forms are submitted to different
                                                                                     SEC offices, which do not routinely share that
                                     In addition, we found that both                 information with each other.
                                Enforcement attorneys who were subjects of
                                the investigation traded in the stock of a large          In addition, the OIG concluded that there
                                financial services company, even though their        is a poor understanding and lax enforcement
                                fellow Enforcement attorney became aware of          of the financial disclosure reporting
                                three separate Enforcement investigations of         requirements. For example, both
                                that company. This fellow Enforcement                Enforcement attorneys who were the subject
                                attorney credibly testified that she told both       of the investigation testified that no one had
                                subjects during their regular weekly lunches         ever questioned their reported securities
                                that she could not purchase additional stock in      holdings or transactions in the decades they
                                this company because she had become aware            worked at the SEC and traded securities.
                                of these investigations. Yet, the investigation      Moreover, both managers who are responsible
                                found that both subjects traded in the stock of      for reviewing the subjects’ annual Office of
                                this particular company.                             Government Ethics (OGE) Form 450s testified
                                                                                     that they do not recall ever questioning any
                                    We also found that all three Enforcement         SEC employee relative to their reported
                                attorneys committed violations of different          securities holdings. In addition, we found that
                                aspects of the securities reporting                  the Enforcement attorneys and supervisors
                                requirements of Rule 5.                              who provided information during our
                                                                                     investigation lacked a basic understanding of
                                    The investigation further revealed that          the requirements in place that govern the
                                although the SEC, through its law                    reporting of stock transactions by SEC
                                enforcement function, is charged with                employees.
                                prosecuting cases of violations of the
                                securities laws, including insider trading on            The OIG investigation also found that
                                the part of individuals and companies in the         Enforcement personnel, both managers and
                                private sector, the agency has essentially no        staff, have different interpretations of the
                                compliance system in place to ensure that            confidentiality policy pertaining to

                                                                                41
SEMIANNUAL REPORT TO CONGRESS   Enforcement investigations and whether they          action be taken against the two Enforcement
                                can discuss their investigative matters with one     attorneys who were the subjects of the
                                another. Additionally, we found that the two         investigation. In its report of investigation,
                                Enforcement attorneys who were subjects of           the OIG also provided the Commission with
                                the investigation routinely discussed stocks and     11 specific recommendations to ensure
                                investment strategies in e-mails sent from their     adequate monitoring of employees’ stock
                                SEC e-mail accounts and in public locations.         transactions. These recommendations
                                                                                     included: establishing one primary office to
                                     Further, our investigation found that the       monitor employees’ securities transactions;
                                two Enforcement attorneys who were subjects          instituting an integrated, computerized system
                                of the investigation maintained separate             for tracking and reporting purposes; obtaining
                                folders entitled, “Stocks,” in their SEC e-mail      duplicate copies of brokerage record
                                accounts, and, on most days, sent e-mails from       confirmations for each securities transaction
                                their SEC e-mail accounts about stocks and           for every SEC employee; requiring employees
                                their own stock transactions. We discovered          to certify in writing that they do not have non-
                                that one of the two subjects traded often and        public information related to each security
                                testified that the financial markets were her        transaction they conduct and report;
                                main hobby and passion. We found that she            conducting regular and thorough spot checks
                                spent much of her work day e-mailing and             for compliance purposes; and establishing
                                searching the Internet about stocks. The OIG         comprehensive and more frequent training on
                                also found that the subjects shared many of          all aspects of Rule 5 and its requirements.
                                the same investments and had regular lunch
                                meetings where they often discussed the stock             We understand that the Commission’s
                                market and their own securities transactions,        Ethics Office is working to establish a
                                as well as their SEC work and investigative          compliance office that would use an
                                cases.                                               automated web-based tracking system, which
                                                                                     we believe is critical and long overdue. We
                                    The OIG investigation disclosed that one         encouraged the Ethics Office to incorporate
                                of the two subjects of the investigation sent        all of our recommendations into this new
                                e-mails to his brother and sister-in-law from        system and to consult with us as appropriate
                                his SEC e-mail account during the work day           to ensure that a comprehensive Rule 5
                                recommending particular stocks, and                  compliance system is put into place.
                                sometimes informed them that the other
                                subject of the investigation had recommended             Because of the serious nature of the
                                those stocks as well. Both these Enforcement         information uncovered during the OIG
                                attorneys inexplicably testified that they failed    investigation, we also referred the matter to
                                to see how sending e-mails to family members         the United States Attorney’s Office for the
                                from an SEC e-mail account could raise an            District of Columbia’s Fraud and Public
                                appearance that the Enforcement attorney             Corruption Section, which, together with the
                                may be sharing non-public information with           FBI, is conducting an investigation of possible
                                someone outside the SEC.                             criminal and civil violations. The OIG is
                                                                                     coordinating with the United States Attorney’s
                                    The OIG issued its report of investigation       Office in connection with the ongoing
                                to management on March 3, 2009, and                  investigation.
                                recommended that appropriate disciplinary

                                                                                42
SEMIANNUAL REPORT TO CONGRESS       No action had been taken by SEC                January 2007 through November 2007 for
                                management as of the end of the reporting          several employees and contractors.
                                period as a result of the OIG’s investigation.          #
                                SEC Chairman Mary L. Schapiro was sworn                 The OIG investigation did not find
                                in on January 27, 2009. We hope that actions       evidence that the security guard contractor
                                to address our findings and recommendations        had harassed female employees, or been
                                will be taken expeditiously.                       drunk during his duty hours at the SEC.
                                                                                   However, the OIG did find evidence that the
                                                                                   security guard contractor was arrested and
                                Violation of Security Officers Rules,              pled guilty to driving while intoxicated (DWI)
                                Improper Issuance of Waiver from
                                Contractual Requirements and Other                 during the time he was serving as a Special
                                Inappropriate Conduct Involving                    Police Officer at the SEC. The OIG received
                                Commission Security Operations !                   a copy of the arrest report from the United
                                !      !      !     !
                                                                                   States Capitol Police, which confirmed that
                                    The OIG commenced an investigation on          the security guard contractor’s vehicle was
                                July 2, 2008, as a result of information           stopped and that he failed a field sobriety test.
                                contained in an anonymous complaint letter         The investigation found that the security
                                to former SEC Chairman Christopher Cox,            guard contractor consented to a breathalyzer
                                involving multiple allegations against an          test that evidenced a blood alcohol level of
                                individual working for a company that was          0.10 and 0.09, both of which are above the
                                contracted to provide security services for the    legal limit.
                                SEC. The complaint alleged that the
                                contractor, who supervised all security guards          Special Police Officers (SPOs), such as the
                                contracted to work at the SEC, was arrested        security guards at the SEC are privately-
                                on multiple occasions for drunk driving,           commissioned police officers with full arrest
                                appeared drunk during his duty hours, and          powers within an area or premises that the
                                harassed female employees.                         officers have been employed to protect. The
                                                                                   D.C. Metropolitan Police Department
                                     The OIG interviewed and/or took sworn         Security Officers Management Branch
                                testimony of two SEC employees who oversaw         (SOMB) oversees the private security industry
                                the security services contract, five SEC           that operates within D.C. Pursuant to the
                                security guards including the subject of the       SOMB Policy Manual, the contractor was
                                investigation, the Managing Director of the        required to report his arrest to the SOMB
                                security services company, and two                 within 24 hours of the arrest. The
                                representatives of the District of Columbia        investigation found, however, that the
                                (D.C.) Metropolitan Police Department              contractor returned to his position at the SEC
                                Security Officers Management Branch. The           the day after he was arrested without notifying
                                OIG also obtained and analyzed a report            the SOMB or his employer, the security
                                from the Capitol Police and a memorandum           company that contracted with the SEC.
                                from the Metropolitan Police Department
                                regarding an arrest of the subject.                    The OIG investigation also found that ten
                                Additionally, we requested and reviewed            months after his arrest, the contractor went to
                                e-mails provided by OIT for the periods from       the SOMB to renew his SPO commission. As
                                December 2005 through June 2006 and                part of the renewal procedure, the SOMB


                                                                              43
SEMIANNUAL REPORT TO CONGRESS   conducted a criminal background search and           DWI, but claimed he had disclosed that
                                uncovered the earlier DWI arrest. The                information to the SOMB. However, the
                                SOMB immediately revoked the contractor’s            OIG’s investigation determined that in fact,
                                SPO police powers, conducted a preliminary           the security guard contractor never reported
                                investigation into the matter, and verified that     his DWI arrest to the SOMB or his employer.
                                the contractor was arrested for the DWI
                                charge referenced above. The SOMB issued a               In addition, the OIG investigation
                                report of its investigation to the contractor,       concluded that had the security guard
                                concluding that he was in violation of the           contractor informed the SOMB of his arrest
                                SOMB policy manual and revoking his SPO              as required, his SPO commission would have
                                powers.                                              been revoked in January 2007. Because the
                                                                                     security guard contractor failed to notify the
                                    On the date the SOMB discovered the              SOMB, he inappropriately continued to act as
                                security guard contractor’s arrest, the SOMB         an SPO at the SEC for approximately ten
                                informed the security company that the               months, during which time he continuously
                                security guard contractor’s SPO commission           carried a firearm in direct contravention of
                                had been revoked. The security company, in           SOMB policy.
                                turn, notified the project manager for the
                                company’s security services contract with the            The OIG investigation also found that the
                                SEC, and an SEC employee. This SEC                   SEC employee who claimed to be the COTR
                                employee claimed he was the Contracting              on the contract improperly issued the security
                                Officer Technical Representative (COTR) for          guard contractor the waiver to continue to
                                the security services contract (although there is    supervise the security guards, as he had no
                                no evidence that he actually ever received a         authority to amend the contract with the
                                COTR appointment letter), and that he was            security company and, in fact, had never even
                                informed that the security guard contractor          been officially appointed as a COTR. Finally,
                                could no longer perform his duties at the SEC        the OIG investigation found evidence that
                                because the SOMB had revoked his SPO                 both the security guard contractor and the
                                commission and license to carry a firearm.           SEC employee violated the Agency’s policies
                                                                                     on use of SEC office equipment.
                                    As a result of the above-described
                                information, the SEC employee unilaterally                On December 15, 2008, the OIG issued
                                issued the security guard contractor a waiver        its report of investigation in this matter to
                                to continue working as the Acting SEC Project        management, recommending appropriate
                                Manager for the security company. The SEC            action, up to and including removal from the
                                employee testified that he made the decision         contract, against the security guard contractor,
                                that the security guard contractor could             and disciplinary action for the SEC employee.
                                remain in his duties, even though he could not       The security company removed the security
                                lawfully carry a firearm anymore, because            guard contractor from the contract the day
                                there was no specific requirement that the           the OIG report of investigation was issued. In
                                security guard contractor or the project             addition, the SEC employee has been
                                manager have an SPO commission.                      removed from the contract and was issued a
                                                                                     written reprimand.
                                   The security guard contractor admitted
                                under oath that he had been arrested for

                                                                                44
SEMIANNUAL REPORT TO CONGRESS   Financial Analyst’s Chronic Leave                  subject was given an official reprimand for
                                Abuse and History of Non-Compliance                failure to complete work assignments in a
                                with Management Directives                         timely manner and for unexcused tardiness.
                                    The OIG opened an investigation on June        In 2000, he was suspended from duty and pay
                                5, 2008, into an allegation that an SK-12          status for five workdays for his failures to:
                                Financial Analyst in the Division of               (1) complete work assignments in a timely
                                                                                   fashion; (2) comply with management’s
                                Investment Management was abusing leave by
                                arriving late to work without obtaining            directive that he report to his supervisor’s
                                supervisory approval. Additionally, it was         office at a minimum of each Tuesday and
                                alleged that the employee was remaining in         Thursday at 5:00 p.m. to discuss the status of
                                the workplace until late at night and using        his work assignments; (3) comply with
                                                                                   management’s directive that he leave the
                                SEC equipment and resources for matters
                                unrelated to his official duties.                  workplace each workday by 6:00 p.m.;
                                                                                   (4) comply with leave restriction requirements
                                    The OIG obtained and reviewed the              issued by management; and (5) seek his
                                Financial Analyst’s Official Personnel Folder      supervisor’s advance approval for his absences.
                                and conduct folder. In addition, for the period
                                from April 1, 2008 to July 14, 2008, we                Because of the nature of the allegations
                                obtained and analyzed his Requests for Leave       regarding the subject’s leave abuse and his
                                or Approved Absence forms (OPM Form 71),           history of non-compliance with management
                                the building access history records that           directives, the OIG analyzed in great detail
                                                                                   the subject’s daily entries and exits from the
                                documented his daily entries and exits from
                                the building, the SEC Employee Blue                workplace and his requests for leave for the
                                Temporary ID Badge Log for June 12, 2008,          period from April 1, 2008 through July 14,
                                his SEC computer Internet user history logs,       2008. The OIG investigation revealed that
                                his time and attendance records, his leave and     during that entire three and one-half month
                                                                                   period examined, the subject had not once
                                earnings statements, his e-mail traffic and
                                documents saved to his SEC computer hard           arrived to work on time. In fact, the subject
                                drive.                                             arrived to work late and/or left work early
                                                                                   without taking approved leave for a total of
                                     We also took sworn, on-the-record             112.67 hours during this time period.
                                testimony of the subject’s two supervisors and
                                the Branch Chief of the Commission’s Work/             The investigation further revealed on a
                                Life and Disabilities Program. The OIG             number of occasions, the subject’s supervisors
                                made numerous attempts over an extended            became aware of the late arrivals and
                                period of time to take the subject’s testimony,    demanded that he submit a leave slip for the
                                                                                   time he was absent. However, the
                                but he refused to speak to the OIG
                                investigator.                                      investigation revealed that management was
                                                                                   completely unaware of the magnitude of the
                                    The OIG investigation revealed that the        subject’s absences during this period.
                                subject’s history of non-compliance with
                                                                                      Our review of the evidence obtained
                                management directives and unexcused
                                tardiness dated back to 1999. In 1999, the         during the investigation also confirmed that



                                                                              45
SEMIANNUAL REPORT TO CONGRESS   on numerous occasions, the subject remained        subordinate employee with whom he was
                                in the workplace well beyond the end of his        having a romantic relationship. The
                                scheduled workday, at times until 11:00 p.m.       complainant further alleged that the Assistant
                                and, on one occasion, until 2:49 a.m. The          Director may have directly or indirectly been
                                subject employee was not given permission to       involved in the subordinate’s promotion to the
                                decide unilaterally to come to work late and       position of SK-14 IT Specialist from SK-13
                                then make up those hours by staying past the       Program Analyst. The complainant also
                                close of his regular workday, and there was no     alleged that the Assistant Director stripped
                                business purpose for him to remain in the          him of his supervisory responsibilities after he
                                workplace late at night.                           informed the Assistant Director’s supervisor of
                                                                                   the improper relationship.
                                    On November 10, 2008, the OIG referred
                                the allegations and factual findings of the            In conducting its investigation, the OIG
                                investigation to the United States Attorney’s      obtained and reviewed Official Personnel and
                                Office for D.C. for its consideration of a         conduct folders and e-mails for the Assistant
                                possible criminal prosecution. On November         Director and the woman with whom he was
                                12, 2008, the United States Attorney’s Office      allegedly having a romantic relationship. We
                                issued a written declination of prosecution.       also took sworn, on-the-record testimony of
                                                                                   12 current and former SEC personnel,
                                     On March 18, 2009, the OIG issued its         including the complainant, the Assistant
                                report of investigation to management,             Director, the woman with whom he was
                                finding that the subject violated SEC policies     allegedly having a romantic relationship, and
                                and procedures by being absent without leave       numerous co-workers and supervisors.
                                from the workplace on numerous occasions.
                                In view of the fact that this was the subject’s         The OIG investigation did not
                                third offense, and in light of the significant     substantiate the allegation that the Assistant
                                number of hours he was absent from the             Director was engaged in a romantic
                                workplace, the OIG recommended that                relationship with the subordinate while he was
                                management take disciplinary action, up to         supervising her. Rather, the investigation
                                and including dismissal. We also                   uncovered no evidence of a romantic
                                recommended that management consider               relationship until at least four months after the
                                charging the subject for the hours of his          effective date of the subordinate’s promotion,
                                unauthorized absences from duty for which he       and the Assistant Director’s supervision of the
                                failed to request leave, as outlined in the OIG    subordinate terminated upon her promotion.
                                report. As of the end of the semiannual            Moreover, the investigation found that the
                                reporting period, management had not taken         Assistant Director had no direct role in the
                                any disciplinary action.                           subordinate’s promotion, although he was
                                                                                   asked by the selecting official and her new
                                                                                   supervisor about her performance during the
                                Lack of Impartiality by Assistant                  hiring process, and informed the hiring
                                Director in Performance of Official
                                Duties                                             officials that her performance was adequate
                                                                                   and satisfactory.
                                   The OIG opened this investigation on
                                August 7, 2008, into an allegation that an            During the course of our investigation,
                                OIT SK-17 Assistant Director supervised a          however, we uncovered other evidence

                                                                              46
SEMIANNUAL REPORT TO CONGRESS   demonstrating that the Assistant Director           Compensation Committee. Therefore, we
                                engaged in improper behavior under SEC              referred this matter to management for
                                policies and rules and the Standards of Ethical     appropriate disciplinary action against the
                                Conduct for Employees of the Executive              Assistant Director, and for consideration of
                                Branch. Specifically, for the years 2005 and        removing him from his position as OIT Ethics
                                2006, while he was romantically involved with       Liaison.
                                the subordinate, the Assistant Director served
                                on OIT’s Compensation Committee. As one                 As of the end of the semiannual reporting
                                of the three members of that Committee, he          period, management had not taken any
                                evaluated merit pay increase                        disciplinary action.
                                recommendations for over 100 OIT
                                employees – including the employee with
                                whom he had a romantic relationship – and           False Statement Allegations and
                                presented merit pay determinations to his           Finding of Lack of Candor in Interview
                                                                                    with OIG Investigator!        !       !
                                supervisor. In addition, this Assistant Director    !       !       !       !     !       !
                                served as OIT’s Ethics Liaison.                     !
                                                                                        On December 27, 2007, the OIG opened
                                    The investigation found that the Assistant      an investigation into a complaint from a
                                Director only recused himself from merit pay        former Enforcement attorney, alleging two
                                deliberations involving the employee after the      separate violations of 18 U.S.C. § 1001
                                relationship became public and thus                 regarding statements made by SEC staff as to
                                participated in her merit pay decisions for two     what documents he was provided when he
                                years in which they were romantically               requested his employee personnel file after his
                                involved.                                           termination in September 2005. First, the
                                                                                    complainant alleged that an Enforcement
                                     On March 5, 2009, the OIG issued its           Program Support Specialist made false
                                report of investigation to management. The          statements in an October 2005 e-mail she sent
                                OIG’s report found that although the Assistant      discussing a meeting she had with him to
                                Director did not modify the merit pay               provide him with his file. Second, he claimed
                                recommendations for the employee with               that an Enforcement Administrative Contact
                                whom he had a romantic relationship, he             made a false statement to an OIG investigator
                                failed to take appropriate steps to avoid the       during the course of a previous OIG
                                appearance of a loss of impartiality in the         investigation regarding what personnel
                                performance of his official duties and used his     documents were provided to the complainant
                                position as a member of the Compensation            and whether copies were maintained.
                                Committee to endorse the employee. The
                                evidence obtained in the investigation further          The previous OIG investigation referred to
                                revealed that the Assistant Director, despite       in the complaint investigated this period arose
                                being an Ethics liaison, never sought guidance      out of a September 2, 2005 complaint
                                from the SEC’s Ethics Office about whether          addressed to former SEC Chairman
                                he was permitted to participate in                  Christopher Cox. In that earlier complaint,
                                deliberations involving the employee’s merit        the former Enforcement attorney claimed,
                                pay increases while he served on OIT’s              inter alia, that his supervisors in Enforcement




                                                                               47
SEMIANNUAL REPORT TO CONGRESS   gave preferential treatment to the Chairman           EPF. The investigation found that the
                                and Chief Executive Officer of a large                Program Support Specialist gave the
                                investment bank, whom the complainant was             complainant certain documents from his EPF,
                                pursuing as a potential tipper in an insider          including documents related to his hiring such
                                trading investigation of a hedge fund.                as his initial job application and personnel
                                                                                      actions, but did not provide him with the
                                    In the investigation conducted during this        performance evaluations he was seeking. The
                                reporting period, the Inspector General took          investigation disclosed no evidence that the
                                the sworn, on-the-record testimony of the             Program Support Specialist gave the
                                complainant, as well as eight current SEC             complainant any original documents.
                                employees and one former SEC employee.
                                We also obtained and reviewed e-mails for                 The Program Support Specialist
                                seven current SEC employees for the                   memorialized what occurred during her
                                2005-2006 timeframe and conducted                     meeting with the complainant in an October
                                substantial analysis of the e-mails and other         5, 2005 e-mail, in which she stated, in
                                relevant documentation.                               pertinent part: “. . . . [Complainant] called me
                                                                                      to request that I meet him in the lobby at
                                    The OIG issued a report of investigation          Station Place to give him his EPF folder that
                                to management on March 17, 2009. The                  was kept in the Division of Enforcement.
                                OIG investigation found as follows regarding          The contents of the folder included his initial
                                the former Enforcement employee’s false               job application and the personnel actions. . . .
                                statement claims. On September 19, 2005,              The performance rating was not included
                                shortly after his termination from the SEC,           because it had not been returned to the
                                the complainant sought to review all of his           Administrative Office due to the recent
                                SEC personnel files. SEC employees have two           processing.”
                                sets of personnel files or folders: an Official
                                Personnel Folder (OPF) that is maintained by              After the complainant realized that he had
                                the Office of Human Resources, and an                 not received the evaluations he had sought, on
                                Employee Performance File (EPF) which is              September 27, 2005, the complainant, with
                                maintained in the division or office in which         the assistance of the SEC employee union,
                                an employee works. On September 20, 2005,             made additional requests for his the
                                the complainant initially received a copy of          evaluations he had not obtained. In October
                                his OPF from an SEC Human Resources                   2005, the complainant finally received several
                                Specialist, which included standard                   of the evaluations he was seeking.
                                employment documents, the complainant’s
                                offer letter and insurance documentation.                 On December 30, 2005, the complainant
                                When the complainant advised Commission               sent a FOIA request to the SEC, seeking, inter
                                personnel officials that he was really searching      alia, all of his employee performance and
                                for his evaluations because they were relevant        personnel files and documents relating to his
                                to an ongoing EEO case he had against the             evaluations or performance. He also made a
                                SEC, he was informed that these documents             request for his personnel file to the Federal
                                were maintained in his EPF. The complainant           Records Center, which informed him it did
                                then contacted the Enforcement Program                not have any of the documents he was
                                Support Specialist and arranged a meeting             requesting.
                                with her for September 22, 2005, to review his

                                                                                 48
SEMIANNUAL REPORT TO CONGRESS        On April 11, 2006, the complainant sent a      candor in drafting her October 5, 2005
                                letter to a Human Resources Specialist, the         e-mail, was not substantiated.
                                Enforcement Administrative Contact and a
                                Research Specialist in the SEC’s FOIA Office,            The complainant also claimed that the
                                requesting that he be provided with the             Enforcement Administrative Contact violated
                                current location of his EPF. The FOIA               18 U.S.C. § 1001, when he stated to an OIG
                                Specialist responded to the complainant on          Investigator in an interview conducted as part
                                April 24, 2006, enclosing a copy of a               of an official OIG investigation, in referring to
                                performance plan and evaluation form that           the meeting between the Program Support
                                had not previously been provided to him. She        Specialist and the complainant, that they had
                                also stated: “With regard to your EPF file,         given the complainant “everything in person,
                                Commission staff has advised that you have          don’t keep anything.” The OIG investigation
                                been provided with the original EPF file, and       did not find sufficient evidence that the
                                that the Division of Enforcement does not           Enforcement Administrative Contact had the
                                maintain a copy, nor does any other                 specific intent to make a false statement or
                                Commission office.”                                 that he knew his statement was incorrect and
                                     #                                              nevertheless deliberately misrepresented the
                                     The complainant maintained that the            facts. Thus, the OIG investigation did not
                                FOIA Specialist’s representation in her April       find that there was sufficient evidence to
                                24, 2006 letter was inaccurate because he had       support a charge against the Enforcement
                                not been given any original documents and           Administrative Contact for violation of 18
                                copies were maintained of the documentation         U.S.C. § 1001 or an administrative charge of
                                provided him. However, he did not claim that        falsification.
                                the FOIA Specialist had violated any false
                                statement statutes, as he maintained that she           Nonetheless, the OIG investigation did
                                had relied on statements made by the                conclude that the Enforcement Administrative
                                Enforcement Administrative Contact in               Contact lacked candor in his communications
                                sending the letter.                                 with the OIG investigator. Specifically, we
                                                                                    found that his statement to her that the
                                    The complainant did claim that the              complainant was given everything by the
                                Program Support Specialist’s October 5, 2005        Program Support Specialist and nothing was
                                e-mail that described the complainant’s             kept was misleading, as the Enforcement
                                request for his original EPF folder and             Administrative Contact knew the complainant
                                described the contents of the EPF folder given      was not given everything and believed that
                                to him, violated 18 U.S.C. § 1001, since she        copies of the documents given to the
                                did not actually give him his original EPF          complainant may have been kept. When
                                folder. Nowhere in this October 5, 2005             shown the OIG investigator’s notes of the
                                e-mail, however, did the Program Support            Enforcement Administrative Contact’s
                                Specialist explicitly state that she gave the       conversation with her that reflected that the
                                complainant his entire original file or even any    statement described above, the Enforcement
                                original documents. Accordingly, the OIG            Administrative Contact acknowledged that the
                                investigation found that the complainant’s          OIG investigator’s notes were an accurate
                                claim that the Program Support Specialist           reflection of the conversation he had with her.
                                violated 18 U.S.C. § 1001, or otherwise lacked      He also admitted that the Program Support
                                                                                    Specialist had not given the complainant all

                                                                               49
SEMIANNUAL REPORT TO CONGRESS   the documents that should have been in his            No action had been taken on the OIG’s
                                EPF. The Enforcement Administrative               referral for disciplinary action and
                                Contact further admitted that he did not know     recommendation for review of policies and
                                if the complainant actually got any original      procedures as of the end of the reporting
                                documents and that he assumed the OGC             period.
                                had actually kept copies of everything that
                                was sent to the complainant. Thus, the OIG
                                investigation found that the Enforcement          Unauthorized Disclosure of Non-Public
                                Administrative Contact’s statement to the         Information by SEC Staff Attorney
                                OIG investigator failed to disclose relevant
                                                                                      On October 17, 2008, OIG opened an
                                information concerning what the Program
                                                                                  investigation as a result of information
                                Support Specialist actually had provided to
                                                                                  received from an informant who was also a
                                the complainant and what was retained by the
                                                                                  former employee of a large investment bank.
                                SEC that, in the circumstances, should have
                                                                                  In his complaint to the OIG, the informant
                                been disclosed in order to make his statements
                                                                                  alleged that an individual on the SEC’s New
                                accurate and complete.
                                                                                  York Regional Office (NYRO) staff disclosed
                                                                                  non-public information about the informant’s
                                    In light of the foregoing, we concluded
                                                                                  contacts with the SEC to counsel representing
                                that the Enforcement Administrative
                                                                                  the investment bank, which then used that
                                Contact’s statement to the OIG investigator
                                                                                  information against him in a whistleblower
                                during an interview in an official OIG
                                                                                  retaliation complaint he had filed against the
                                investigation was not a full and truthful
                                                                                  company.
                                description of what occurred with the
                                complainant’s EPF and lacked forthrightness.
                                                                                      The OIG took the sworn testimony of the
                                Accordingly, we referred the Enforcement
                                                                                  informant, the subject of the investigation and
                                Administrative Contact’s lack of candor to
                                                                                  the subject’s supervisor. In addition, the OIG
                                management for appropriate disciplinary
                                                                                  conducted interviews of several witnesses
                                action. The OIG investigation also concluded
                                                                                  outside of the Commission who had relevant
                                that that there was a great deal of confusion
                                                                                  information concerning the allegations.
                                within the agency regarding what happens to
                                an EPF after an employee is separated from
                                                                                      The investigation revealed that in June
                                the SEC. We also found that the SEC’s
                                                                                  2004, while he was still employed with the
                                manual provisions regarding the maintaining
                                                                                  investment bank, the informant became
                                of employees’ personnel folders are
                                                                                  concerned that the investment bank was not
                                considered by some SEC personnel officials to
                                                                                  fully cooperating with an ongoing SEC
                                be obsolete and are not being followed.
                                                                                  investigation into its market timing activities.
                                Accordingly, the OIG also referred the report
                                                                                  The informant then contacted SEC NYRO
                                to the OHR for review of the Commission’s
                                                                                  staff and offered to provide to the SEC
                                policies and procedures concerning EPFs to
                                                                                  e-mails that he believed were relevant to the
                                ensure that these files are properly protected
                                                                                  SEC’s investigation. In doing so, the
                                and produced upon request.
                                                                                  informant initially requested a bounty from




                                                                             50
SEMIANNUAL REPORT TO CONGRESS   the SEC, but was told that, in this case, any        SK-14 Staff Attorney in the Los Angeles
                                information he would provide would not be            Regional Office (LARO) concerning
                                eligible for a bounty. Nevertheless, the             misconduct, retaliation and perjured
                                informant turned over copies of the                  testimony arising out of a 2003 OIG
                                investment bank’s e-mails to NYRO staff.             investigation of this Staff Attorney’s conduct.
                                The informant was subsequently terminated            The Staff Attorney alleged that LARO
                                by the investment bank, and he filed a               managers who served on the Compensation
                                whistleblower retaliation complaint with the         Committee for the 2007 rating period
                                Department of Labor (DOL) under the                  retaliated against him by awarding him only a
                                provisions of the Sarbanes-Oxley Act.                one-step merit pay increase because he had
                                                                                     been (1) the subject of the 2003 OIG
                                    After interviewing NYRO staff, as well as        investigation; and/or (2) a whistleblower by
                                outside counsel for the investment bank and          providing information to the Senate Finance
                                the DOL staff, the OIG was able to confirm           Committee and Judiciary Committee
                                the identity of the SEC staff member who             investigative attorneys in connection with
                                revealed to counsel for the investment bank          their investigation of the firing of a former
                                that the informant had requested a bounty            SEC Enforcement attorney. The complainant
                                from the SEC. Further, the investigation             also alleged that LARO managers provided
                                found that the SEC staff member not only             perjured testimony in the 2003 OIG
                                gave permission to, but actively encouraged,         investigation; that LARO managers had
                                counsel for the investment bank to divulge this      engaged in conduct similar to that which he
                                information to the DOL as evidence against           was found to have engaged in, but were not
                                the informant in the whistleblower retaliation       disciplined in the same manner; and that a
                                proceeding.                                          certain LARO manager heard that he had
                                                                                     spread rumors about her and failed to give
                                    The OIG issued its report of investigation       him a copy of the 2003 OIG report of
                                on March 30, 2009, finding that, contrary to         investigation in a timely manner because she
                                SEC regulations, the NYRO staff attorney             was biased against him.
                                was responsible for disclosing non-public
                                information about the informant’s request for            The complainant further alleged that the
                                a bounty from the SEC to the investment              SEC’s former Inspector General and the
                                bank’s outside counsel. We referred the              Counsel to the Inspector General engaged in
                                matter to management for consideration of            misconduct when conducting the October
                                disciplinary action and requested to be              2003 OIG investigation. The SEC OIG
                                advised of any action taken by management            referred this allegation to the National
                                in response to the OIG report within 45 days.        Science Foundation (NSF) OIG to avoid any
                                                                                     conflict of interest that might arise in
                                                                                     investigating allegations against SEC OIG
                                Allegation of Retaliation by Managers                staff. The NSF OIG conducted an
                                in the Los Angeles Regional Office!                  investigation of the allegations against the
                                                                                     SEC OIG staff and, in a letter dated August
                                                                                     22, 2008, found no evidence to support the
                                    On April 16, 2008, the OIG opened an
                                investigation into allegations made by a grade       allegations.



                                                                                51
SEMIANNUAL REPORT TO CONGRESS        In its investigation of the allegations        that the Staff Attorney’s name was removed
                                against the LARO managers, the OIG took             from the Senate Report after several days.
                                sworn, on-the-record testimony of the               Moreover, the Staff Attorney presented no
                                complainant, as well as five senior-level LARO      proof, nor could the OIG find any evidence
                                officials. The OIG also interviewed the             during the course of the investigation, that
                                complainant’s Branch Chief, and an Assistant        any of the managers who made decisions
                                Regional Director.                                  concerning his compensation saw his name in
                                                                                    the Senate report or knew that he was in
                                    The OIG thoroughly investigated the staff       contact with any Senate Committee.
                                attorney’s allegations of retaliation and found
                                them not to be substantiated. The OIG                    The OIG investigation also found no
                                investigation did find that while the Staff         evidence that certain LARO managers
                                Attorney’s direct supervisor recommended            perjured themselves during the 2003 OIG
                                him for a two-step merit increase for the 2007      investigation. In the 2003 OIG investigation,
                                rating period, the Compensation Committee           the OIG found that the Staff Attorney had
                                only awarded him a one-step increase. This          engaged in abusive and intimidating conduct
                                was determined to be due, however, to SEC-          toward several LARO staff members and
                                wide budgetary constraints. Specifically, of        recommended that a copy of the report be
                                the 110 employees in the LARO, 17 received          sent to management for administrative action
                                zero steps, 55 received one step, 34 received       as appropriate. We further found that
                                two steps, and only four received three steps.      although two of the staff members had also
                                The Staff Attorney was found to have                made certain derogatory remarks, including
                                received the same number or more steps than         negative comments about a LARO manager,
                                the majority of the LARO staff.                     the evidence showed that their conduct was
                                                                                    less egregious than the Staff Attorney
                                    The OIG investigation also found that           complainant’s conduct and that they were
                                there was no evidence that LARO managers            counseled for their actions.
                                were aware that the Staff Attorney had
                                communicated with Senate investigators in an            The OIG also found that while there was
                                investigation. The Staff Attorney claimed           evidence of a perception in the office that the
                                that his name appeared in a link from a New         Staff Attorney may have been the source of
                                York Times article to the Senate investigation      rumors concerning certain managers, there
                                report, and that the LARO managers on the           was no concrete evidence of a connection
                                Compensation Committee who were                     between these rumors and any manager’s role
                                responsible for determining the merit pay           on the Compensation Committee. We also
                                increases for staff knew that he had been in        did not find any merit to the allegation that
                                contact with the Senate Finance Committee.          anyone improperly delayed giving the staff
                                                                                    attorney a copy of the 2003 OIG report.
                                    In the OIG investigation, the managers
                                credibly testified under oath that they had no          On March 16, 2009, the OIG issued a
                                knowledge of the Staff Attorney having any          report finding the complainant’s claims to be
                                contact with the Senate investigators, nor did      unsubstantiated. The OIG did recommend,
                                they know that his name had appeared in the         however, that given the repeated concerns that
                                Senate investigation report link in the New York    the Staff Attorney has expressed about
                                Times article. The OIG investigation found          managers’ lack of partiality, certain LARO

                                                                               52
SEMIANNUAL REPORT TO CONGRESS   managers should recuse themselves from any             several of the shareholders and interested
                                future decisions pertaining to the Staff               parties.
                                Attorney’s performance and/or affecting his
                                compensation, pay or benefits. As of the end                We thoroughly investigated the allegation
                                of the semiannual reporting period, the                that the former DRO Regional Director made
                                agency had taken no action on the                      perjurious statements in a letter to Senator
                                recommendation.                                        Nelson in response to the Senator’s previous
                                                                                       letter of November 9, 2007. In the Regional
                                                                                       Director’s letter, he outlined the SEC’s actions
                                Allegations of Perjury by a Regional                   against the company, and further stated that
                                Office Official and Receiver Conflict of               the company had failed to produce any
                                Interest                                               evidence to support the claims of naked short
                                    On April 16, 2008, OIG opened an                   selling of its stock. During the OIG
                                investigation into allegations by shareholders         investigation, the former DRO Regional
                                of a particular company that the SEC’s                 Director acknowledged an overstatement in
                                Denver Regional Office (DRO) engaged in                the third to last paragraph of his letter, which
                                                                                       indicated the stock “sold short,” when the
                                misconduct in their investigation and
                                prosecution of a civil action against the              proper terminology was “failures to deliver.”
                                company. Specifically, the complaint alleged           We conducted a comprehensive review of the
                                that: (1) the then-DRO Regional Director               letter and confirmed that the information
                                perjured himself in a letter to Senator Bill           contained in the letter that was alleged to be
                                                                                       perjurious was, in fact, accurate. We also
                                Nelson about the investigation into the
                                company; (2) DRO Enforcement attorneys                 reviewed the remainder of the letter and
                                committed perjury to the Court in which the            found that no statements in the letter were
                                action against the company was brought by              perjurious or misleading.
                                objecting to the company’s late request for a
                                                                                           The OIG investigation also found that,
                                jury trial after allegedly agreeing that the
                                company was entitled to a jury trial; (3) the          contrary to the allegations, the SEC could not
                                Court-appointed receiver had a conflict of             have promised defendants a jury trial, as the
                                interest; and (4) the SEC’s lawsuit against the        Federal Rules of Civil Procedure require
                                company was filed in retaliation for its filing        defendants to request a jury trial in a timely
                                                                                       manner. The OIG investigation found that
                                suit against the SEC.
                                                                                       the Court’s granting of summary judgment to
                                    During the course of its investigation, the        the SEC precluded any need for a jury trial,
                                OIG obtained and reviewed hundreds of                  regardless of whether the company had
                                e-mails and documents submitted by an                  properly requested one or not (which they
                                                                                       admit they did not). We also found the SEC
                                organized group of the company’s
                                shareholders, as well as other individuals             did not agree to a jury trial, nor was there
                                related to the company. In addition, we took           evidence the DRO attorneys were trying to
                                on-the-record testimony and interviewed by             hide their agreement from the judge.
                                telephone current DRO and headquarters                 Moreover, the judge issued a ruling denying
                                                                                       the defendant’s request for a jury trial as
                                employees. We also interviewed by telephone
                                                                                       moot, but did so without prejudice (thus
                                                                                       allowing the company an opportunity to


                                                                                  53
SEMIANNUAL REPORT TO CONGRESS   amend its answer and request a jury trial if        its complaint, nor any evidence that
                                the company prevailed on appeal).                   subpoenas were issued for the purpose of
                                                                                    harassment.
                                    The concerned shareholders also alleged
                                problems with the appointment of the Court-
                                appointed receiver, specifically claiming that      Misuse of Resources and Official Time
                                the Court did not hold a hearing about her          for Outside Businesses
                                                                                        #           #       #       #
                                appointment and that she was not required to
                                                                                        During this semiannual reporting period,
                                post a bond. The OIG found that the SEC
                                                                                    the OIG completed an investigation and
                                moved for appointment of a receiver, and the
                                                                                    several inquiries into whether employees in
                                Court granted this motion. The Court then
                                                                                    several SEC offices misused government
                                appointed a receiver, and she issued her first
                                                                                    resources and official time to support private
                                report to the Court. According to the Court’s
                                                                                    photography or videography businesses. The
                                docket sheet, none of the shareholders
                                                                                    matter investigated arose out of investigations
                                objected to the receiver’s appointment. While
                                                                                    conducted during previous semiannual
                                the OIG found no conflict of interest, the
                                                                                    reporting periods that found evidence that
                                OIG looked further to determine whether the
                                                                                    three other SEC employees had used
                                DRO followed proper procedures in
                                                                                    substantial government resources and time for
                                recommending the receiver. The OIG
                                                                                    private photography businesses. The inquiries
                                investigation revealed that the DRO followed
                                                                                    we completed were a result of information
                                the SEC’s internal procedures regarding the
                                                                                    uncovered during OIG investigations
                                recommendation of the receiver in this matter.
                                                                                    conducted during the current and prior
                                Moreover, it was the Court that, upon due
                                                                                    semiannual reporting periods.
                                consideration of potential candidates, selected
                                and appointed the receiver.
                                                                                        In the matter investigated during this
                                                                                    semiannual reporting period, which was
                                    As noted above, the concerned
                                                                                    opened on April 28, 2008, the OIG
                                shareholders alleged that the SEC’s lawsuit
                                                                                    investigation uncovered abundant evidence
                                against the company was filed in retaliation
                                                                                    that the subject employee, an SK-13
                                for its filing suit against the SEC. However,
                                                                                    Information Technology Specialist who had
                                the OIG investigation found that the DRO
                                                                                    been with the SEC for 18 years, repeatedly
                                began its investigation into the company well
                                                                                    used SEC resources and official time in
                                before the company filed its suit against the
                                                                                    support of his private photography business.
                                SEC. While the OIG investigation revealed
                                                                                    The investigation found that the employee
                                that the timing of the SEC’s filing its
                                                                                    operated a lucrative for-profit photography
                                complaint against the company just a few
                                                                                    business, providing wedding and portrait
                                weeks after it filed suit against the SEC
                                                                                    photography services for approximately six
                                appeared suspicious, the evidence showed that
                                                                                    years. He also identified three other SEC
                                the SEC investigation of the company was
                                                                                    employees who work with him in his business.
                                already well under way by the time the
                                company sued the SEC. Moreover, the OIG
                                                                                        The investigation further uncovered
                                could find no concrete evidence that
                                                                                    evidence that the employee conducted his
                                retaliation was a motive in the SEC’s filing of



                                                                               54
SEMIANNUAL REPORT TO CONGRESS   private business at work during official             various SEC offices were misusing SEC
                                business hours, and used SEC resources for           resources and time by conducting private
                                this purpose, including using his work               business activities during working hours. Five
                                computer for receiving and sending e-mails           of the six employees were alleged to have
                                and reviewing documents, photocopiers,               photography businesses, while one employee
                                printers, fax machines, and telephones.              allegedly had a videography business. During
                                                                                     these inquiries, the OIG obtained from OIT
                                    Much of the evidence concerning the              the e-mails of each of the employees for a
                                employee’s misuse of resources and time came         four-month period. OIG staff conducted a
                                from his own admissions on the record during         thorough review of the employee’s inbox and
                                sworn testimony. The employee also admitted          sent messages folders, searching for evidence
                                that he knew it was against SEC policy to use        of any significant misuse of SEC resources
                                SEC resources and office equipment for               and time for a private business. The OIG also
                                commercial purposes, and acknowledged                requested that OIT staff examine the
                                making mistakes and tremendous errors in             employees’ computer hard drives for evidence
                                judgment.                                            of misuse of government resources for a
                                                                                     private business. OIT examined the hard
                                    In addition to taking the employee’s             drives of computers used by four of the six
                                sworn, on-the-record testimony on May 21,            employees; the computers of the remaining
                                2008, the OIG obtained and reviewed the              two employees were unavailable for
                                employee’s e-mails for the period from May           examination. For all six employees, the e-mail
                                2007 through April 2008 (excluding one               and hard drive reviews conducted revealed no
                                month that was not available from OIT) and           significant evidence that these individuals were
                                found numerous non-work related images.              using SEC resources and time to conduct
                                The OIG also reviewed the employee’s                 private businesses.
                                Official Personnel Folder and conduct file,
                                which revealed no prior disciplinary actions.
                                The OIG examination of his time and                  Misuse of Computer Resources and
                                attendance records for the time period from          Official Time to View Pornography
                                December 2007 through May 2008 did not
                                                                                         During this semiannual reporting period,
                                reflect any unusual absences from work.
                                                                                     the OIG continued to receive from the OIT
                                Finally, the OIG interviewed the employee’s
                                                                                     Information Security Group lists of SEC
                                supervisor.
                                                                                     employees or contractors who had numerous
                                                                                     attempts to access pornographic websites from
                                    On November 7, 2008, the OIG issued its
                                                                                     SEC computers that were blocked by the
                                report of investigation, setting forth in detail
                                                                                     agency’s internet filter, as well as instances
                                the evidence uncovered during the
                                                                                     where they successfully accessed pornography
                                investigation and recommending disciplinary
                                                                                     or inappropriate material. Depending on the
                                action against the employee. As of the end of
                                                                                     frequency of the accesses and attempted
                                the semiannual reporting period, management
                                                                                     accesses and the nature of the material access,
                                had taken no action.
                                                                                     the OIG conducted a full investigation or a
                                                                                     more limited inquiry as discussed below.
                                   In addition, the OIG completed six
                                inquiries into complaints that employees in


                                                                                55
SEMIANNUAL REPORT TO CONGRESS      Beginning on October 20, 2008, the OIG          accessed sexually-suggestive websites. The
                                conducted an investigation into information        OIG issued a memorandum report on
                                showing a Los Angeles Regional Office SK-17        December 12, 2008, and referred the matter
                                supervisor had been using his SEC-assigned         for disciplinary action. Based on the OIG’s
                                computer to access Internet pornography.           report, the employee was issued a
                                The investigation revealed that while using his    memorandum of warning to counsel him
                                SEC computer during 17 working days, the           regarding his misuse of SEC computer
                                employee received approximately 1,880 access       resources and official time.
                                denials for Internet websites classified by the
                                SEC’s Internet filter as pornography. The              In the three matters involving
                                images on these websites included graphic          Enforcement contractor personnel, the
                                depictions of sexual acts.                         information provided by OIT demonstrated
                                                                                   that each of these individuals received
                                    The supervisor admitted under oath that        hundreds of access request denials for
                                he accessed and attempted to access these          websites classified by the Internet filter as
                                pornographic and sexually-explicit websites        pornography during periods ranging from
                                up to twice a day from his SEC computer            approximately four to seven weeks. Moreover,
                                during work hours. The supervisor also             a review of the information provided by OIT
                                admitted that he saved numerous                    revealed additional instances in which each of
                                pornographic and sexually-explicit images to       these contractors successfully accessed sexually
                                his SEC computer hard drive and that he            explicit and suggestive Internet websites that
                                viewed those saved images during work hours.       contained nudity and portrayals of sexual
                                In addition, he admitted that he had personal      acts. The OIG issued memoranda reports on
                                accounts with pornographic websites and that       December 12, 2008, in all three matters. In
                                he accessed pornography from his SEC               response to the OIG’s reports, the
                                computer while on travel. The supervisor also      employment of the three contractors was
                                acknowledged that his searching for and            terminated.
                                viewing pornographic images may have
                                interfered with his SEC work. The supervisor
                                was reprimanded.                                   Other Inquiries Conducted

                                    The OIG also conducted inquiries during            During this semiannual reporting period,
                                the reporting period into the misuse of SEC        the OIG also completed inquiries into other
                                computer resources to view pornography by          numerous matters brought to its attention, the
                                one SEC employee and three Enforcement             most significant of which are described below.
                                contractor personnel. In the matter involving
                                the SEC employee, the evidence showed that             The OIG conducted an inquiry upon
                                this individual received 52 access request         receipt of information from the OIT Security
                                denials for Internet websites classified by the    Group that a member of the public purchased
                                Internet filter as pornography in a ten-day        an SEC BlackBerry® phone from a vendor on
                                period. Many of these denials occurred             the popular auction website, eBay. During the
                                during normal SEC work hours. Information          inquiry, we determined that the vendor
                                provided by OIT also revealed additional           bought the device from a company that sold
                                instances in which the employee successfully       surplus equipment bought from the General


                                                                              56
SEMIANNUAL REPORT TO CONGRESS   Services Administration (GSA). The OIG               investigating the matter only after the Bernard
                                obtained the BlackBerry® and, upon                   L. Madoff Ponzi scheme became public.
                                examination, determined that it had properly         After receiving this complaint, we searched
                                been turned in as defective by a former              internal databases and found that the regional
                                member of the SEC’s Philadelphia Regional            office’s investigation of the bank’s Ponzi
                                Office staff. The device was then wiped clean        scheme was opened in June 2005, and a
                                by OIT staff (although some residual                 formal order of investigation was obtained in
                                information, e.g., “Property of the SEC,”            October 2006. Based upon its review, the
                                remained) and turned in to GSA as surplus            OIG also determined that there was activity in
                                equipment, which GSA then sold in a bulk lot         the case, including coordination with DOJ
                                to the public. There was no evidence that the        and the FBI, prior to the revelation of the
                                BlackBerry® purchased on eBay was obtained           Madoff Ponzi scheme in December 2008.
                                or sold illegally, as it was properly turned over    Accordingly, the OIG concluded that this
                                by the OIT to GSA as surplus.                        complaint did not warrant further
                                                                                     investigation.
                                    Another inquiry conducted by the OIG
                                concerned alleged staff misconduct with                   The OIG conducted another inquiry into
                                regard to an Enforcement action brought by           a complaint it received from an SEC
                                an SEC regional office, including allegations        accountant, alleging that a former SEC staff
                                that two regional office staff attorneys made        member improperly communicated with a
                                false representations and committed perjury          third party concerning internal SEC
                                when they filed the SEC’s complaint in the           personnel matters. Such a communication,
                                matter. The OIG thoroughly reviewed the              the complainant alleged, was improper under
                                lengthy litigation history and court filings in      the recently-published SEC Enforcement
                                the underlying case, as well as the allegations      Manual section prohibiting external
                                contained in the complaint. Based on this            communications between senior Enforcement
                                review, the OIG determined that the                  officials and parties outside the SEC. The
                                allegations against the staff attorneys were         OIG inquiry determined that although the
                                unsubstantiated. The OIG further found that          alleged subject met the definition of a “senior
                                the issues set forth in the complaint were           enforcement official,” her external
                                previously decided by the United States              communication fell outside the conduct
                                District Court in which the Enforcement              proscribed by the Enforcement Manual as it
                                action was brought and upheld on appeal.             involved personnel issues of two employees
                                Thus, the OIG took no further action on the          who were previously supervised by the outside
                                complaint.                                           person with whom she was speaking. Thus,
                                                                                     the conversation was (1) not material; (2) did
                                    The OIG conducted an inquiry after               not relate to an ongoing, active investigation;
                                receiving a telephone Hotline complaint from         and (3) did not occur between a senior
                                an anonymous source. The complainant                 enforcement official and a person outside the
                                reported that since 2004, a large bank has           SEC who was involved with investigations.
                                been involved in a Ponzi scheme through its          Moreover, the Enforcement Manual did not
                                broker-dealer. The complainant further               come into existence until five years after the
                                alleged that a senior official in an SEC             external communication occurred. In view of
                                regional office directed staff to start              these facts, as well as the fact that the subject


                                                                                57
SEMIANNUAL REPORT TO CONGRESS   of the inquiry is no longer an SEC employee,        Christopher Cox. Chairman Cox asked IG
                                the OIG determined that no further                  Kotz to undertake an investigation into
                                investigative work was warranted in this            complaints made to the Commission
                                matter.                                             regarding Madoff, going back to at least 1999,
                                                                                    and the reasons that these allegations were
                                    The OIG also concluded its inquiry into a       found to be not credible. Chairman Cox also
                                complaint that an SEC employee used the             requested that the OIG investigate all staff
                                SEC’s e-mail system to send personal                contact and relationships with the Madoff
                                messages containing Personally Identifiable         family and firm and any impact such
                                Information (PII) to an individual outside the      relationships had on staff decisions regarding
                                agency at his place of employment, despite          the firm.
                                the complainant’s request that the SEC
                                employee stop doing so. The OIG obtained                In testimony given before the United
                                and reviewed the employee’s e-mails for the         States House of Representatives Committee
                                time period relevant to the complaint. For the      on Financial Services on January 5, 2009, IG
                                24-month period reviewed, the OIG found             Kotz stated that the OIG would investigate
                                that the employee sent 133 e-mails to the           several specific issues, including how the SEC
                                complainant’s personal or work e-mail               handled complaints it received regarding
                                accounts, or both. The OIG then reviewed a          Madoff; whether examinations of Madoff ’s
                                sample of approximately 63 of these e-mails         firm were affected by conflicts of interest
                                and found that none of these e-mails                between SEC officials or staff and members of
                                appeared to be harassing or threatening.            the Madoff family; the extent to which
                                Based on its review, the OIG determined that        Madoff ’s reputation, status and professional
                                the employee did not make excessive personal        relationships with SEC staff may have affected
                                use of SEC e-mail under the agency’s rules.         decisions regarding investigations and
                                The OIG also found that the employee did            examinations of his firm; and whether there
                                not violate any SEC policies regarding PII, as      were “red flags” signaling a Ponzi scheme that
                                the information contained in the e-mails was        were overlooked in examinations of Madoff ’s
                                of a personal nature and was not information        firm.
                                collected, used or maintained by the SEC.
                                                                                        Since January 2009, the OIG has ordered
                                                                                    the production of the e-mails of at least 27
                                PENDING INVESTIGATIONS                              SEC employees who had involvement with
                                                                                    Madoff examinations or investigations and
                                Investigation of Failure to Uncover a               has requested a search of all headquarters and
                                Ponzi Scheme                                        New York and Boston Regional Office e-mails
                                                                                    referencing Madoff. The OIT has been
                                    The OIG is conducting an investigation of
                                why the SEC did not discover that Bernard L.        producing e-mails on a rolling basis and has
                                Madoff was running a Ponzi scheme prior to          provided the OIG with over 1.3 million
                                his arrest on December 11, 2008.                    e-mails to date. OIG investigators have
                                                                                    substantially reviewed the e-mails produced.
                                                                                    In addition to obtaining internal agency
                                    The OIG began this investigation in
                                response to a request made on December 16,          e-mails, the OIG has ordered e-mail providers
                                2008, by then Commission Chairman                   to preserve the personal e-mail accounts of


                                                                               58
SEMIANNUAL REPORT TO CONGRESS   several individuals. Additional document           have reviewed thousands of e-mails and
                                requests are underway.                             documents, and have taken the sworn
                                                                                   testimony of or interviewed 13 current and
                                   At the request of the OIG, the OCIE             former SEC employees during the reporting
                                produced all available work papers from the        period. The OIG also provided a briefing to
                                SEC’s examinations of Madoff ’s firm.              the staff of a United States Senator regarding
                                Specifically, the OCIE produced documents          the status of the investigation. The
                                from seven examinations performed over 11          investigators plan to take additional testimony
                                years.                                             and issue a written report of investigation in
                                                                                   the next semiannual reporting period.
                                     The OIG also engaged a forensic and
                                litigation consultancy firm with expertise in
                                forensic accounting and the examination of         Allegations of Unauthorized Disclosure
                                broker dealers to assist in the review of the      by Former Employee and Improper
                                                                                   Enforcement Investigation!
                                OCIE work papers, and to determine whether
                                examiners missed red flags that should have             The OIG is continuing to investigate
                                alerted them to Madoff ’s Ponzi scheme. The        allegations made in a published book that a
                                consultancy firm has completed a thorough          former SEC attorney may have taken
                                review and analysis of all examination work        confidential investigative materials when he
                                papers produced to the OIG.                        left the SEC and provided those materials to a
                                                                                   company for which he went to work as a
                                    In addition, as of the end of the reporting    lobbyist. It was also alleged in the book that
                                period, the OIG had conducted 44 witness           the SEC failed to conduct an adequate
                                interviews with numerous additional                investigation after the author presented
                                interviews scheduled for April and May 2009.       evidence of fraud by an affiliate of this
                                The OIG hopes to conclude its investigation        company and instead investigated the
                                and issue a report of its findings prior to the    complainant for spreading negative views
                                end of the next semiannual reporting period.       about the company. The OIG has obtained
                                                                                   and reviewed the book containing the
                                                                                   allegations and taken the testimony of its
                                Allegation of Unauthorized Disclosure              author. The OIG has also taken the testimony
                                of Non-Public Information by a Senior
                                SEC Official!!     !     !     !                   of individuals who worked on the underlying
                                                                                   investigative matter. In addition, the OIG has
                                    The OIG is conducting an investigation         obtained hundreds of pages of e-mails, as well
                                based upon an anonymous complaint alleging         as relevant correspondence and other
                                that a senior SEC official improperly disclosed    documentation. The OIG further plans to
                                non-public information to a large investment       take the sworn testimony of and interview
                                bank. The OIG made a document                      several additional witnesses.
                                production request to, and collected numerous
                                documents from the Division of Enforcement,
                                the Division of Investment Management, the         Allegations of Failure to Vigorously
                                Division of Corporation Finance, the Division      Enforce Securities Laws! !       !
                                of Trading and Markets, and the Office of the
                                                                                       The OIG has opened an investigation into
                                General Counsel. The OIG investigators
                                                                                   a complaint it received from a shareholders’

                                                                              59
SEMIANNUAL REPORT TO CONGRESS   representative, alleging that Enforcement            information about SEC Enforcement
                                failed to properly and vigorously enforce the        investigations obtained from an internal SEC
                                Federal securities laws in its investigation of a    database. The information in question was
                                publicly-traded corporation, resulting in            allegedly disclosed to a corrupt FBI agent and
                                substantial losses to shareholders. The OIG          short seller, who were subsequently tried and
                                has requested and reviewed relevant                  convicted of several criminal violations,
                                documents and taken the sworn testimony of           including fraud, theft, racketeering and
                                the complainant. The OIG plans to interview          conspiracy in connection with a stock short
                                several SEC staff members with knowledge of          selling operation. During the reporting
                                the allegations and the underlying                   period, an OIG investigator took sworn, on-
                                Enforcement matter.                                  the-record testimony of the two Enforcement
                                                                                     attorneys who were accused of improperly
                                                                                     divulging the non-public information. The
                                Allegations of Conflict of Interest and              OIG also obtained and reviewed the
                                Investigative Misconduct                             transcripts of the testimony these two
                                                                                     attorneys provided at the criminal trial of the
                                     The OIG is continuing to investigate            FBI agent and short seller. In addition, we
                                allegations that a supervisory SEC
                                                                                     requested and examined other
                                Enforcement attorney participated in an
                                                                                     documentation, including records showing
                                investigation notwithstanding a personal
                                                                                     what information these attorneys searched for
                                conflict of interest that required his recusal
                                                                                     in the internal SEC database. The OIG plans
                                from the investigation, and that various             to finalize the investigation in the next
                                misconduct occurred during the course of the
                                                                                     reporting period.
                                investigation and subsequent litigation.
                                During this semiannual reporting period, the
                                OIG continued to review the e-mails of the
                                                                                     Allegations of Management Retaliation
                                attorneys who worked on the matter for the           Against Staff and Travel Abuse
                                relevant time period. The OIG also reviewed
                                additional information received from the                 The OIG is investigating two separate
                                complainant and sought clarification from an         matters as a result of an internal complaint
                                SEC Office of a new concern raised by the            alleging retaliation by management for
                                complainant. The OIG plans to take the               employee objections to policy and
                                testimony of the subjects of the investigation       management decisions, and irregularities in
                                and complete the investigation during the next       two trips taken by staff at government
                                semiannual reporting period.                         expense. The OIG has obtained and
                                                                                     reviewed documents pertaining to the office in
                                                                                     question, including travel records and
                                Complaint Concerning Unauthorized                    vouchers, letters of reprimand, grievance
                                Disclosure of Non-Public Information                 documents and personnel records. The OIG
                                Obtained from a Commission                           has also taken the sworn testimony of or has
                                Database
                                                                                     interviewed 16 current and former SEC staff
                                    The OIG is conducting an investigation           and managers. The OIG expects to issue
                                into a complaint that two SEC Enforcement            reports of investigation for both matters in the
                                attorneys repeatedly, and in violation of            next reporting period.
                                agency policy, disclosed non-public

                                                                                60
SEMIANNUAL REPORT TO CONGRESS   Complaint Concerning Obstruction of                 information that purports to demonstrate that
                                Justice                                             Enforcement had access to specific evidence
                                                                                    that insider trading had occurred prior to
                                    The OIG is conducting an investigation
                                                                                    Enforcement closing its investigation. The
                                into a complaint that an SEC employee may
                                                                                    OIG has reviewed documentation provided by
                                be obstructing a Federal investigation. The
                                                                                    the complainant and additional
                                OIG investigator has obtained and reviewed          documentation in its possession. The OIG
                                relevant documents from the SEC and outside
                                                                                    plans to conduct an investigation of the
                                entities and is working with other Federal law
                                                                                    allegations brought to its attention.
                                enforcement agencies in the course of this
                                investigation.

                                                                                    Allegation of Unauthorized Disclosure
                                                                                    of Non-Public Information to a National
                                Complaint of Investigative Misconduct               Media Outlet
                                by Various Enforcement Attorneys
                                                                                         The OIG is completing its investigation
                                     The OIG has opened an investigation into       into an allegation that SEC staff committed
                                a complaint received from counsel for a             an unauthorized disclosure of non-public
                                defendant in an SEC Enforcement action,             SEC information to a national news outlet.
                                alleging numerous instances of misconduct by        The OIG took sworn, on-the-record
                                several Enforcement staff members during the        testimony of 12 SEC staff members from
                                course of the investigation that resulted in the    several offices and reviewed several thousand
                                filing of the action. These allegations             e-mails for relevant information. The OIG
                                included various apparent violations of the         plans to issue its report of investigation in this
                                Commission’s conduct rules and the SEC’s            matter during the next semiannual reporting
                                polices for conducting Enforcement                  period.
                                investigations. At the time it received
                                counsel’s complaint, the OIG had a related
                                pending inquiry involving the sending of            Whistleblower Allegations of
                                inappropriate e-mails by an Enforcement             Falsification of Contract Documents
                                attorney. The OIG plans to review the
                                matters covered in the inquiry and conduct an           The OIG has continued its joint
                                investigation of the allegations of staff           investigation with a Special Agent from
                                misconduct contained in counsel’s letter.           another Federal agency Office of Inspector
                                                                                    General and an attorney with a United States
                                                                                    Attorney’s Office into allegations made by a
                                Allegation of Negligence in the                     whistleblower that a contractor manipulated
                                Conduct of an Enforcement                           data in order to increase the millions of
                                Investigation                                       dollars of award fees it had obtained from the
                                                                                    SEC over a period of several years. The
                                    The OIG has opened an investigation into
                                                                                    investigators have reviewed hundreds of
                                a complaint received by a former                    documents pertaining to the contract, and
                                Enforcement attorney that Enforcement
                                                                                    have reviewed hundreds of thousands of
                                committed acts of negligence in the conduct
                                                                                    e-mails relevant to the case. The investigators
                                of an insider trading investigation. The
                                                                                    have also completed numerous interviews of
                                complaint was based upon recently-discovered


                                                                               61
SEMIANNUAL REPORT TO CONGRESS   pertinent witnesses, including the                 intends to interview additional witnesses
                                whistleblower, several SEC staff and               identified by the complainant in the matter
                                employees of the other Federal agency. The         and to take the sworn, on-the-record
                                investigators are working to obtain                testimony of the SEC Enforcement attorneys
                                documentation from the contractor, which has       who worked on the matter.
                                failed to comply with document production
                                requests from the investigating entities. The
                                investigators plan to interview numerous           Allegation of Possession of a Weapon
                                company witnesses and will re-interview an         on Federal Property
                                SEC staff member with pertinent
                                                                                        The OIG is investigating an allegation
                                information.
                                                                                   received near the end of the reporting period
                                                                                   that an SEC employee has brought a
                                                                                   prohibited weapon to the workplace on more
                                Allegation of Conflict of Interest on the
                                Part of a Senior Manager                           than one occasion, as witnessed by two fellow
                                                                                   employees. The allegation of the improper
                                    The OIG continued its investigation into       possession of a weapon surfaced in connection
                                an allegation that an SEC Senior Officer was       with management’s inquiry concerning a
                                involved in the decision to hire a contractor      statement made by the employee in an e-mail
                                with whom he had a past relationship, even         to his supervisor that was perceived as
                                though the contractor was not the lowest           threatening. Prior to the end of the reporting
                                bidder in the procurement process. During          period, the OIG conducted interviews of the
                                the reporting period, the OIG continued to         two employees who reportedly witnessed the
                                review the documentary evidence obtained in        weapon on the subject employee’s desk. The
                                the investigation and interviewed a human          OIG plans to take the sworn, on-the-record
                                resources specialist who was familiar with the     testimony of the subject of the investigation
                                contract in question. In addition to reviewing     and notify management of the outcome of
                                the allegation of conflict of interest, the OIG    that testimony.
                                has broadened the scope of its investigation to
                                review the contract selection process, as well
                                as communication of the selection to staff.        Allegation of Abusive Behavior and
                                The OIG will conclude its investigation and        Other Improper Conduct
                                issue a report on the matter in the next
                                                                                       The OIG has opened an investigation into
                                reporting period.
                                                                                   an allegation that an SEC manager has
                                                                                   engaged in a pattern of unprofessional and
                                                                                   disruptive behavior while conducing SEC
                                Allegation of Retaliatory Investigation
                                                                                   inspections of outside entities. It was further
                                    The OIG has a pending investigation into       alleged that the manager gave unethical
                                an allegation that SEC staff engaged in a          instructions to the staff. During the reporting
                                retaliatory investigation of a company after it    period, the OIG interviewed several staff
                                publicly complained about naked short selling      members, all of whom requested
                                in the company’s stock. The OIG plans to           confidentiality. The OIG plans to continue its
                                continue this investigation in the upcoming        investigation by conducting additional
                                reporting period. Specifically, the OIG


                                                                              62
SEMIANNUAL REPORT TO CONGRESS   interviews and taking sworn, on-the-record        agency that an SEC employee has been using
                                testimony.                                        SEC e-mail resources and official time to assist
                                                                                  the business of an outside individual. The
                                                                                  OIG obtained the employee’s e-mails for an
                                Allegations of Abuse of Authority and             eight-month period and conducted a thorough
                                Patterns of Discrimination                        review of those e-mails. The OIG has
                                                                                  obtained and reviewed other documentary
                                    The OIG is conducting an investigation
                                                                                  evidence and is continuing to cooperate with
                                into a complaint that two SEC Enforcement
                                                                                  the state agency’s investigation. The OIG
                                attorneys engaged in an abuse of authority
                                                                                  plans to interview relevant witnesses and take
                                and patterns of discrimination against Native
                                                                                  the sworn, on-the-record testimony of the
                                Americans during an SEC investigation of the      subject of the investigation.
                                complainant and his company. During the
                                reporting period, the OIG thoroughly
                                reviewed and analyzed materials provided by
                                                                                  Allegation of Misuse of Computer
                                the complainant, reviewed pertinent pleadings     Resources by Senior Staff Member
                                from the SEC’s Enforcement action against
                                the complainant’s company, and prepared a              The OIG plans to conduct an
                                comprehensive plan of investigation. In the       investigation into information it received from
                                next reporting period, the OIG plans to take      the SEC’s OIT Security Group, that an SEC
                                sworn, on-the-record testimony of the             senior staff member has misused computer
                                complainant and the two Enforcement               resources. Specifically, the information
                                attorneys who are subjects of the                 provided to the OIG demonstrates that the
                                investigation.                                    senior staff member may be using his SEC-
                                                                                  issued computer to view pornographic
                                                                                  websites and other inappropriate material.
                                Complaint of Misuse of Computer                   The OIG plans to review the data provided by
                                Resources and Official Time                       OIT, as well as other pertinent
                                    #                                             documentation, take the sworn, on-the-record
                                    The OIG has opened an investigation into
                                                                                  testimony of the senior staff member, and
                                a complaint received from a state government
                                                                                  interview other SEC staff as necessary.




                                                                             63
64
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                                     CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          REVIEW OF LEGISLATION
                                          AND REGULATIONS
                                              During the reporting period, the OIG            230.501-508. In our audit report, we
                                          reviewed legislation and proposed and final         specifically recommended that CF discuss the
                                          rules and regulations relating to the programs      merits of proposed changes to Regulation D
                                          and operations of the SEC, pursuant to              with the Chairman, the Commissioners and
                                          Section 4(a)(2) of the Inspector General Act.       Commission senior staff, including the
                                          As discussed in the Advice and Assistance           possibility of making the filing of a Form D a
                                          Provided to the Agency Section of this              required condition for entitles to claim the
                                          Report, the OIG provided comments on                Regulation D exemptions. Further, during
                                          several proposed internal regulations and           our review of the SEC’s restacking project, we
                                          procedures. These included, among others,           carefully reviewed the SEC’s existing unsigned
                                          draft SEC Regulations (SECR) on the Use of          space management regulation (SECR 5-8)
                                          SEC Office Equipment (SECR 24-4.3), the             and compared it with the SEC’s more
                                          SEC’s Privacy Program (SECR 24-08), and             comprehensive regulation concerning
                                          the SEC’s Paperwork Reduction Act Program           Information Technology Capital Planning
                                          (SECR 24-09), as well as the SEC Rules of           and Investment Control (SECR 24-02).
                                          the Road (SECR 24-04.A01).                          Based upon our review, we recommended that
                                                                                              the agency, using SECR 24-02 as guidance,
                                              In addition, the OIG reviewed statutes,         develop and adopt policies and procedures to
                                          rules and regulations and requirements, and         make its guidance for investment in space
                                          their impact on Commission programs and             more consistent with pertinent OMB
                                          operations, within the context of audits and        guidance.
                                          reviews conducted during the period. For
                                          example, in the audit performed of the                  In coordination with the Legislation
                                          Division of Corporation Finance’s (CF)              Committee of the CIGIE, the OIG closely
                                          Regulation D Exemption Process, we                  reviewed and tracked various legislation that,
                                          comprehensively examined the SEC rules              among other things (1) would impact and give
                                          known as Regulation D, 17 C.F.R. §§                 enhanced authority to Inspectors General;

                                                                                         65
SEMIANNUAL REPORT TO CONGRESS   (2) created and would provide additional           Additionally, the OIG reviewed and
                                powers to the Special Inspector General for        commented on legislation that would provide
                                the TARP; and (3) created the Recovery             additional funding for the SEC and
                                Transparency and Accountability Board.             specifically the OIG.




                                                                              66
U.S. Securities and Exchange Commission

                                                              SEMIANNUAL
                                                              REPORT TO
                                                              CONGRESS
                                             Office of
                                            Inspector
                                             General




                                                         STATUS OF RECOMMENDATIONS WITH
                                                             NO MANAGEMENT DECISIONS
                                           Management decisions have been made on all audit reports issued
                                                   before the beginning of this reporting period.


                                                          REVISED MANAGEMENT DECISIONS

                                                No management decisions were revised during the period.


                                            AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

                                          The Office of Inspector General agrees with all significant management
                                                       decisions regarding audit recommendations.



                                                 INSTANCES WHERE INFORMATION WAS REFUSED

                                                         During this reporting period, there were no
                                                         instances where information was refused.




                                                                            67
68
SEMIANNUAL REPORT TO CONGRESS
                                Table 1
                                List of Reports: Audits and Evaluations

                                   Audit /
                                 Evaluation                     Title                    Date Issued
                                  Number

                                   448           2008 Audit of Sensitive Payments        Mar 27, 2009


                                              Practices Related to Naked Short Selling
                                   450                                                   Mar 18, 2009
                                                      Complaints and Referrals
                                              Division of Enforcement's Disgorgement
                                   452                                                   Feb 3, 2009
                                                              Waivers
                                               Audit of Public Transportation Benefit
                                   456                                                   Mar 27, 2009
                                                             Program

                                   459           Regulation D Exemption Process          Mar 31, 2009


                                              Review of the Commission’s Restacking
                                   461                                                   Mar 31, 2009
                                                              Project

                                   462           CTR System Report – 2008 FISMA          Feb 27, 2009



                                   463          OASIS System Report - 2008 FISMA         Mar 24, 2009




                                                               69
70
                                Table 2
SEMIANNUAL REPORT TO CONGRESS


                                Reports Issued With Costs Questioned
                                or Funds Put to Better Use
                                (including disallowed costs)

                                                                                                 Number of
                                                                                                              Value
                                                                                                  Reports
                                A. REPORTS ISSUED PRIOR TO THIS PERIOD

                                  For which no management decision had been made on any issue
                                     at the commencement of the reporting period                     1         $5,604.00
                                  For which some decisions had been made on some issues at the
                                     commencement of the reporting period                            1       $129,336.00


                                B. REPORTS ISSUED DURING THIS PERIOD                                 3       $392,169.17



                                TOTAL OF CATEGORIES A AND B                                          5       $527,109.17


                                C. For which final management decisions were made during this
                                        period                                                       2         $6,223.00


                                D. For which no management decisions were made during this
                                        period                                                       2       $391,550.17


                                E. For which management decisions were made on some issues
                                                                                                     0                0
                                       during this period

                                TOTAL OF CATEGORIES C, D AND E                                       4       $397,773.17




                                                                              71
72
SEMIANNUAL REPORT TO CONGRESS
                                Table 3
                                Reports With Recommendations on
                                Which Corrective Action Has Not Been
                                Completed
                                                 RECOMMENDATIONS OPEN 180 DAYS OR MORE


                                    Audit/Inspection/            Issue Date                Summary of Recommendation
                                  Evaluation # and Title

                                365 - IT Capital Investment      03/29/2004        Publish a charter for the Information Officers
                                Decision-Making Follow-Up                          Council.


                                393 - Software Management        03/24/2005        Enhance manual controls for software
                                                                                   management.


                                                                                   Implement preventive controls for software
                                                                                   management.


                                                                                   Develop written policies and procedures for
                                                                                   software management.


                                                                                   Perform periodic inventories of software and
                                                                                   hardware.


                                                                                   Develop procedures for software acquired by
                                                                                   contractors.


                                395 - Field Offices' Integrity   05/31/2005        Complete the development of an employee
                                Program                                            manual.


                                402 - Office of the Secretary    09/20/2005        Develop a regulation involving updating and
                                                                                   posting public company forms on the Commission's
                                                                                   website.

                                412 - Oversight of PCAOB         09/28/2006        Review the Public Company Accounting Oversight
                                                                                   Board's (PCAOB) disaster contingency plan.


                                                                                   Develop procedures for several PCAOB oversight
                                                                                   issues.




                                                                              73
                                   Audit/Inspection/           Issue Date                Summary of Recommendation
SEMIANNUAL REPORT TO CONGRESS

                                 Evaluation # and Title

                                417 - Systems Security         03/22/2007        Ensure analysis of security impact for system
                                Evaluations - Blue Sheets                        modifications.


                                421 - Investment Company       09/25/2007        Develop outcome-based performance indicators for
                                Disclosure Initiatives                           disclosure initiatives.


                                428 - Electronic Documents     07/25/2007        Issue program guidance.
                                Program


                                                                                 Ensure adequate data loading and quality
                                                                                 assurance.


                                                                                 Develop written procedures for loading data work
                                                                                 from the regional offices.


                                                                                 Consider a larger forensics lab.
                                                                                 Research connectivity problems with Concordance
                                                                                 system.


                                                                                 Issue guidance on the preservation of electronic
                                                                                 records.


                                                                                 Decrease and track imaging turnaround times.



                                                                                 Perform background investigations for 13 identified
                                                                                 contract employees.


                                430 - Contract Ratifications   09/25/2007        Update SEC Regulation (SECR 10-2) to
                                                                                 incorporate requirements.


                                                                                 Reevaluate procurement in the regional offices.
                                                                                 Develop procurement procedures and provide
                                                                                 training for the regional offices.


                                                                                 Determine necessary training on expert witness
                                                                                 contracts.




                                                                            74
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/           Issue Date                Summary of Recommendation
                                 Evaluation # and Title

                                                                                 Consider requiring appointment letters for
                                                                                 Inspection and Acceptance Officials and Point of
                                                                                 Contact Officials (normally trial attorneys).
                                                                                 Add disciplinary language to ratification guidance.



                                                                                 Develop procedures to compile contract ratification
                                                                                 data semiannually.


                                432 - Oversight of Receivers   12/12/2007        Decide how often and in what format receiver/
                                and Distribution Agents                          distribution agent information should be submitted.


                                                                                 Request final accounting from receivers/distribution
                                                                                 agents.


                                                                                 Provide guidance and training to Division of
                                                                                 Enforcement (Enforcement) staff on receiver/
                                                                                 distribution agent oversight.

                                433 - Inspection of            09/30/2008        Develop a centralized tracking system for
                                Corporation Finance                              Enforcement and Division of Corporation Finance
                                Referrals                                        (CF) staff regarding non-delinquent filer referrals.

                                                                                 Record outcome information for non-delinquent filer
                                                                                 referrals.


                                                                                 Enhance CF's gatekeeper role once outcome
                                                                                 information becomes more available.


                                434 - Background               03/28/2008        Develop or acquire a case management tracking
                                Investigations                                   system.


                                436 - Usefulness of IM's       03/28/2008        Identify clear and specific objectives for Investment
                                Website                                          Management's (IM) Intranet and discuss objectives
                                                                                 with IM's Information Technology (IT) staff.

                                                                                 Improve Intranet including developing an
                                                                                 appropriate project plan that incorporates
                                                                                 applicable website best practices and systems
                                                                                 development processes.
                                437 - Security                 10/22/2007        Install cameras in Station Place parking garage.
                                Enhancements in SP
                                Parking Garage




                                                                            75
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/         Issue Date            Summary of Recommendation
                                 Evaluation # and Title

                                438 - SRO Rule Filing        03/31/2008    Enhance Self Regulatory Organization Rule
                                Process                                    Tracking System by identifying comment letters,
                                                                           improving speed, retaining proposed rule changes
                                                                           in inbox, and ensuring uploading of comment
                                                                           letters.
                                439 - Student Loan Program   03/27/2008    Undertake actions to delegate in writing authority
                                                                           for approving waivers, amend Form 2497, and
                                                                           issue guidance for approval requirements of
                                                                           Student Loan Program (SLP) awards.
                                                                           Review Office of Personnel Management regulation
                                                                           to ensure proper individual approves SLP awards.


                                                                           Ensure SLP files contain appropriate
                                                                           documentation of repayments by employees not
                                                                           completing service agreements.

                                                                           Ensure documentation in SLP files correctly
                                                                           indicates who prepared/reviewed the payments.


                                                                           Implement methods to mitigate the risk of
                                                                           fraudulent documentation submitted by employees.


                                                                           Ensure the reliability of management records
                                                                           regarding former employees.


                                                                           Review the reliability of management records
                                                                           involving former employees.


                                                                           Implement a separation of duties in the review,
                                                                           processing and approval of SLP awards.


                                                                           Consult with the Department of Interior to ensure
                                                                           that monies owed to the Commission are collected,
                                                                           documented and recorded in a timely manner.

                                                                           Conduct a thorough review of the employee
                                                                           clearance process to initiate improvements.


                                                                           Implement recommendations of contractor retained
                                                                           by the Office of Financial Management to increase
                                                                           the likelihood of collection of employee debts
                                                                           relating to the SLP or, if not feasible, prepare a
                                                                           report explaining why the recommendations were
                                                                           not implemented.




                                                                          76
SEMIANNUAL REPORT TO CONGRESS
                                   Audit/Inspection/      Issue Date                Summary of Recommendation
                                 Evaluation # and Title

                                                                            In consultation with the Union, provide supervisors
                                                                            with guidance on preparing substantial justification
                                                                            memoranda.

                                                                            Return to supervisors justification memoranda that
                                                                            lack substantiation of the criteria.


                                                                            Prepare document regarding the required criteria
                                                                            for justification memoranda for the 2008 Open
                                                                            Season.

                                                                            Implement an automated process for monitoring
                                                                            lifetime awards before the 2009 Open Season.


                                                                            Develop a plan to obtain data and a methodology
                                                                            to analyze and record data to comply with
                                                                            Collective Bargaining Agreement requirements.

                                                                            In consultation with the Union, develop a detailed
                                                                            distribution plan.


                                440 - Internal Control    09/18/2008        Revise SEC Regulation (SECR 10-6) to reflect the
                                Review of Government                        relevant procedures for cardholders to follow and
                                Purchase Card Program                       update it periodically.

                                                                            Revise SECR 10-6 and require cardholders to
                                                                            retain all relevant documentation in their files in an
                                                                            accessible manner.

                                                                            Revise SECR 10-6 to ensure compliance with the
                                                                            Federal Acquisition Regulation regarding vendor
                                                                            quotes and the $3,000 micro-purchase threshold.

                                                                            Revise SECR 10-6 to reflect current practices for
                                                                            approving IT purchases with purchase card and to
                                                                            emphasize importance of Office of Information
                                                                            Technology (OIT) approval of such purchases.
                                                                            Verify that end-of-year open obligations are rolled
                                                                            into the next fiscal year.


                                                                            Ensure completion of training and signed letter of
                                                                            delegation before issuing a purchase card.


                                                                            Revise SECR 10-6 to require notification about
                                                                            departing cardholders and immediately suspend
                                                                            the purchase card.




                                                                       77
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/            Issue Date           Summary of Recommendation
                                 Evaluation # and Title

                                                                             Revise SECR 10-6 to ensure that the program
                                                                             coordinator does not have direct access to a
                                                                             purchase card.

                                441 - Controls Over Laptops     03/31/2008   Require a method of accountability for sensitive
                                                                             property to ensure accurate accounting of laptops.


                                                                             Through OIT's Asset Management Branch (AMB),
                                                                             complete a full inventory of laptops to establish
                                                                             baseline level.

                                                                             Through the AMB, revise procedures to establish
                                                                             clear accountability for laptops.


                                                                             Specify a form to account for sensitive property,
                                                                             and include contact information for recipient of
                                                                             equipment.

                                442 - Enterprise Architecture   03/31/2008   Develop Enterprise Architecture (EA) metrics to
                                Assessment                                   assess or track Commission’s performance in
                                                                             implementing and tracking performance of SEC
                                                                             Federal Enterprise Architecture (FEA) program.
                                                                             Through the Information Technology Capital
                                                                             Planning and Investment Control Board, require
                                                                             periodic reports on EA progress overall, including
                                                                             specifically how EA can help to make strategic
                                                                             purchasing decisions.
                                                                             Reconstitute EA Working Group as an EA Steering
                                                                             Committee.


                                                                             Require the EA Steering Committee to report to the
                                                                             Information Technology Capital Planning
                                                                             Committee (ITCPC)/Executive Operations
                                                                             Committee and that the ITCPC consider input from
                                                                             EA to make strategic purchasing decisions.
                                                                             Create subcommittees on Data Management,
                                                                             Technology Standards, IT Strategy and other areas
                                                                             of focus.

                                                                             Involve EA in all technology implementations,
                                                                             especially ones that are “fast tracked.”


                                                                             Through high-level policy makers, establish a
                                                                             process that ensures participation from the EA
                                                                             team prior to approving IT initiatives.




                                                                             78
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/          Issue Date            Summary of Recommendation
                                 Evaluation # and Title

                                443 - Internet Use Policies   11/15/2007    Update and clarify Internet usage policies.
                                and Rules


                                                                            Clarify pornography definition and send staff
                                                                            reminders.


                                446A - SEC's Oversight of     09/25/2008    Reassess the guidelines and rules for capital levels
                                Bear Stearns and Related                    of Consolidated Supervised Entity (CSE) firms and
                                Entities: CSE Program                       identify instances when firms should be required to
                                                                            raise additional capital.
                                                                            Reassess Pillar 2 of the Basel II framework and
                                                                            CSE program guidelines regarding liquidity and
                                                                            make appropriate changes to program's liquidity
                                                                            requirements.
                                                                            Incorporate a firm's concentration of securities into
                                                                            the CSE program's assessment of the firm's risk
                                                                            management systems and more aggressively
                                                                            prompt firms to take appropriate actions to mitigate
                                                                            such risks.
                                                                            Reassess the CSE program's policy regarding
                                                                            leverage ratio limits and determine under what
                                                                            circumstances to impose leverage ratio limits on
                                                                            the CSEs.
                                                                            Ensure that CSE firms have specific criteria for
                                                                            reviewing and approving models used for pricing
                                                                            and risk management, and that the review and
                                                                            approval process is performed independently,
                                                                            thoroughly, and timely; impose limits on risk taking
                                                                            by firms if it is determined that the firm's risk
                                                                            management is not adequate.
                                                                            Be more skeptical of the CSE firms' risk models
                                                                            and work with the firms on developing additional
                                                                            stress scenarios.

                                                                            Be involved in the formulation of action plans for a
                                                                            variety of distress or disaster scenarios, including
                                                                            plans for every stress scenario that CSE firms use
                                                                            in risk management.
                                                                            Ensure that mark disputes do not enable CSE firms
                                                                            to inflate the combined capital of two firms by using
                                                                            inconsistent marks.

                                                                            Encourage CSE firms to use VaR (Value-at-Risk)
                                                                            and other risk management data in a manner
                                                                            consistent with how the firms use the data
                                                                            internally and that allows the risk factors to be
                                                                            applied consistently to trading desks.




                                                                           79
SEMIANNUAL REPORT TO CONGRESS     Audit/Inspection/      Issue Date                Summary of Recommendation
                                Evaluation # and Title

                                                                           Ensure that CSE firms take appropriate valuation
                                                                           deductions for illiquid, hard-to-value assets and
                                                                           appropriate capital deductions for stressed repos.

                                                                           Discuss risk tolerance with the CSE firms' Board of
                                                                           Directors and senior management.


                                                                           Require compliance with existing rule requiring
                                                                           external auditors to review the CSE firms' risk
                                                                           management control systems, or seek Commission
                                                                           approval for deviation from this requirement.
                                                                           Ensure that reviews of a CSE firm's Contingency
                                                                           Funding Plan include an assessment of the firm's
                                                                           internal and external communication strategies.

                                                                           Reassess all prior Office of Compliance Inspections
                                                                           and Examinations (OCIE) issues to ensure no
                                                                           significant issues are unresolved, and follow up on
                                                                           all significant unresolved issues.
                                                                           Improve collaboration between the Divisions of
                                                                           Trading and Markets (TM) and Corporation Finance
                                                                           (CF), and determine whether CSE program
                                                                           information could be used in CF's filing reviews.
                                                                           Develop a collaboration agreement between TM
                                                                           and OCIE that maintains a clear delineation of
                                                                           responsibilities and inform the Chairman's Office of
                                                                           any disagreements.
                                                                           Develop an agreement between TM and the Office
                                                                           of Risk Assessment (ORA) that outlines their roles
                                                                           and responsibilities and methods of information
                                                                           sharing, such as communicating project results,
                                                                           and notify the Chairman's Office of any
                                                                           disagreements.
                                                                           Develop internal guidelines for timely CF filing
                                                                           reviews, and track and monitor compliance with
                                                                           these guidelines.

                                                                           Establish a policy outlining when firms are
                                                                           expected to respond substantively to issues raised
                                                                           in CF comment letters, and track and monitor
                                                                           compliance with this policy.
                                                                           Create a task force led by ORA to determine the
                                                                           costs and benefits of supervising on a consolidated
                                                                           basis large firms that hold significant amounts of
                                                                           customer funds and have unregulated entities.
                                                                           Determine what additional changes need to be
                                                                           made to the CSE program in light of the collapse of
                                                                           Bear Stearns and the changing economic
                                                                           environment.




                                                                      80
SEMIANNUAL REPORT TO CONGRESS
                                   Audit/Inspection/           Issue Date                Summary of Recommendation
                                 Evaluation # and Title

                                                                                 Fill critical staff positions and assess whether
                                                                                 additional staff will be needed to carry out the CSE
                                                                                 program's function going forward; establish
                                                                                 milestones for completing each phase of an
                                                                                 inspection and implement a procedure to ensure
                                                                                 the milestones are met.
                                                                                 Continue to seek ways to increase communication,
                                                                                 coordination, and information sharing with the
                                                                                 Federal Reserve and other Federal regulators.

                                446B - SEC's Oversight of      09/25/2008        Establish a timeframe to update and finalize
                                Bear Stearns and Related                         temporary rules 17h-1T and 17h-2T within six
                                Entities: Broker-Dealer Risk                     months.
                                Assessment Program
                                                                                 Determine whether Bear Stearns and the broker-
                                                                                 dealers (BDs) of the other CSE firms are required
                                                                                 to file Form 17-H and, if it is determined they are
                                                                                 required to file the form, enforce compliance with
                                                                                 the filing requirement and timely process and
                                                                                 review these filings.
                                                                                 At least annually remind the BDs subject to the
                                                                                 Broker-Dealer Risk Assessment (BDRA) program
                                                                                 of their obligation to retain the information specified
                                                                                 in temporary rule 17h-1T, and determine BD
                                                                                 compliance with this requirement.
                                                                                 Comply with written policy to document the staff's
                                                                                 review of quarterly 17(h) filings with a written
                                                                                 memorandum, or update written policy
                                                                                 appropriately to ensure review of 17(h) filings is
                                                                                 properly and adequately documented.
                                                                                 Develop within three months a current list, with
                                                                                 supporting documentation, of all BDs that are
                                                                                 exempt from filing Form 17-H, and continuously
                                                                                 update this list.
                                                                                 Aggressively encourage firms to file Form 17-H
                                                                                 electronically, using the BDRA system.


                                                                                 Ensure the BDRA system includes financial
                                                                                 information, staff notes and other written
                                                                                 documentation and is used to generate
                                                                                 management reports.
                                                                                 Resolve technical problems with the BDRA system.



                                447 - Audit of Premium         09/29/2008        Revise current policies and procedures to ensure
                                Travel                                           they are comprehensive and current.




                                                                            81
SEMIANNUAL REPORT TO CONGRESS
                                   Audit/Inspection/         Issue Date                 Summary of Recommendation
                                 Evaluation # and Title

                                                                               Update the current travel website to ensure all
                                                                               travel policies and procedures, including those on
                                                                               travel upgrades, are maintained electronically in
                                                                               one location for easy retrieval.
                                                                               Enhance travel computer system to produce travel
                                                                               upgrade data and implement procedures to ensure
                                                                               all upgrades are approved prior to travel.

                                                                               Implement policy prohibiting subordinates from
                                                                               approving supervisors' travel.


                                                                               Revise current policy to address situations
                                                                               involving travel from a telework location and
                                                                               prohibit travel from a telework location if it results in
                                                                               additional cost to the SEC.
                                                                               Enforce immediately and include in policies and
                                                                               procedures the Office of Management and
                                                                               Budget's (OMB) requirement to restrict premium
                                                                               class travel for temporary duty when the employee
                                                                               is not required to report for duty the following day.
                                449 - Survey of              09/29/2008        Develop formal written policies for entering
                                Enforcement's HUB System                       information into the HUB system, including clearly
                                                                               defining roles and responsibilities of staff, and
                                                                               ensure system users are aware of and have
                                                                               access to the policies.
                                                                               Perform an assessment of authorized users to
                                                                               ensure the proper personnel are utilizing the
                                                                               system fully and appropriately, and add a date
                                                                               requirement for "Authorities Consulted and
                                                                               Referrals to Other Regulators."
                                                                               Finalize the reports feature and incorporate the
                                                                               ability to develop customized reports that can be
                                                                               exported into spreadsheets.

                                                                               Ensure the Hub system users become aware of the
                                                                               system's features and advantages.


                                                                               Review the OIG survey comments to identify areas
                                                                               that can be enhanced within the Hub system.


                                451 - 2008 FISMA Executive   09/29/2008        Complete the security controls and contingency
                                Summary Report                                 plan testing for the remaining systems.


                                                                               Address certain requirements, including modifying
                                                                               all contracts related to common security settings to
                                                                               include the new Federal Acquisition Regulation
                                                                               2007-004 language.


                                                                          82
SEMIANNUAL REPORT TO CONGRESS
                                   Audit/Inspection/           Issue Date                Summary of Recommendation
                                 Evaluation # and Title

                                                                                 Use this Executive Summary Report, along with the
                                                                                 completed OIG reporting template, to develop the
                                                                                 SEC's annual consolidated Federal Information
                                                                                 Security Management Act Report in accordance
                                                                                 with OMB Memorandum M-08-21.
                                454 - The Division of          09/16/2008        Revise policy on the selection of receivers and
                                Enforcement's Draft Policies                     independent consultants to address actual and
                                and Procedures Governing                         apparent conflicts of interest and provide guidance
                                the Selection of Receivers,                      to staff.
                                Fund Administrators,
                                Independent Distribution
                                Consultants, Tax
                                Administrators and
                                Independent Consultants
                                                                                 Determine whether any time limit should be placed
                                                                                 on a request for conflict of interest or background
                                                                                 information, or whether that information should be
                                                                                 requested for more than five years.


                                                                                 Include in attachment to policy the applicant's
                                                                                 certification that the information provided is
                                                                                 complete and truthful and that the applicant
                                                                                 understands the consequences for providing false
                                                                                 information.
                                455 - Attorney Annual          09/09/2008        Require all SEC attorneys to certify annually that
                                Certification of Bar                             they are active bar members and to acknowledge
                                Membership                                       that their failure to maintain active bar membership
                                                                                 may result in referral to the appropriate authorities
                                                                                 and/or disciplinary action.




                                                                            83
84
SEMIANNUAL REPORT TO CONGRESS   Table 4
                                Summary of Investigative Activity


                                                                 CASES                     NUMBER


                                      Cases Open as of 9/30/08                               17
                                      Cases Opened during 10/1/08 - 3/31/09                  14
                                      Cases Closed during 10/1/08 - 3/31/09                  10
                                      Total Open Cases as of 3/31/09                         21
                                      Referrals to Department of Justice for Prosecution     3
                                      Prosecutions                                           0
                                      Convictions                                            0
                                      Referrals to Agency for Disciplinary Action            10



                                                      PRELIMINARY INQUIRIES                NUMBER


                                      Inquiries Open as of 9/30/08                           23
                                      Inquiries Opened during 10/1/08 - 3/31/09              69
                                      Inquiries Closed during 10/1/08 - 3/31/09              43
                                      Total Open Inquiries as of 3/31/09                     49
                                      Referrals to Agency for Disciplinary Action            4



                                                       DISCIPLINARY ACTIONS                NUMBER


                                      Removals (Including Resignations)                      4
                                      Suspensions                                            0
                                      Reprimands                                             4
                                      Warnings/Other Actions                                 1




                                                                       85
86
SEMIANNUAL REPORT TO CONGRESS   Table 5
                                Summary of Complaint Activity

                                                                     DESCRIPTION              NUMBER


                                 Complaints Pending Disposition at Beginning of Period          4

                                 Hotline Complaints Received                                   178

                                 Other Complaints Received                                      96

                                 Total Complaints Received                                     274

                                 Complaints on which a Decision was Made                       260

                                 Complaints Awaiting Disposition at End of Period               18



                                 Disposition of Complaints During the Period

                                 Complaints Resulting in Investigations                         11

                                 Complaints Resulting in Inquiries                              62

                                 Complaints Referred to OIG Office of Audits                    5

                                 Complaints Referred to Other Agency Components                133

                                 Complaints Referred to Other Agencies                          10

                                 Complaints Included in Ongoing Investigations or Inquiries     7

                                 Response Sent/Additional Information Requested                 27

                                 No Action Needed                                               12




                                                                               87
88
SEMIANNUAL REPORT TO CONGRESS   Table 6
                                References to Reporting Requirements
                                of the Inspector General Act

                                 The Inspector General Act of 1978, as amended, specifies reporting requirements for
                                 semiannual reports to Congress. The requirements are listed below and indexed to the
                                 applicable pages.



                                                       INSPECTOR GENERAL ACT REPORTING REQUIREMENT                       PAGES
                                  Section 4(a)(2)   Review of Legislation and Regulations                                65-66

                                  Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                       11-13,
                                                                                                                         16-36,
                                                                                                                         40-58
                                  Section 5(a)(2)   Recommendations for Corrective Action                                11-13,
                                                                                                                         16-36,
                                                                                                                         40-58
                                  Section 5(a)(3)   Prior Recommendations Not Yet Implemented                            73-83

                                  Section 5(a)(4)   Matters Referred to Prosecutive Authorities                          40-58,
                                                                                                                           85
                                  Section 5(a)(5)   Summary of Instances Where Information Was Unreasonably               67
                                                    Refused or Not Provided


                                  Section 5(a)(6)   List of OIG Audit, Inspection and Evaluation Reports Issued During    69
                                                    the Period
                                  Section 5(a)(7)   Summary of Significant Reports Issued During the Period              16-36,
                                                                                                                         40-58
                                  Section 5(a)(8)   Statistical Table on Management Decisions with Respect to             71
                                                    Questioned Costs
                                  Section 5(a)(9)   Statistical Table on Management Decisions on Recommendations          71
                                                    That Funds Be Put To Better Use


                                  Section 5(a)(10) Summary of Each Audit, Inspection or Evaluation Report Over Six        67
                                                   Months Old for Which No Management Decision Has Been Made


                                  Section 5(a)(11) Significant Revised Management Decisions                               67

                                  Section 5(a)(12) Significant Management Decisions with Which the Inspector              67
                                                   General Disagreed




                                                                              89
4
                                      APPENDIX A




     Testimony of H. David Kotz
       Inspector General of the
 Securities and Exchange Commission




Before the U.S. House of Representatives
    Committee on Financial Services

       Monday, January 5, 2009
             2:00 p.m.
                                      Introduction

       Good afternoon. Thank you for the opportunity to testify today before this

Committee on the subject of “Assessing the Madoff Ponzi Scheme” as the Inspector

General of the Securities and Exchange Commission (“SEC” or “Commission”). I

appreciate the interest of the Chairman, as well as the other members of the Committee,

in the SEC and the Office of Inspector General. In my testimony today, I am

representing the Office of Inspector General, and the views that I express are those of my

Office, and do not necessarily reflect the views of the Commission or any

Commissioners.

       I would like to begin my brief remarks this afternoon by discussing the role of my

Office and the oversight efforts that we have undertaken since I was appointed as the

Inspector General of the SEC approximately one year ago, in late December 2007.

       The mission of the Office of Inspector General is to promote the integrity,

efficiency and effectiveness of the critical programs and operations of the Securities and

Exchange Commission. I firmly believe that this mission is best achieved by having a

vigorous and independent Office of Inspector General to investigate and audit

Commission activities and to keep the Commission and Congress informed of significant

issues and findings.

       The SEC Office of Inspector General includes the positions of Inspector General,

Deputy Inspector General, Counsel to the Inspector General, and has staff in two major

areas: Audits and Investigations. Our audit unit conducts, coordinates and supervises

independent audits and evaluations related to the Commission’s internal programs and

operations. The primary purpose of conducting an audit is to review past events with a




                                             1
view toward ensuring compliance with applicable laws, rules and regulations and

improving future performance. Upon completion of an audit or evaluation, the OIG

issues an independent report that identifies any deficiencies in Commission operations,

programs, activities, or functions and makes recommendations for improvements in

existing controls and procedures.

       The Office’s investigations unit responds to allegations of violations of statutes,

rules and regulations, and other misconduct by Commission staff and contractors. We

carefully review and analyze the complaints we receive and, if warranted, conduct a

preliminary inquiry or full investigation into a matter. The misconduct investigated

ranges from fraud and other types of criminal conduct to violations of Commission rules

and policies and the Government-wide conduct standards. The investigations unit

conducts thorough and independent investigations into allegations received in accordance

with National Investigative Quality Standards. Where allegations of criminal conduct

are involved, we notify and work with the Department of Justice and the Federal Bureau

of Investigation as appropriate.

                                      Audit Reports

       I am proud to report that notwithstanding a small staff, the Office of Inspector

General at the SEC has issued numerous audit and investigative reports over the past year

involving issues critical to SEC operations and the investing public.

       In September 2008, our audit unit issued a comprehensive report analyzing the

Commission’s oversight of the SEC’s Consolidated Supervised Entity (CSE) program,

which included Bear Stearns, Goldman Sachs, Morgan Stanley, Merrill Lynch and

Lehman Brothers. The report provided a detailed examination of the adequacy of the




                                             2
Commission’s monitoring of Bear Stearns, including the factors that led to its collapse.

The audit identified deficiencies in the CSE program that warranted improvement and

identified 26 recommendations that, if implemented, would have significantly improved

the Commission’s oversight of the CSE firms. The Office of Inspector General audit unit

also issued a second report during the same time period, analyzing the Commission’s

Broker-Dealer Risk Assessment program. This program operates pursuant to SEC rules

which require broker-dealers that are part of a holding company structure with at least

$20 million in capital to register with the Commission and provide information on the

broker-dealer, the holding company, and other entities within the holding company

system. The audit found that the SEC was not fulfilling all of its obligations in

connection with the Broker-Dealer Risk Assessment Program and made several

recommendations to improve the program.

       The Office of Inspector General’s audit unit has also issued numerous other

reports over the past year relating to issues such as the Self-Regulatory Organization

(SRO) rule filing process, the Commission’s Personnel Security/Suitability program, the

Division of Enforcement’s oversight of receivers and distribution agents and its case-

management system, the SEC government purchase card program, the Office of Financial

Management’s controls over premium travel, the Commission’s student loan repayment

program, and numerous Office of Information Technology issues such as information

security, enterprise architecture, and appropriate controls over laptop computers. These

audits are described in our semiannual reports to Congress and the individual audit

reports are available on our website.




                                             3
                                  Investigative Reports

       We also have a vibrant and vigorous investigative unit that is conducting or has

completed over 50 comprehensive investigations of allegations of violations of statutes,

rules and regulations, and other misconduct by Commission staff members and

contractors. Several of these investigations involved senior-level Commission

employees and represent matters of great concern to the Commission, Congressional

officials and the general public. Where appropriate, we have reported evidence of

improper conduct and made recommendations for disciplinary actions, including

terminations. Specifically, over the past year, we have issued investigative reports

regarding claims of improper preferential treatment given to prominent persons,

retaliatory termination, the failure by the Division of Enforcement to vigorously pursue

an Enforcement investigation, conflicts of interest involving an Enforcement

investigation and concerning the solicitation of services by an outside contractor, perjury

by supervisory Commission attorneys, misrepresentation of professional credentials,

falsification of personnel forms and the misuse of official positions and government

resources. Where appropriate, we have also referred our investigative findings to the

Department of Justice for possible criminal prosecution. We are continuing to follow up

with the Department and the Federal Bureau of Investigations on several ongoing

criminal matters.

                                The Madoff Investigation

       It is with this background in mind that I wish to discuss our planned efforts to

investigate matters related to Bernard Madoff and affiliated entities. On the late evening

of December 16, 2008, SEC Chairman Christopher Cox contacted me and asked my




                                             4
office to undertake an investigation into allegations made to the SEC regarding Mr.

Madoff, going back to at least 1999, and the reasons that these allegations were found to

be not credible. The Chairman also asked that we investigate the SEC’s internal policies

that govern when allegations of fraudulent activity should be brought to the Commission,

whether those policies were followed, and whether improvements to those policies are

necessary. In addition, he requested that the investigation include all staff contact and

relationships with the Madoff family and firm, and any impact such relationships had on

staff decisions regarding the firm.

       Early on December 17, 2008, we opened an official investigation into the Madoff

matter. Since then, we have been working at a rapid pace to begin this important work.

On December 18, 2008, we issued a document preservation notice to the entire

Commission informing them that the Office of Inspector General has initiated an

investigation regarding all Commission examinations, investigations or inquiries

involving Bernard L. Madoff Investment Securities, LLC, and any related individuals or

entities. We formally requested that each employee and contractor in the Commission

preserve all electronically-stored information and paper records related to Bernard L.

Madoff Investment Securities, LLC in their original format.

       Over the next few days, we met with senior officials from the Commission’s

Division of Enforcement and the Office of Compliance Inspections and Examinations,

known as “OCIE,” to ensure their cooperation in our investigation and our ability to gain

access to their files and records. We also met with the Chairman’s office to seek

information and documentation relevant to the investigation.




                                             5
       On December 24, 2008, we sent comprehensive document requests to both the

Division of Enforcement and OCIE specifying the documents and records we required to

be produced for the investigation. We requested that all responsive documents be

provided to our Office by January 16, 2009. In addition, we made several formal

expedited requests to the SEC’s Office of Information Technology for searches of the e-

mails of former and current employees and contractors for information relevant to the

investigation, both at headquarters and the New York and Boston Regional Offices, and

have already received and are in the process of reviewing these e-mails.

       We have also already begun efforts to obtain additional resources to assist the

Office in undertaking this investigation. We are securing additional office space and

administrative assistance and hope to add four new investigators to our Office’s current

investigative team.

       We have also begun identifying the particular issues that need to be investigated

and are reviewing and updating daily the list of witnesses that we plan to interview. We

intend to begin conducting these interviews immediately and, for example, have already

scheduled a meeting with Harry Markopoulos for later this month for an in-depth

interview on the record. We have also already met and spoken with numerous

individuals informally as part of our initial investigative efforts.

       It is our opinion that the matters that must be analyzed regarding the SEC and

Bernard Madoff may go beyond the specific issues that SEC Chairman Cox has asked us

to investigate. We believe that in addition to conducting a thorough and comprehensive

investigation of the specific complaints that were allegedly brought to the SEC’s attention

regarding Mr. Madoff and the reasons for the SEC’s apparent failure to act upon these




                                               6
complaints, as well as the staff’s contact and relationships with the Madoff family and

firm and their impact on Commission decisions regarding Mr. Madoff, our oversight

efforts must include an evaluation of broader issues regarding the overall operations of

the Division of Enforcement and OCIE that would bear on the specific questions we are

examining, and provide overarching and comprehensive recommendations to ensure that

the Commission fulfills its mission of protecting investors, facilitating capital formation

and maintaining fair, orderly and efficient markets.

       At this early stage, I thought it would be useful to identify the specific issues

related to Bernard Madoff that, as a preliminary matter, we intend to investigate or

review. Obviously, as the investigative efforts are just beginning, I am not in a position

to provide any conclusions or findings with regard to the allegations that have been raised

and do not wish to make any preliminary judgments before we have had a chance to

analyze all the information. In addition, as underlying evidence relevant to the work of

the Office of Inspector General could also be relevant to the pending criminal or SEC

investigations into possible violations of the securities laws, I am being mindful not to

comment on anything that may affect or interfere with those investigations.

       The following are specific issues that we currently intend to investigate:

       (a)     The SEC’s response to complaints it received regarding the activities of

Bernard Madoff, including any complaints sent to the Division of Enforcement, OCIE,

the Office of Risk Assessment and/or the Office of Investor Education and Advocacy.

We plan to trace the path of these complaints through the Commission from inception,

reviewing what, if any, investigative or other work was conducted with respect to these

allegations, and analyze whether the complaints were handled in accordance with




                                             7
Commission policies and procedures and whether further work should have been

conducted;

       (b)     Allegations of conflicts of interest regarding relationships between any

SEC officials or staff and members of the Madoff family, including examining the role a

former SEC official who allegedly had a personal relationship with a Madoff family

member may have played in the examination or other work conducted by the SEC with

respect to Bernard Madoff or related entities, and whether such role or such relationship

in any way affected the manner in which the SEC conducted its regulatory oversight of

Bernard Madoff and any related entities;

       (c)     The conduct of examinations and/or inspections of Bernard Madoff

Investment Securities LLC by the SEC and an analysis of whether there were “red flags”

that were overlooked by SEC examiners and inspectors (which may have been identified

by other entities conducting due diligence), that could have led to a more comprehensive

examination and inspection, including a review of whether the SEC violated its own

policies and procedures by not conducting timely reviews or examinations of Bernard

Madoff’s activities and filings; and

       (d)     The extent to which the reputation and status of Bernard Madoff and the

fact that he served on SEC Advisory Committees, participated on securities industry

boards and panels, and had social and professional relationships with SEC officials, may

have affected Commission decisions regarding investigations, examinations and

inspections of his firm.




                                            8
        In addition to these specific issues and depending upon the information that we

learn during the course of our investigation, we plan to consider analyzing the following

broader issues, as appropriate:

        (a)     The complaint handling procedures of the Division of Enforcement,

including a review of how complaints are processed, internal incentives that may affect

the decision whether to take action with respect to a complaint, an analysis of which

complaints are brought to the Commissioners’ and Chairman’s attention, and whether

tangible and specific complaints are being reviewed and followed-up on appropriately;

        (b)     The OCIE examination and inspection procedures, including an analysis

of what policies and procedures were then and are currently in place, whether these

policies and procedures are being followed and/or whether there are gaps in these policies

and procedures relating to operations involving voluntary private investment pools, such

as hedge funds, because they are subject to limited oversight by the SEC, and whether

any such gaps may lead to fraudulent activities not being detected; and

        (c)     The relationships between different divisions and offices within the

Commission and whether there is sufficient intra-agency collaboration and

communication between the Agency components to ensure comprehensive oversight of

regulated entities.

        Obviously, this is an ambitious investigative agenda, but I firmly believe that the

circumstances surrounding the Bernard Madoff matter may very well dictate a more

expansive analysis of Commission operations. Moreover, it is my view that at the end of

these investigative efforts, there needs to be more than just the potential identification of

individuals who may have engaged in inappropriate behavior or potentially failed to




                                              9
follow-up appropriately on complaints, but rather an attempt to provide the Commission

with concrete and specific recommendations as appropriate to ensure that the SEC has

sufficient systems and resources to enable it to respond appropriately and effectively to

complaints and detect fraud through its examinations and inspections.

        Of course, even with a limited staff and with many of our auditors and

investigators already engaged in ongoing matters, some of which should simply not be

halted even in the face of a significant priority such as this one, I understand that it is

critical that our investigative efforts be conducted expeditiously. I fully understand that it

is crucial for the Commission, the Congress and the investing public that answers be

given to the very serious questions regarding the SEC’s earlier efforts relating to Mr.

Madoff in a prompt and swift manner. For this reason, as I mentioned, I am mobilizing

additional resources to ensure that our Office makes every possible effort to conclude our

investigations and reviews as soon as possible. We are considering preparing reports on

a “rolling basis” – assuming that we can identify discrete issues that may be resolved

separately and expeditiously – so that some conclusions may be provided very shortly.

        Finally, I can assure you that our investigation and review will be independent

and as hard-hitting as necessary. While we approach these efforts with an open mind and

at this stage of the investigation we have not reached any conclusions or made any

findings, the matters that have been brought to our attention require careful scrutiny and

review. We will conduct our work in a comprehensive and thorough manner and, if we

find that criticism of the SEC is warranted and supported by the facts, we will not hesitate

to report the facts and conclusions as we find them. I think that if you review the reports

issued by our office over the past year, you will see that where we have found that




                                              10
criticism of the SEC or SEC officials to be warranted, we have reported our findings and

concerns in a frank, yet constructive manner.

                                  Concluding Remarks

       In conclusion, we appreciate the Chairman’s and the Committee’s interest in the

SEC and our Office. I believe that the Committee’s and Congress’s involvement with the

SEC is helpful to strengthen the accountability and effectiveness of the Commission. I

believe very strongly that a dynamic and effective Office of Inspector General is critical

to achieving the aims of all federal agencies, including the SEC, and take very seriously

our Office’s responsibility to promote efficiency and effectiveness within the

Commission and to detect and report waste, fraud and abuse. We intend to conduct our

investigative efforts promptly and thoroughly. Thank you.




                                            11
APPENDIX B
4
   Help ensure the integrity of SEC operations by reporting to the OIG suspected fraud,
waste or abuse in SEC programs or operations, and SEC staff or contractor misconduct by
contacting the OIG.

   Call:
   Hotline# #        (877) 442-0854
   Main Office#      (202) 551-6061

   Web-Based Hotline Complaint Form:
   www.sec-oig.gov/ooi/hotline.html

   Fax:#      #      (202) 772-9265

   Write:
   Office of Inspector General
   U.S. Securities and Exchange Commission
   100 F Street, N.E.
   Washington, D.C. 20549-2736

   Email:
   oig@sec.gov


                     Information received is held in confidence upon request.
       While the OIG encourages complainants to provide information on how they may be
       contacted for additional information, anonymous complaints are also accepted.




                                           90
U.S. Securities
and Exchange
 Commission




        Additional copies of this report may be obtained by contacting the
                  Ofﬁce of Inspector General at (202) 551-6061.

        The report is also available on the Inspector General's website at
                                 www.sec-oig.gov.
